<html>
<title> - [H.A.S.C. No. 114-111] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-111]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                     THE FISCAL YEAR 2017 NATIONAL

                      DEFENSE AUTHORIZATION BUDGET

                 REQUEST FROM THE MILITARY DEPARTMENTS

                               __________

                              HEARING HELD

                             MARCH 16, 2016



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-063                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          












                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk























                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

James, Hon. Deborah Lee, Secretary of the Air Force; accompanied 
  by Gen Mark A. Welsh III, USAF, Chief of Staff of the Air Force     7
Mabus, Hon. Ray, Secretary of the Navy; accompanied by ADM John 
  M. Richardson, USN, Chief of Naval Operations, and Gen Robert 
  B. Neller, USMC, Commandant of the Marine Corps................     5
Murphy, Hon. Patrick J., Acting Secretary of the Army; 
  accompanied by GEN Mark A. Milley, USA, Chief of Staff, United 
  States Army....................................................     3

                                APPENDIX

Prepared Statements:

    James, Hon. Deborah Lee, joint with Gen Mark A. Welsh III....   154
    Mabus, Hon. Ray..............................................    76
    Murphy, Hon. Patrick J., joint with GEN Mark A. Milley.......    59
    Richardson, ADM John M.......................................   124
    Neller, Gen Robert B.........................................   138

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   171
    Mr. Rogers...................................................   171

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   189
    Mr. Brooks...................................................   188
    Mr. Coffman..................................................   184
    Mr. Conaway..................................................   180
    Dr. Fleming..................................................   190
    Mr. Lamborn..................................................   181
    Mr. Langevin.................................................   175
    Mr. Shuster..................................................   179
    Ms. Stefanik.................................................   189













THE FISCAL YEAR 2017 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                        THE MILITARY DEPARTMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 16, 2016.
    The committee met, pursuant to call, at 10:06 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee meets today to hear from the service secretaries and 
the service chiefs, and we are grateful to each of you for 
being here today.
    The Director of the Defense Intelligence Agency [DIA] 
testified earlier this month that the world is far more 
complicated, it is far more destabilized, it is far more 
complex than at any time we have seen. Just last month the 
Chairman of the Joint Chiefs testified before the 
Appropriations Defense Subcommittee, the joint force will be 
stressed to execute a major contingency operation to aggression 
by an adversary.
    We face a more dangerous world, and we face a stressed 
force and a high operational tempo, all major concerns for this 
committee. We talk a lot about readiness, but as one of our 
senior military leaders has said, the real--real bill payer for 
underfunded readiness is lost lives, and I think that helps 
bring it into context for all of us.
    Of course, the challenge in today's complex world is we 
can't just focus on one thing. We face everything from a 
serious nuclear threat from peer competitors to continuing 
threat of terrorism and aggression from a variety of actors. So 
we all face a number of challenges at the same time. I am sure 
that we will explore a number of those issues over the course 
of this hearing, as well as the administration's budget request 
and how well it meets those challenges, both around the world 
and within our force.
    Finally, I would just note that yesterday I made some 
proposals to improve our acquisition system. I don't expect 
that you all have had the time to look and react to those, but 
I do solicit your feedback on what you think is good and what 
you think could be better. And working with you as well as 
folks in OSD [Office of the Secretary of Defense] and obviously 
all of our colleagues and folks outside the building, we want 
to take further steps to improve the way that the Pentagon 
acquires goods and services.
    Before introducing our witnesses, I will yield to the 
distinguished gentlelady from California, who is sitting in for 
the ranking member, Ms. Sanchez.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman, and thank you all for 
being before us today. I want to thank you for all of your 
service. Before I begin, I would like to insert for the record, 
ask unanimous consent to put Mr. Smith's opening remarks in, 
please, Mr. Chairman.
    The Chairman. Without objection.
    Ms. Sanchez. So we live today in a world where the security 
environment is constantly changing, and so we have the 
responsibility to keep up with those changes. There are threats 
today that we are facing that we didn't know about even last 
year, and the threats are vast. And so I understand that all 
the services today, that you face so many--you get pulled in so 
many different directions to defend and to protect our country 
and Americans, and so thank you for the service and the 
sacrifice.
    With the rise of ISIL [Islamic State of Iraq and the 
Levant] and extremism, it has become pretty apparent that we 
have to use all elements of power with those growing threats 
today. And I do completely agree with the Secretary in his 
written statement in terms of the different elements of power, 
and each element is necessary for combination with the others. 
However, each alone is insufficient to win a war or maintain a 
peace. And in the last couple of years it has become evident 
that military might alone is not enough to address the rising 
threats.
    The U.S. must take the necessary investments in diplomacy 
and economic stability and in collective security to be more 
effective against today's threats. It is time for us to further 
engage our partners so that we can prevent terrorist attacks 
like the one in the Ivory Coast. The U.S. cannot combat ISIL 
and terrorism alone, and we have to be able to rely on our 
regional allies militarily and financially as we continue to 
fight against terrorism. And we have a budget problem, and we 
all know that, and we can't fix this problem without addressing 
the defense budget.
    It is time not just for the services, but also for us in 
Congress to really sit down at the table and get down to the 
hard decisions, Mr. Chairman, to prioritize what we need and 
what is not a critical need. And we have to do that in the 
defense budget because it must be sustainable. As you said, a 
lack of resources is really a cost that none of us want to see. 
And I hope that you will speak to that, all of you.
    And I would also like to commend the Defense Department 
[DOD] and the services for all your efforts in opening up the 
military occupation and positions to women. As the services go 
forward in integrating women into these positions, I believe 
that leadership will be key. And I hope to hear from you the 
steps that each of the services is doing in order to ensure 
that we get that done.
    We are celebrating Women's History Month right now, and for 
that reason in particular, I would like to recognize all those 
women who have served in our military and are currently 
serving. I believe that the full integration of women into the 
military will not only open up the opportunities for these 
women, but they will enhance our readiness of our military. So 
I thank you, and I look forward to your testimony.
    The Chairman. I thank the gentlelady.
    Let me again welcome our witnesses. We have Mr. Patrick 
Murphy, Acting Secretary of the Army; General Mark Milley, 
Chief of Staff of the Army; Honorable Ray Mabus, Secretary of 
the Navy; Admiral John Richardson, Chief of Naval Operations 
[CNO]; General Robert Neller, Commandant of the Marine Corps; 
Honorable Deborah Lee James, Secretary of the Air Force; and 
General Mark Welsh, Chief of Staff of the Air Force.
    For some of you all, I think this may be your first 
opportunity to testify in this format. I do note Mr. Murphy was 
once on this side of the table, and now he is on that side. It 
will be interesting to see whether people go easy on him or 
not. For some of you all, this may be your last time to testify 
in this format.
    I just want to take a moment to acknowledge Mrs. Welsh, who 
is in the audience. One of the things that I have learned to 
appreciate is the full-time job which the spouses of our 
service chiefs occupy in supporting the force in their way, in 
the families. It is a tremendous asset for our country, and I 
appreciate all that you have done not only to support General 
Welsh over you all's career, but what you have done to support 
all of the airmen who have served our country. And the same is 
true for all of your spouses.
    Without objection, your full written statements will be 
made part of the record, and we would be pleased to hear any 
introductory comments you would like to make.
    Secretary Murphy.

 STATEMENT OF HON. PATRICK J. MURPHY, ACTING SECRETARY OF THE 
 ARMY; ACCOMPANIED BY GEN MARK A. MILLEY, USA, CHIEF OF STAFF, 
                       UNITED STATES ARMY

    Mr. Murphy. Thank you, Mr. Chairman and members of this 
committee. It is great to be back on this side of the dais, and 
I appreciate the opportunity to discuss our Army with you here 
today. This is my tenth week on the job as Acting Secretary of 
the Army, and it is truly an honor to be back with my Army 
family.
    Now, I have traveled to see our soldiers, our civilians, 
and their families to Fort Hood, to Fort Sam Houston, and most 
recently to Iraq and Afghanistan. And let me tell you, the 
selfless service and dedication of our team should inspire all 
of us. We are tasked with the solemn responsibility to fight 
and win our Nation's wars and to keep our families safe here at 
home.
    Our Army must produce ready units today to deter and defeat 
our Nation's enemies, defend our homeland, project power, and 
win decisively. By ready, we mean units that are fully manned, 
trained for combat, fully equipped according to their design 
structure, and led by competent leaders. We must also be ready 
for future fights by investing in modernization and research 
and development. We do not want our soldiers to have a fair 
fight. We want them to have a tactical and technical advantage 
over our enemies.
    With our $125.1 billion budget request, our Army will focus 
its efforts on rebuilding readiness for large-scale, high-end 
ground combat today. We do so because we believe that ignoring 
readiness shortfalls puts our Nation at greatest risk for the 
following reasons: First, readiness wins wars. Our Army has 
never been the largest in the world. At times we have not even 
been the best equipped, but since World War II, we have 
recognized that ready soldiers, properly manned, trained, 
equipped, and led, can beat larger or more determined forces. 
So whether we are confronting the barbaric acts of ISIS 
[Islamic State of Iraq and Syria] or the desperation of North 
Korea, our Army must be prepared to execute and to win. We 
train like we fight, and our Army must be ready to fight 
tonight.
    Next, readiness deters our most dangerous threats and 
assures our allies. We are reminded with alarming frequency 
that great power conflicts are not dead. Today they often 
manifest themselves on a regional basis. Both Russia and China 
are challenging America's willingness and ability to enforce 
international standards of conduct. A ready Army provides 
America the strength to deter such actions and reassure our 
partners throughout the world.
    Readiness also makes future training less costly. 
Continuing operations since 2001 have left our force proficient 
in stability operations and counterterrorism, but our future 
command sergeants major and brigade commanders have not had the 
critical combat training center experiences as junior leaders 
trained for high-end ground combat. Investing in readiness 
today builds a foundation necessary for long-term readiness.
    Finally, readiness prepares our force for potential future 
conflicts. We can't keep fighting the last fight. Our Army must 
be prepared to face the high-end and advanced combat power of 
an aggressive Russia or more likely, Russian aggression 
employed by surrogate actors.
    This budget dedicates resources to develop solutions to 
allow our force the space to develop new concepts, and formed 
by the recommendations of the National Commission on the Future 
of the Army, our formations must first be ready to execute 
against current and emerging threats. The choice, though, to 
invest in near-term readiness does come with risk. Smaller 
modernization investments risk our ability to fight and win in 
the future. We have no new major modernization programs this 
decade. Smaller investments in end strength risk our ability to 
conduct multiple operations for sustained periods of time.
    In short, we are mortgaging our future readiness because we 
have to ensure success in today's battles against emerging 
threats. That is why initiatives that we asked for like BRAC 
[base realignment and closure] in 2019, are needed to be 
implemented now. Let us manage your investment, and this will 
result in $500 million a year in savings and a return on 
investment within 5 years.
    And lastly, while we thank Congress for the Bipartisan 
Budget Act [BBA] of 2015, which provides short-term relief and 
2 years of predictable funding, we request your support for the 
enactment of our budget as proposed. We request your support, 
your continued funding levels calibrated to current threats and 
to our national security interests, and we request your 
support, your continued support, for our soldiers, civilians, 
and their families so that our Army remains the most capable 
fighting force possible to fight and win our Nation's wars and 
to keep our families safe here at home. Thank you, Mr. 
Chairman.
    [The joint prepared statement of Mr. Murphy and General 
Milley can be found in the Appendix on page 59.]
    The Chairman. Thank you. My understanding is that only the 
service secretaries have introductory comments. Is that 
correct?
    Secretary Mabus.

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY; ACCOMPANIED 
BY ADM JOHN M. RICHARDSON, USN, CHIEF OF NAVAL OPERATIONS, AND 
   GEN ROBERT B. NELLER, USMC, COMMANDANT OF THE MARINE CORPS

    Secretary Mabus. Thank you, Mr. Chairman, Congresswoman 
Sanchez on behalf of Ranking Member Smith, members of this 
committee. Thank you so much for the opportunity to talk about 
the Department of the Navy.
    As you pointed out, Mr. Chairman, this is the first budget 
testimony for our new Chief of Naval Operations, Admiral 
Richardson, and for the Commandant of the Marine Corps, General 
Neller. In the time since they took these positions, I have had 
the privilege of their frank, professional, and invaluable 
counsel. They are officers of the highest caliber who expertly 
lead our Navy and Marine Corps during ever tightening fiscal 
constraints and an increasingly dynamic threat environment.
    This is my eighth time, and my last, to appear before you. 
For me, leading the Department of the Navy is the greatest 
honor of my life. I couldn't be more proud of our sailors, 
marines, civilians, their families. I am also proud of the many 
steps we have taken and changes we have made to ensure that the 
Navy and Marine Corps remain the greatest expeditionary 
fighting force the world has ever known.
    First and foremost, we continue to provide presence. That 
unrivaled advantage, on, above, beneath, and from the seas, 
gives our leaders options in times of crisis, reassures our 
allies, and deters adversaries. There is no next best thing to 
being there. Maintaining that presence requires gray hulls on 
the horizon.
    While there has been some discussion about posture versus 
presence, the simple fact is, for the Navy and Marine Corps, 
our posture is presence. In every case, from high-end combat to 
irregular warfare to disaster relief, our naval assets get on 
station faster, stay longer, bring whatever we need with us. 
And since we operate from our ships, which are sovereign 
American territory, we can act without having to ask any other 
nation's permission.
    Resourcing that presence depends on four fundamentals, four 
Ps: people, our sailors and marines; platforms, our ships, our 
aircraft, our systems; power, how we use energy to make us 
better warfighters; and partnerships, our relationships with 
international allies, industry, and most importantly, with the 
American people.
    When I took this post almost 7 years ago, we had an 
incredibly committed and capable force, but each of these four 
Ps was under pressure. Our people had been stressed from high 
operational tempo and extended deployments. Our fleet was 
shrinking, and too many of our platforms were costing too much. 
Our use of power was a vulnerability. And our partners were 
seeking reassurance of our sustained engagement. Now our 
people, platforms, power, and partnerships are stronger than 
they have been in many years, enabling us to provide that 
invaluable presence.
    In people, we have instituted sweeping changes. Personnel 
policy, promotions are based more on merit and less on tenure, 
and commanding officers are empowered to meritoriously promote 
more sailors and marines. We have made career paths more 
flexible. And one example, thanks to Congress, is the Career 
Intermission Program [CIP], which has been greatly expanded.
    We have also increased professional development and 
educational opportunities that bring America's best ideas to 
the fleet by adding 30 graduate school slots through our Fleet 
Scholars Education Program and sending high-performing sailors 
on SECNAV [Secretary of the Navy] Industry Tours to great 
American companies like FedEx and Amazon, where they learn 
private sector best practices that can be applied when they 
return.
    We are absolutely committed, from leadership to the deck 
plates, on combating the crime of sexual assault and the 
tragedy of suicide. We have revamped our physical fitness 
assessments making them more realistically align with the jobs 
we do, and we have promoted healthier lifestyles through better 
nutrition and a culture of fitness.
    All billets in both services are now open to women. 
Standards will absolutely not be lowered, but anyone who can 
meet the standards will be able to do the job. This will make 
us a more combat-effective force. We are trying to mitigate 
stress on sailors and marines and their families by making 
deployments more predictable, extending hours for child care, 
and creating colocation policies. To tap into the innovative 
culture inherent in the Navy and Marine Corps, we established 
Task Force Innovation, which takes good ideas from deck plate 
sailors and field marines, recognizes, funds, and rapidly moves 
these ideas fleetwide.
    On platforms, we have reversed the decline in ship count. 
And thanks to Congress, and in particular to this committee, 
our Navy will reach 300 ships by 2019, and we will get to our 
assessed need of 308 ships by 2021. In the 7 years before I 
took office, the Navy contracted for 41 ships. In my 7 years, 
we have contracted for 84, and we have done so while increasing 
aircraft purchases by 35 percent, all with a smaller top line.
    Practices like firm fixed price contracts, multiyear buys, 
stable requirements, have driven down costs on virtually every 
class of ship, and we are also in the process of recapitalizing 
nearly every naval aviation program. We have expanded unmanned 
systems, on, under, and above the sea, and put increased focus 
on them by establishing a Deputy Assistant Secretary for 
Unmanned and an Office of Unmanned Warfare System on the CNO 
staff, N99, designed specifically to coordinate all unmanned 
programs. We are also implementing advanced energy technologies 
like electromagnetic rail guns and laser weapons.
    In power, to increase our lethality and operational 
flexibility, I set goals of having 50 percent of sea and shore-
based energy derived from alternative sources by 2020, 
competitive with the price of conventional power. We met that 
goal with shore at the end of last year. Energy efficiency has 
also been greatly increased on our bases and at sea. Ultimately 
since 2009, both the Navy and Marine Corps have achieved large 
drops in oil consumption.
    In partnerships, during my tenure, I have traveled nearly 
1.2 million air miles to 144 different countries and 
territories, visiting with our sailors, marines, our allies, 
and our partners. Twelve of my trips have been to Afghanistan, 
where I visited every Marine Corps forward operating base in 
Helmand to be with our forward-deployed men and women. And I 
have actively engaged with our allies and friends around the 
world to build and maintain a network of navies with whom we 
can train, operate, and trust. And we have worked in 
partnership with Congress to fulfill the constitutional mandate 
to provide for and maintain a Navy.
    As President George Washington once said: It follows then, 
as certain as night succeeds the day, that without a decisive 
naval force, we can do nothing definitive. With it, everything, 
honorable and glorious. Thank you.
    [The prepared statements of Secretary Mabus, Admiral 
Richardson, and General Neller can be found in the Appendix 
beginning on page 76.]
    The Chairman. Thank you.
    Secretary James.

   STATEMENT OF HON. DEBORAH LEE JAMES, SECRETARY OF THE AIR 
  FORCE; ACCOMPANIED BY GEN MARK A. WELSH III, USAF, CHIEF OF 
                     STAFF OF THE AIR FORCE

    Secretary James. Thank you, Mr. Chairman, and Congresswoman 
Sanchez and all the members of the committee. Good morning. My 
wingman, General Welsh, and I are very proud to come before you 
today to represent the nearly 660,000 Active Duty, National 
Guard, Reserve, and civilian airmen, plus all of our families, 
and we are certainly very honored to be here with our 
colleagues from the sister services as well.
    When we testified before all of you last year, we outlined 
our three priorities, which are taking care of people, 
balancing readiness with our need for modernization, and making 
every dollar count. These priorities have not changed over the 
last year, but what has changed, and you have already touched 
upon it, Mr. Chairman, is the threats that are facing our 
Nation. As we sit here today, our Air Force is working very, 
very hard to degrade, with the goal of ultimately destroying, 
Daesh in the Middle East as part of a whole of government and 
as part of a coalition approach.
    In the last year, our coalition forces upped the ante 
against Daesh, flying more than 55,000 sorties in support of 
Operation Inherent Resolve, which represents a threefold 
increase over the number of sorties in 2014. Moreover, a 
resurgent Russia continues to foment problems in the Ukraine 
and has announced its intent to modernize its nuclear forces, 
and of course, we are watching and we are waiting to see what 
happens next in Syria.
    In addition, we have observed North Korea conduct an 
illegal nuclear test and a rocket launch just within the last 
month or so, and we continue to see worrisome activity from 
China in the South China Sea. And, of course, there are also 
very important growing threats in both space and cyberspace.
    The bottom line here is that our Air Force is playing an 
absolutely essential role in each of these areas. We are fully 
engaged in every region of the world, in every mission area, 
and across the full spectrum of operations. And to put it 
plainly, in my opinion, we have never been busier on such a 
sustained and global basis, and we are doing all of this with 
roughly 200,000 fewer people and 79 fewer fighter squadrons 
than we had at the time of Operation Desert Storm, so we are a 
much, much smaller Air Force.
    Now, to continue confronting these challenges and in order 
to maintain an effective fighting force, our budget submission, 
which is now before you, tries to balance capacity, capability, 
and readiness appropriately. As has been mentioned, the 
Bipartisan Budget Act, we are very, very appreciative of the 
stability and the predictability that that gives us, but it 
does leave us somewhat short, $3.4 billion short for the Air 
Force, as compared to what we originally requested for fiscal 
year 2017. So this means that once again we had some tough 
choices to make in this budget. And I will detail those budget 
choices as I discuss our top three priorities, and I want to 
begin with the most important one, and that is taking care of 
people.
    Airmen and their families are the Air Force's most 
important resource, and our budget, I believe, reflects this 
truth. But with that said, as I just mentioned, we have been 
downsizing for years, and our people are very stressed, and 
this simply needs to stop. We now need to upsize our force 
modestly, and we want to do it in a total force way, to address 
a number of key areas, including critical career fields like 
intelligence, surveillance, and reconnaissance, cyber, 
maintenance across the Air Force, and battlefield airmen. These 
are some of the areas that we need to plus-up. We thank this 
committee for your support of our Active Duty plus-up. You have 
also supported us, of course, in our Guard and Reserve as well.
    The Active Duty will go from roughly 311,000 to 317,000 
airmen by the end of this fiscal year, but in reality, I think 
all of these mission demands I just spoke about will indicate 
that we need more growth in fiscal year 2017. So in order to 
meet that demand, I plan to take a judicious approach to 
incrementally increase our total force beyond the current 
level, provided, of course, that we can get the right talent. 
And we would be grateful to this committee to consider a 
reprogramming action at the appropriate time, should that be 
required.
    Speaking of total force, we are continuing to maximize our 
use of the Guard and Reserve by shifting additional missions 
and workload when it makes sense to do so. Some examples here 
include cyber, ISR [intelligence, surveillance, and 
reconnaissance], command and control, mobility and space, so we 
are continuing to shift workload and missions as it makes 
sense. We are also continuing to push the envelope when it 
comes to integration of our Guard and Reserve with our Active, 
and that goes from the staff level at the highest headquarters 
all the way down to the wing level and to the flight line.
    I also want to call to your attention, still on the subject 
of people, that we are expanding the Sexual Assault Prevention 
and Response Program. We are fully funding our child care 
operations, and we are making a big effort to fund the most 
important infrastructure projects to benefit our airmen, all as 
part of this budget. And, of course, we too are looking forward 
to welcoming qualified women into the previously closed career 
fields.
    The second priority I mentioned is getting the balance 
right between readiness and modernization, and we believe 
strongly that we need both. We can't have either/or. It is not 
an either/or proposition for us. So as we have explained 
before, less than half of our combat forces are ready for what 
we call a high-end fight, less than half. And when I say high-
end fight, I am speaking of a conflict that might take place in 
an anti-access/area denial environment, in other words, an 
environment where an adversary could shoot us down, interfere 
with us in some major way in space or cyberspace.
    In addition to all this, our aircraft inventory is the 
oldest that it has ever been, and of course as you know, the 
adversaries are closing the technological gap on us, so we must 
modernize.
    In terms of readiness, this budget funds flying hours to 
their maximum executable level, invests in weapon systems 
sustainment, and ensures combat exercises like Red and Green 
Flag remain strong. After consulting with our combatant 
commanders, General Welsh and I agreed that we needed to make 
some adjustments in this budget to address these real world 
changes that I mentioned.
    One of those adjustments is we are rephasing the A-10 and 
the Compass Call retirements. And the bottom line here is we 
are not proposing to retire any of these aircraft in fiscal 
year 2017. Furthermore, we will continue to look at the mix of 
aircraft each year and we will be prepared to modify, based on 
the global security situation. We also need to ensure the right 
number and mix of unmanned aircraft, so we are going to invest 
more in additional Reapers. And we also need to invest more in 
munitions. Again, this is contained in the budget request.
    Turning to modernization, this year's budget will continue 
the ongoing investments to support our top priorities of 
nuclear deterrence, space, and cyberspace. We are also 
continuing with the F-35, the KC-46, Combat Rescue Helicopters. 
JSTARS [Joint Surveillance Target Attack Radar System] we are 
going to get started on, as well as T-X. We also are going to 
continue to move forward with the B-21, which was formerly 
known as the Long Range Strike Bomber. This fifth-generation 
global precision attack platform will give our country a 
networked sensor shooter capability and propel us into the next 
century of air power dominance.
    Now, unfortunately modernization is also where we had to 
make some of those tough choices because of the insufficient 
budgets. So, for example, with reluctance we are deferring the 
purchase of five F-35s in fiscal year 2017 and three C-130Js in 
fiscal year 2017. We will also have to delay some of our 
upgrades to the fourth-generation systems like the F-16, and 
many infrastructure projects will simply have to wait. So 
infrastructure is another tough choice for us. And I want to 
also support our department's request for a BRAC in fiscal year 
2019.
    The third priority reflects our commitment to give the 
taxpayers the best bang for the buck, which is why we call it 
Make Every Dollar Count, and we are working a number of 
initiatives here, including we too are working on streamlined 
energy usage, cost savings ideas that come directly from airmen 
that we then put into practice, and we are continuing the march 
toward meeting the mandate to be audit ready by the end of 
fiscal year 2017.
    So, Mr. Chairman, as I begin to wrap, again I want to thank 
this committee and you for your leadership and support of the 
Bipartisan Budget Act. I want to associate myself with the 
remarks about the need to lift sequestration. I know many on 
this committee have tried very hard to do that. If we return to 
sequestration, and if we once again have to park jets and take 
some of those very dire effects that we did the last time 
around, there is just no question in my mind, this means that 
we will enter possibly a future conflict less prepared. And if 
you are a student of history--I like history, I try to be a 
student--history teaches us that the consequences of 
insufficient preparation are prolonged conflict and increased 
loss of life. So please keep up the fight to lift sequestration 
permanently. And with that, I thank you, Mr. Chairman.
    [The joint prepared statement of Secretary James and 
General Welsh can be found in the Appendix on page 154.]
    The Chairman. Thank you, ma'am. That is exactly what 
history teaches. I hope we have learned those lessons.
    Let me just ask about a couple of things right quick. 
General Neller, I have asked for the statistics for the Marine 
Corps on Class A mishap rates. And my understanding is the 
average over the last 10 years was 2.15 mishaps per 100,000 
flying hours, but that went up in 2014 to 2.67; 2015, 2.88; 
2016, 3.96. So the point is, over the last 3 years especially, 
the number of Class A mishaps per 100,000 flying hours has been 
increasing significantly.
    Given this readiness and safety issue and the budget 
constraints and all that the Marine Corps is being asked to do 
operationally, can the Marine Corps meet the demands of the 
National Military Strategy?
    General Neller. Chairman, let me first comment on the 
aviation. We track this very closely, and the simple fact is 
that we don't have enough airplanes to meet the training 
requirements for the entire force. The force that is deployed 
is trained and ready, and it is a little bit different for 
every model, type, and series. So we are working on this, and 
not all of it is related to aviation maintenance, some of these 
events. But it is a fact that our mishap rate has gone up.
    As far as our ability to meet the National Military 
Strategy, our ability to meet the day-to-day commitments and 
the requirements of the combatant commanders, we are doing that 
with trained and ready forces. Our ability to meet other 
regional requirements for major contingency plans, we would be 
able to do that, but we would probably not be able to do it 
within the timeframe that the current plans call for us to 
arrive to participate in that conflict.
    The Chairman. Okay. General Milley, the numbers for the 
Army are not quite as dramatic, but they are also on an upward 
trend, rising from 1.52 in fiscal year 2014, to 1.99--just 
about 2--in fiscal year 2016. Let me ask you the same question. 
Can the Army meet the demands of the National Military 
Strategy?
    General Milley. Thanks, Chairman. On the Class A's, it has 
our attention. We have asked for the Deputy Commander of TRADOC 
[Training and Doctrine Command] to conduct a multifunctional, 
very detailed study of Class A aviation accidents. And one of 
the things you will see in this budget is we are increasing 
flying hours for our rotary-wing aviators from 10 hours to 12 
hours. Ideally, we want them 14 to 15 hours a month. We can't 
get there with the budget to 14, 15, but we are going to 
increase it to 12. But we are going to have more data here in 
probably a month or so, and we will share that with you as soon 
as we get it. It does have our concern. Our aircraft accidents 
have increased, and we are very concerned about it.
    On the second question, it is my estimate that, similar to 
General Neller's, is that on a day-to-day basis, the Army does 
about 46 percent of all the combatant commander demand signal 
that comes in, and 64 percent of emergent demand from the 
combatant commander is done by the Army. We can handle that on 
a day-to-day basis, and we have also very good current 
capability and capacity to fight the counterterrorist, 
counterinsurgency fight that is ongoing against ISIS and other 
areas such as in Afghanistan. So we have got those skill sets.
    My concern going forward is at the higher end in the event 
of a contingency, and if that were to happen, then I have grave 
concerns in terms of the readiness of the Army forces to be 
able to deal with that in a timely manner. And I think the cost 
both in terms of time, casualties, and troops and the ability 
to accomplish military objectives, would be very significant, 
and we have all given our risk assessments associated with that 
in a classified session.
    The Chairman. Let me turn to a different issue, and I want 
to ask first Admiral Richardson and then General Welsh about 
this. Deputy Secretary Work has testified before this committee 
that nuclear weapons remain the most important mission we have. 
This is absolutely critical. And Secretary Carter has said it 
is the foundation for everything we do.
    I was just engaged in a conversation yesterday with some 
British parliamentarians about their decision whether to 
replenish, update, their nuclear deterrent, which is submarine-
based. Admiral, do you agree, I guess, first, with Secretary 
Carter and Deputy Secretary Work that our nuclear deterrent is 
foundational, and do you believe that all three legs of the 
triad plus the weapons themselves must be part of that 
modernization effort for us?
    Admiral Richardson. Chairman, yes, I do. I think that the 
triad, and our part of that, the Ohio Replacement Program, are 
absolutely critical to national survival, and that is why that 
program is our number one modernization program. We are also 
working, as you know, very closely with the British, our 
partners in the United Kingdom, to make sure that they 
reconstitute and modernize their continuous at-sea deterrents. 
And so I absolutely agree.
    And I agree that it is a triad approach that we have right 
now, and that includes not only the platforms but the weapons 
and the warheads. And so this moves over to not only the 
Defense Department, but the Department of Energy [DOE], to keep 
that whole system whole.
    The Chairman. General Welsh, a couple of those legs are in 
your bailiwick. Do you agree that we need all three legs of the 
triad to be modernized, as well as the weapons themselves?
    General Welsh. Chairman, I do believe that. I believe the 
triad has been very effective over time. I think nuclear 
deterrence has been the security wallpaper, if you will, for 
this country since we stood up our nuclear capability, and I 
think it should continue. I believe without all three legs of 
the triad, you expose seams in that nuclear deterrence posture 
to certain enemies.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I too am concerned 
about our nuclear capabilities and modernization. General 
Welsh, the funding bow wave for the nuclear modernization is 
really steep. Is there an effective 25-year plan to find and 
execute all these programs concurrently to modernize?
    General Welsh. Ma'am, I think the important thing that we 
have to face really as a nation is a decision on are we going 
to modernize; are we going to keep the triad, the question the 
chairman just asked. And if the answer to that is yes, there is 
no option but to fund it. But we have to prioritize the 
funding, and if we decide we are going to take pieces of this, 
we have to prioritize the pieces that we will invest in.
    This is a much larger discussion than any particular 
service. It has to be a Department of Defense. It is a 
congressional; it is a White House discussion, and I hope it is 
something that the next administration takes on early in their 
tenure because we need an answer pretty quickly, or we are 
going to spend money toward a lot of programs that we can't 
complete if we don't fund them down the road.
    Ms. Sanchez. Well, thank you for that because, I mean, this 
has been my concern, is the funding of how do we modernize 
this. You know, I have sat I think of the 19 years, now 20 that 
I have been on this committee, all but 2 on the Strategic 
Forces Committee, being a ranking member for it at one point. 
And I hear Mr. Murphy and others say that our readiness is 
deteriorating or has deteriorated to some extent, and it is 
just really not something we should in detail discuss 
obviously, I believe, in a public forum. But, you know, being 
able to move forward our domestic programs, being able to have 
an Army at ready to go, having an Air Force that can do the air 
cover and air deterioration that we need before we send in our 
Marines or our special forces or our Army, and then doing a 
total modernization on our nuclear capabilities. It can't all 
be funded at once.
    And so, Mr. Chairman, I hope that this committee will 
really sit and think about how we are going to get all of that 
done because it is coming to a head. I mean, we can't fund 
everything. We just cannot fund everything. So I hope that, Mr. 
Chairman, that we might consider how we really take a look at 
that funding issue.
    I have another question. This one will be for Admiral 
Richardson and General Milley. When Admiral Greenert and 
General Odierno wrote us that letter in 2014, well, wrote to 
the Secretary of Defense, that regional missile defense 
capabilities were stretched and that the Department of Defense 
should look, among other approaches, to deterrence and left-of-
launch capabilities to relieve the demands on missile defenders 
and the cost to the Navy and the Army, what are the effective 
alternatives that are being considered to that?
    Admiral Richardson. Ma'am, I will tell you that right now 
in terms of the Navy's situation, the ballistic missile defense 
ships are our most stressed force right now, so in terms of 
deployment length and that sort of thing, they come----
    Ms. Sanchez. Can you pull that up? I can't hear you as 
well.
    Admiral Richardson. I'm sorry.
    Ms. Sanchez. Thank you.
    Admiral Richardson. All right. Those ships are as stressed 
as any in the Navy, but we are considering sort of the 
ballistic missile defense across the entire kill chain, if you 
want, the left of launch starting with the systems that, you 
know, program and launch these missiles, all the way through 
towards terminal defense. You take that entire sequence, you 
break it down, and you take a look at the opportunities and 
vulnerabilities in that whole sequence, and that is our 
approach.
    But there is the terminal phase which relies on our Aegis-
equipped cruisers right now both at sea and at shore. And it is 
a costly system, as you point out, and that is why General 
Odierno and Admiral Greenert wrote that letter, so that we can 
make sure we are approaching this from a systems assist 
approach and not missing any opportunities.
    Ms. Sanchez. Great. I think we have had such reliability 
and such capability in that area that we tend to want to use it 
everywhere, and I know that it is stretched. I have been with 
Mr. Turner to see some of the new systems coming up with 
respect to that. And I am just worried again how we are going 
to fund all of this.
    And then the last question I have, Mr. Chairman--I am sorry 
for taking up the time--but what is the Air Force's plan to 
shift away from using the Russian RD-180 engine and have 
assured access to space as quickly as possible?
    Secretary James. The plan that we have been pursuing, of 
course in conjunction with all of you and the last two NDAAs 
[National Defense Authorization Acts], is to fund rocket-
propulsion systems to allow industry to get away from that 
Russian engine as quickly as possible. We are targeting 2019, 
per the law. We are doing it in a full and open, competitive 
way. We are working as hard as we can at it. The technical 
experts tell me that 2019 is an ambitious technical target, I 
will say, for a timeline, but we are working as hard as we can 
toward that goal. We absolutely share the goal.
    Ms. Sanchez. Great. Thank you, Mr. Chairman, and I think I 
will have some follow-up questions, in particular on that 
issue. Thank you.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And to each of you, I 
wish I had the time to go through and tell the American people 
all the great things you have done because you are all truly 
assets to our country, and we appreciate each and every one of 
you.
    My questions go more not to you personally, but to the 
substance of what we are asking today because it is important 
that we have the facts to make the decisions we need to make. 
And the first question I would ask each of you to do for me is 
to raise your hand if you had to submit, or you submitted, the 
written record of remarks that you have to anyone for approval 
that was not under your direct command before you came here 
today.
    So, General Neller, you did not? You were the only one?
    General Neller. Congressman, can you say that one more 
time?
    Mr. Forbes. Did you have to submit your written statement 
to anyone not under your direct command before you submitted it 
to us today?
    General Neller. I approved the statement and sent it up, 
and I assume it went up here as written.
    Mr. Forbes. Thank you all for doing that. So, Mr. Chairman, 
if we could just show the record that everyone had to submit 
their statement for approval. I think that is wrong. We just 
need to hear from you directly, and I know that is not your 
fault.
    Secretary Mabus, you know the personal high regard I have 
for you, and I appreciate your comment that the Navy, it is 
important that we have a presence. Also you have been a leader 
to say that ship count was a part of that presence, at least a 
component. You have testified that we need 308 ships in the 
Navy, and Admiral Richardson has told us before that he would 
bet his paycheck when the force structure comes back in, that 
that will go up higher, and I would also bet Admiral 
Richardson's paycheck that it will go up higher. We currently 
have 272 ships in the Navy. We have had testimony before our 
committee if we get down to 260 ships, that we cease to be a 
superpower, and we become a regional power.
    Right now if we look at some of the ships we count, we 
count two hospital ships, two high-speed ferries that are in 
reserve status, and we are getting ready to count 11 cruisers 
that would be put up. It would take 18 months to get them back 
in the water. If we took those ships out, we would be down to 
257 ships. But even if we didn't look at that, we have had 
testimony from the CBO [Congressional Budget Office], and the 
Navy now says it is pretty close, that if we stay on track now, 
and we do everything the same way we are, and we don't add 
about $4 billion to the accounts--maybe as much as $6 billion 
over the next several years--we will be down to 237 ships.
    Admiral Harris has testified before our committee that he 
only had 62 percent of the subs that he needed in the Pacific 
Command. We know that by 2029, we will have 41 subs, where our 
requirement is 48. The Chinese will have twice as many. We know 
the Marine Corps said they need 38 amphibious ships--some 
people say as many as 50--but we will have 30. We know in 2007, 
the Navy was able to meet approximately 90 percent of the 
validated needs of our combatant commanders. This year it will 
meet approximately 40.
    We know the administration is now trying to forego the 
refueling of an aircraft carrier. It is trying to disestablish 
a carrier air wing. It is going to cut the buy of small surface 
combatants from 52 to 40, try to inactivate 1 of the 2 T-AOEs 
in the Pacific, deactivate half of our cruiser fleet, and 
deactivate 3 amphibious ships. We also know that we had before 
sequestration, cuts of between $487- to $780 billion.
    So my question is this, Mr. Secretary: Isn't it true that 
unless another administration is able to do the heavy lifting 
and come up with that extra $4 billion to $6 billion a year, 
that the air will come out of this balloon, and we will come 
down to 237 ships? And the second thing is, can you point to 
where this administration has presented any budget adding that 
$4 billion or making up that shortfall? It looks to me kind of 
like my wife coming to me when she is complaining about our 
house, and I say but, look, I got plans to buy the house on the 
Hill, and then she says, but where are you going to get the 
money? So maybe you can help us with that.
    Secretary Mabus. Thank you, Congressman, and every CNO that 
I have been privileged to serve with and I have talked about 
the Ohio-class replacement coming in 2021 and the need to fund 
that to keep it from having a huge and detrimental impact on 
Navy shipbuilding. I would say that what your comments point 
out is that shipbuilding takes a long time. It is not the job 
of one administration. It is not the job of one Congress. And 
this administration has reversed that precipitous decline that 
you pointed out. Now, it has also put us on the track to get to 
308 ships, which is what you say we need, and I would bet the 
CNO's paycheck too that the next one will come in higher. But 
what we are debating now, what you are discussing now, is not 
what happens to the fleet now. It is what happens to the fleet 
in the 2020s.
    Mr. Forbes. But if you don't mind, I would love for you to 
give us the rest of that for the record. And I didn't mean to 
cut you off. It is just that I am cut off. So, Mr. Chairman, 
thank you. I yield back.
    Secretary Mabus. I would be happy to do that.
    [The information referred to can be found in the Appendix 
on page 171.]
    The Chairman. I appreciate that.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and I certainly want 
to welcome our former colleague, Acting Secretary Murphy, to 
the panel and to the committee this morning. I know through a 
series of opportunities that we have had to discuss the issues 
before us, one of the most critical really is readiness, and I 
think that you have all in one way or another said that, you 
know, readiness really has no constituency. And so we have to 
be able to make that case to our constituents that this is 
certainly something that has affected us a great deal.
    And I think what people have a harder time understanding is 
how the antiterrorism and anticounterinsurgency efforts have 
really impacted our overall readiness today of the forces 
throughout. Can you in as quick a way as possible speak to 
that, all the services, what is the most critical way in which 
that has made a difference and not allowed us to be at a place 
today that is of less risk than it would have been otherwise?
    General Milley. Thanks, Congresswoman. For the Army, just 
very briefly, you know, for 15 years we have been running back 
and forth to Iraq and Afghanistan. And during that time, we 
have been fighting one typology of war against 
counterinsurgents or terrorists or guerillas, and our higher-
end training against conventional threats, hybrid threats, 
threats that involve enemy artillery, enemy air, enemy 
electronic warfare, et cetera, the higher-end, higher-intensity 
type battlefields have not been routinely practiced for 15 
consecutive years. So our readiness against that type of threat 
has deteriorated over a decade and a half.
    Mrs. Davis. Thank you.
    Admiral Richardson. Ma'am, I will tell you, the Navy, it 
has been very well known by this committee that this manifested 
itself in deployment lengths of 8 to 10 months during those 
times, which puts an incredible cost on the ship itself, but 
even more so on the people that man the ship, and so that part 
went under stress. The ability to do maintenance on those ships 
was severely affected by sequestration. It incurred a readiness 
debt that we have had difficulty pulling out or even making 
progress on, as the funding levels are what they are, and the 
security environment in the world continues to put demands on 
the force.
    General Neller. I believe everybody is in a similar spot. 
The DEPTEMPO [deployment tempo] hasn't reduced even though we 
are doing similar things, but we are back in the Far East as we 
have reset the force there, so the amount of deployment goes 
on. The fight in ISIL continues to put stress on equipment, 
particularly aviation. We are in the process of resetting our 
equipment, and then you are trying to maintain legacy gear and 
at the same time modernize. Every model/type/series aircraft in 
the Marine Corps is in the middle of a reset, either reset the 
legacy and/or buy new. And at the same time we recognize there 
is capabilities in training, as General Milley mentioned, that 
we have to get ready for what we think we are going to see in 
the future. So all those things together, they are putting 
stress on our readiness.
    General Welsh. Congresswoman, the Air Force never came home 
from the first Gulf war. We have had airmen flying and air 
tasking for 25 years in the Middle East. During that time, as 
Secretary James mentioned, we have cut 40 percent of our Active 
Duty force, so that lower force size combined with the 
increased deployment and operations tempo over the last 25 
years has limited the amount of training we can do for the 
other missions that we are required to do in a different kind 
of conflict, as General Milley just stated. That is the biggest 
impact on us in attaining readiness over the long term.
    Mrs. Davis. Thank you. I appreciate all of you doing that 
very quickly. It was a little elevator speech, but that is 
important, I think, for us to be able to articulate as well.
    And if we could just go back to you, General Welsh, just 
the impact of the uncertainty on the budgets and what we have 
dealt with here. What impact does that have on the 2 million 
men and women who serve our country and sacrifice on our 
behalf?
    General Welsh. Ma'am, they are very proud of who they are. 
They are very proud of what they do, and they are very proud of 
the joint coalition team they stand beside doing it, and their 
families have been unbelievably dedicated to this. And this 
world of deployments I mentioned is what almost everybody in 
our services came into. It is the way it has been the entire 
time they have served. So they are willing to pay the price if 
they think it is important, if they think the Nation supports 
them, if they think they will have the resources and the 
equipment and the training to be the best in the world at what 
they do. That is all they ask. If they don't believe that, they 
will think about voting with their feet.
    Mrs. Davis. General Neller.
    General Neller. I think that is a very good review of where 
everybody is. You know, they don't ask much. They always make 
it happen. We want to keep them here. The thing that keeps them 
here is maybe not so much what you would call quality of life. 
It is having good gear. And the best quality of life I can 
offer to a marine family is I am going to bring their marine 
home alive.
    Mrs. Davis. Thank you. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank each of you 
for being here, and we are particularly grateful to see 
Secretary Murphy, our former colleague. There is life after 
office. And I know his military background, too. And so I thank 
all of you for your service.
    General Welsh, I appreciate being the son of a Flying 
Tiger. I am also very proud to be the uncle of a current 
airman. And as chairman of the Emerging Threats Subcommittee of 
the Armed Services Committee, I am concerned about the third 
offset strategy which may be providing for present-day 
tradeoffs for an overdue bet on the future when investments in 
both areas are desperately needed. In your opinion, what 
generation of weapons system is your priority to maintain 
American military technological superiority by 2020?
    General Welsh. Chairman, the two best examples of 
technology that we need in the Air Force by 2020 are programs 
that are already in progress that the Congress has supported 
very well, and that is the KC-46 tanker and the F-35. The 
emerging threat over the next 5 to 10 years will mean that we 
have to have a capability to operate against an integrated air 
defense system, against aircraft that now have longer sensor 
ranges, longer weapons ranges, than anything we currently have 
on our legacy fleet. The F-35, working with the F-22, will give 
us that capability. It will also give us the capability to 
penetrate and integrate our defense systems. So 2020, those are 
the pacing technologies that we are already in the process of 
acquiring.
    Mr. Wilson. And I am grateful that you mentioned the F-35. 
I formerly represented Beaufort Marine Corps Air Station, and I 
am very grateful for the training there and what that means for 
our country.
    Admiral Richardson, I am also grateful to be a Navy dad. 
And you yesterday courageously testified before the Senate 
Armed Services Committee that Iran had knowingly violated 
international law earlier this year by boarding a U.S. Navy 
vessel, detaining 10 sailors against their will. In addition to 
this outrage, it was reported just this week that Iran has 
seized an estimated 13,000 pages of information extracted from 
government laptops, GPS [Global Positioning System] devices, 
and maps aboard the vessel. I am deeply concerned about this 
violation and would like to know what subsequent actions have 
been taken to rectify this brazen defiance of international law 
by Iran.
    Admiral Richardson. Sir, within the Navy--I will speak to 
that part--we have conducted an investigation. That 
investigation is being reviewed right now. That will detail all 
of the sequence of events that went on in detail as that event 
unfolded. And we have identified a number of areas in the Navy 
where we can tighten up our act, improve, so that we can 
minimize the chance of something like this happening again.
    Mr. Wilson. Well, again, it is just an outrage to me to see 
our military personnel humiliated by what I consider to be an 
outlaw regime.
    And, General Milley, my wife and I appreciate that we have 
had three sons who have served under your command. Military 
officials have said that the Army's fiscal year 2017 budget 
request for facilities is less than that of the prior year. So 
by far, this affects the military construction budget, which in 
recent years has been focused on family housing projects. Could 
you explain what military barracks and facilities have your 
focus, and in particular I am very interested in Fort Jackson, 
that I represent, and their barracks that are 50 years of age?
    General Milley. Thanks, Congressman. I must say that you 
have probably the most joint family I have ever heard in my 
life, and I do hope you got positive feedback from your sons.
    Mr. Wilson. I just can't include the Coast Guard.
    General Milley. Coast Guard is next. But to answer your 
question, installation readiness is one of the foundational 
parts of overall readiness because that is where we get our 
housing, quality of life, education, et cetera, but that is 
also where you get your Rangers and all your training areas, et 
cetera. And that has taken a cut over several years, and 
frankly our installations have degraded significantly.
    And I agree with General Neller, the greatest quality of 
life that we can take care of a soldier is to bring him back 
with his dog tags in one piece, whole mind, whole body, and 
that requires good training, equipment, leadership, et cetera. 
But also when they are deployed, to ensure that their families 
have great quality of life so that they can focus on the task 
at hand, which is the military task.
    Specifically with respect to, you mentioned Fort Jackson in 
South Carolina, there are some areas there that have been 
deteriorated. So there are several projects that you will see 
in the 2017 budget that are targeted specifically to Fort 
Jackson because I am not satisfied with the quality of the 
barracks that are there, and we are going to upgrade some of 
those. And we are pulling forward a couple of additional items 
that we were looking to put in the FYDP [Future Years Defense 
Program] in 2018 or 2019. We are going to bring them forward 
because I think the condition of some of the facilities at Fort 
Jackson are unsatisfactory and don't meet Army standards.
    Mr. Wilson. Thank you very much.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman. Secretary James and 
General Welch, there has been recent criticism against the Air 
Force's proposed use of the cost-plus during the early stages 
of the acquisition program for the new Long Range Strike 
Bomber, the B-21. Can you please explain the process for which 
the Air Force determined that a blended cost-plus fixed-price 
approach was ideal for that program, and what advantages it 
provides?
    Secretary James. So Congresswoman, I will start, but then 
chief please jump in as well. When it comes to contracting, of 
course, I guess to state the obvious, one size does not fit 
all. It just depends on the circumstances. And so in the case 
of a cost-plus when it comes to development programs, this is 
what we tend to do. When it is a larger program, when there are 
uncertainties, when there are risks involved, but in the case 
of the B-21, I do want to say that it is cost-plus incentives.
    So that is to say there are incentives for the contractor 
to be able to meet milestones for schedule and performance, and 
if they don't meet those milestones according to the plan, they 
will lose their fee. And most of that, by the way, is 
backloaded in the development process which incentivizes them 
to move through development as quickly as feasible and not drag 
it out.
    So overall, cost-plus incentive for that development, for a 
never before done airframe and an integration job, the way it 
is seemed most appropriate and the incentives are key. When it 
comes to the firm-fixed-price in production, that seems to be a 
much more sensible way to do the production element.
    And as you know, Congresswoman, we awarded both at once. We 
awarded the EMD--engineering, manufacturing, and development--
together with the initial tranche of the actual production in a 
firm-fixed-price environment.
    Ms. Bordallo. Thank you. Thank you. I have very little time 
left. Mr. Welsh, do you wish to comment on that?
    General Welsh. Ma'am, I would just add that 70 percent of 
the cost of this program overall, is firm-fixed-price.
    Ms. Bordallo. Thank you.
    Secretary Murphy, and General Milley, the Army has been 
working to replace the current force generation concept with 
the sustainable readiness concept. Is it still on track to 
replace the current model in fiscal year 2017?
    Additionally, how does the Army's new model translate to 
the total force? Specifically, will National Guard and Reserve 
units be fully incorporated into this readiness model?
    General Milley. The short answer is yes. It is on track to 
be implemented and it does include Guard and Reserve in the 
readiness model. In general, what we want to do is increase the 
operational use of the National Guard and we want to increase 
their training, increase the CTCs [combat training centers], 
selectively increase the number of days of training per year, 
and then most importantly, increase National Guard deployment 
to Europe, Middle East, and Asia.
    Ms. Bordallo. General Milley.
    General Milley. That was General Milley.
    Ms. Bordallo. I am sorry. Secretary Murphy.
    Secretary Murphy. I am only a Secretary, ma'am. But 
Congresswoman, General Milley is absolutely right. I mean, if 
you look at our 1 million soldiers in our Army, the majority of 
them are actually in the Reserve or National Guard Components. 
We are one team, one fight, one Army. And so when you look at 
Guam, for example, you know, we have the THAAD [Terminal High 
Altitude Area Defense] battery that is there and Active Duty, 
but we are working with the National Guard there as well. But 
as far as on schedule, we were absolutely on schedule, and we 
are committed to make sure that we have one team and one total 
force.
    Ms. Bordallo. Very good. All right. And I have a statement 
to make, not a question. Secretary Mabus and Admiral 
Richardson, I would like to make a brief comment regarding 
depot-level maintenance including dry-dock capabilities in the 
Western Pacific. I believe that these capabilities are sorely 
lacking and the Navy is not investing enough to support a 
forward-deployed fleet in the Western Pacific. We have these 
requirements and we must make the right investments as this is 
a key to readiness in our region.
    In particular, I have serious concerns about the Navy's 
assessments, and will continue working to ensure that our 
forward-deployed assets have quality and secure maintenance 
that American workers and equipment provide without losing 
weeks of presence.
    And with that, Mr. Chairman, thank you and I yield back.
    The Chairman. Thank you. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Welcome to the 
panelists. I appreciate all of your service to our country.
    Secretary James, I really appreciate your leadership. You 
have been a great partner to work with on our endeavors in my 
subcommittee. I want to talk to you about helicopters. I know 
that is a subject you and I have talked about in the past. But 
for about 12 years now we have had helicopters protecting our 
missile fields, our ICBM [intercontinental ballistic missile] 
fields that are not up to the mission. And as you know, 
recently, Admiral Haney has stated that this problem cannot go 
on.
    My question to you is, what is the status on that? What are 
your plans to remedy Admiral Haney's concerns with making sure 
those helicopters are able to carry out their mission with 
protecting those ICBM fields?
    Secretary James. I would expect within the next couple of 
weeks, our acquisition executive, in the Air Force, who is 
currently looking at acquisition strategies, will come to a 
conclusion and make a recommendation. So at the moment we are 
looking at sole-source opportunities. We need to have the 
proper documentation to support if that is the way to go. We 
are looking at competitive opportunities, and I also, you know, 
Congressman, but just in case there are others that aren't 
following this day-to-day, there are those that actually 
protect the missile fields, and there is another part of the 
requirement as well.
    So maybe one is more urgent than the other. We are 
essentially working with Admiral Haney. We are working with 
Chairman Dunford and other members of the team of the Joint 
Staff to look at the case for how urgent we need to go. I think 
it is urgent. You think it is urgent. I think we are a couple 
of weeks away, at least within the Air Force, of having a way 
forward.
    Mr. Rogers. Great. I would like, if you would, by the first 
of April if you could provide me a detailed cost estimate on 
what you anticipate it would cost the Air Force if you have to 
call the Army National Guard in to provide gap fillers for 
these missile wings' security. I would like to know what that 
would be with specificity if you could.
    Secretary James. We will do that.
    [The information referred to can be found in the Appendix 
on page 171.]
    Mr. Rogers. And then moving on to launch. As you know this 
is taking up a lot of your time and mine. And for those who 
aren't familiar with how we evolved with the EELV [Evolved 
Expendable Launch Vehicle] program, it started in the 1990s 
with Boeing and Lockheed. Now, we tried to help both those two 
commercial enterprises be successful with launch capabilities 
and that just didn't work out, so we helped them form United 
Launch Alliance [ULA] with a lot of expense to the government. 
But it is essential for national security and access to space.
    Could you certify Secretary James that there is a 
sufficient commercial market to support these companies over 
the next 10 years and sign firm-fixed-price contracts for the 
same?
    Secretary James. I could not certify that, Chairman. I know 
the companies are trying to become competitive because they 
believe it, but I certainly could not certify such a thing.
    Mr. Rogers. And do you concur then with the analysis by 
General Mitchell's study which stated quote, ``Launch capacity 
exceeds demand by a 3 to 1 ratio to service it in this fixed 
market.''
    Secretary James. I would have to go back and read that to 
see the context. I am not sure he was talking about the total 
world market, including commercial launches, or whether he just 
meant NSS [national security space]. So please allow me to go 
back and reread that passage and get back to you for the 
record.
    [The information referred to can be found in the Appendix 
on page 172.]
    Mr. Rogers. Well, and you will find he was making reference 
to that global market, and it is just a practical term that we 
are going to have to acknowledge. I am not sure what the answer 
is going to be either.
    But you and I are going to have to navigate these waters 
and figure out how to make sure we have assured access to 
space. I don't know what the answer is going to be ultimately, 
but I would look forward to having more dialogue with you 
offline about this.
    Secretary James. And Mr. Chairman, I would also bet the 
CNO's paycheck that we will be having more dialogue, you and 
me, but I thank you very much.
    Mr. Rogers. Yeah. We are determined to make sure he never 
gets paid again, aren't we?
    Thank you, Mr. Chairman, I yield back.
    The Chairman. I appreciate it and I hope you all figure it 
out because it is a complex subject. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you to all of 
the witnesses. It is great to see our former colleague. It 
shows there is hope after Congress. And again, your testimony 
has been outstanding this morning.
    So Secretary Mabus, you know, again, we enjoyed your long 
service here, longest since World War I, and I just want to 
follow up again with some of the exchange earlier which I think 
we are all on the same team here, that shipbuilding is the long 
game, and that we did as a nation take a holiday. As you 
pointed out only 41 ships under contract during the 8 years 
preceding your time in office. We doubled that to 84. I see it 
every day in southeastern Connecticut.
    We have the Illinois christening, the South Dakota keel 
laying is coming up soon. In the yard we have the Colorado, and 
Vermont. There has not been four ships under construction in 
southeastern Connecticut at the same time since the 1980s, and, 
frankly, the biggest challenge we have is workforce. Secretary 
Perez is right down the hall. We just had a hearing on the 
Workforce Investment Act and the fact that Connecticut, like 
Maine, Vermont--excuse me, Virginia, Hawaii, California, they 
are all out there really now scouring the countryside for metal 
trades. And again, I think that speaks volumes about your 
record and I want to thank you publicly for the time that you 
have spent leading our Nation and really recovering our fleet.
    Admiral Richardson, we had a sequence of witnesses over the 
space of about 7 days a couple of weeks ago. Admiral Stavridis, 
Admiral Harris, and General Breedlove. And without any 
prompting, Admiral Stavridis talked about how Russian submarine 
activity now is about 70 or 80 percent of where it was during 
the Cold War. Admiral Harris again just said, you know, we need 
more submarines out in the Pacific. General Breedlove talked 
about the Greenland-Iceland-U.K. Gap, and that we are playing 
zone defense.
    We have a force structure that was developed back 10 years 
ago of 48 submarines in the fleet. We have 54 now that are 
under stress. Do we need to take another look at that force 
structure?
    Admiral Richardson. Sir, we do. And start of that look 
right now is part of our updated Force Structure Assessment and 
that will include a comprehensive look at attack submarine 
force levels.
    Mr. Courtney. So I mean, obviously, this budget this year, 
keeps the two-a-year build rate for Virginia and has all of the 
investment in Ohio replacement.
    Admiral Richardson. Yes, sir.
    Mr. Courtney. But, again, even with that, we are looking at 
a 41-sub fleet unless we again tweak or move--can you talk 
about that a little bit?
    Admiral Richardson. Yes, sir. This goes to one of the 
points that the Secretary makes so eloquently is that these are 
long-term decisions, as you highlighted. So at the end of their 
lives, these ships leave service at the rate that they entered 
service, and we are building ships, submarines in this case, at 
three or four a year, and that is the rate at which they leave 
service. And so we have to be very thoughtful in terms of a 
building plan that reaches and maintains those required force 
levels.
    Our two-per-year Virginia plan is part of that. We have 
done an intense look at the industrial base over the last year. 
We think we can mitigate that further, particularly in 2021 
there might be room, industrial capability, capacity to build 
an additional Virginia-class submarine in that year so that 
would make it 10 over the 5-year plan. So we look forward to 
discussing that with you.
    That would mitigate that trough somewhat. We are building 
the Virginia Payload Module, so we get more capability out of 
each of those Virginia-class submarines starting in fiscal year 
2019, but we do have to continually challenge ourselves, to 
make sure that we have got the right number in terms of 
requirements, and we are doing everything that we can to look 
at meeting that requirement.
    And you know, that comes up with a resource or a cost that 
has been traditionally considered unacceptable. I think we 
still owe you that plan at the best cost point that we could 
appreciate, and then we will have a discussion.
    Mr. Courtney. Good. And as you know, the Seapower 
Subcommittee will work with you and I know I can speak for Mr. 
Forbes. I want to give you, Mr. Mabus, the floor for just--
again, the question is, are we going to hit a 300-ship Navy 
with the contracts that are underway and the work that I 
described earlier that is happening right now?
    Secretary Mabus. We are going to get 300 by 2019 and 308 by 
2021 just with the ships this committee has authorized, that 
has been appropriated, and that are under contract today.
    And once again, these are long-term things. I mean, it 
took--the fleet size we are living with today, those decisions 
were made 8, 10, 15 years ago. The fleet size that we will be 
living with in the mid-2020s, late 2020s, those decisions are 
being made today. This administration has built all of the 
ships we are going to be able to build and have them under 
contract.
    Mr. Courtney. I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Ladies and gentlemen, 
thank you so much for joining us today and thank you for your 
service to our Nation.
    General Neller, I want to focus on Marine Corps aviation. 
As you know, Lieutenant General Davis I think has done a very 
good job in trying to bring back Marine Corps aviation 
readiness. Can you give us perspective? When General Paxton 
came and testified before our subcommittee he said that we 
don't get back to restoring full-scale or full-spectrum 
readiness in Marine Corps aviation just by adding flying hours. 
Can you kind of give us a drill down of what we need to do to 
get you back to full-spectrum readiness on Marine Corps 
aviation?
    General Neller. Well, Congressman, thank you for the 
question. It is different for every model/type/series, but in 
general, we have to repair our legacy aircraft that we have to 
keep online and we have to modernize by buying new airplanes. 
We are buying the F-35. The acquisition objective is 420 and we 
have got about 70. We are going to stand up our second 
squadron.
    At the same time, we have got F-18s that are going to fly 
for another 10-plus years. MV-22s, acquisition objective 360; 
we have got about 270, 280, so that is happening. So same thing 
with the Hueys and Cobras. CH-53 is probably in the hardest 
spot because we have two demonstrators that are flying. They 
are flying very well. We have got over 35 hours. I saw them 
last week, but that program is going to take some time to go 
through the test and evaluation.
    So it is a combination. Buy new, repair our old, and the 
accounts for fiscal year 2017, this budget fully funds the 
sustainment accounts for putting aircraft through depot level. 
And Admiral Richardson and I were out at the Fleet Readiness 
Center in San Diego. They have improved their output. We opened 
up other venues, got two contractors that have provided 
additional aircraft. So all of that is going to go on.
    But the bottom line is, we've got to get more airplanes on 
the ramp. Pilots have to fly more. We have got to get our 
maintainers the parts they need to fix the airplanes. So all of 
these things are working. I think we have a plan. It is funded. 
But it is not going to happen overnight. It is going to take a 
couple of years of this combination of effects.
    Mr. Wittman. Very good. Thank you, General Neller, I 
appreciate that. I know we are all concerned about getting to 
the point that we project the Marine Corps needs to be at. So 
we want to make sure we keep up to date on that.
    Admiral Richardson, I know that you have been approached 
about a number of submarine issues, but I want to drill down a 
little bit on the Ohio-class replacement. The largest of the 
fiscal year 2017 research and development programs are for 
Ohio-class replacement. And you have talked extensively about 
the design phase, making sure we are mature in designs, so when 
we go to build that boat we are ready to go. We understand, 
though, that if we take the cost of that boat wherever it ends 
up, and we put that in the middle of a shipbuilding budget, we 
know what happens. It doesn't take a rocket scientist to figure 
that out.
    What we, I believe, need to be looking at is, what do we do 
to mitigate that? And what we have done, as a House, and trying 
to get the Senate to do, is a National Sea-Based Deterrence 
Fund, which is how we funded Ohio-class submarines originally.
    Can you give us perspective, what kind of cost savings will 
we be able to accrue by funding Ohio-class replacement with the 
National Sea-Based Deterrence Fund, because there is still some 
resistance here. I think that that is the way to do it, and it 
doesn't interfere with other long-term viability of other 
shipbuilding programs.
    Admiral Richardson. Yes, sir. Thank you for the question. 
First of all, I like what the fund stands for, which is that 
this is a national program of absolutely top priority for 
national security, and so it elevates the discussion to a 
national level which is exactly where I think it should be.
    With the authorities that the fund may provide which would 
allow you to make very wise business decisions, the projections 
are that you could save on the order of 10 or more percent 
across the program, which is essentially getting one submarine 
for the cost of, you know, free, right.
    Mr. Wittman. For the total cost?
    Admiral Richardson. Yeah, so significant savings achievable 
by the use of a fund like that.
    Mr. Wittman. Got you. General Neller, from your perspective 
we look at all of the shipbuilding programs. Obviously, the 
ones we are addressing are Ohio-class replacement, but also 
amphibious lift. One of the elements is to look at, you know, 
what we are doing with the next generation amphibious ships, 
the LX(R), give us your perspective on the importance of the 
timeliness of getting that program locked in as far as building 
those ships.
    General Neller. Congressman, similar to what the CNO said 
about submarines, we build these ships. They have a certain 
life expectancy, so if you don't have a replacement vessel, 
they have to have an extension program or their maintenance 
costs are increased, so you are spending money to keep 
something older online.
    So right now, due to the support of the Congress, and this 
committee, we are going to get LPD-28, give us 12 LPD-17 class 
ships. And the next class of ship is the LX(R) to replace the 
landing ship dock, the Whidbey Island/Harpers Ferry class. The 
first ship of that class is supposed to be built in 2020. There 
is some advance procurement of long-lead items like 
engineering, power, engines, and steel.
    But there is a gap, and anytime you have a gap, the 
workforce is not able to work. You forget what you have learned 
and your costs go up. So there was a discussion about it of LPD 
[landing platform/dock] repeat. Can't make the price because we 
are all concerned with the cost, so there is a ship design, and 
talking with the CNO, and the Secretary, and Mr. Stackley. The 
plan is that we come up with a design. It is going to be bid 
between a couple of different shipyards and we will start to 
build that first ship in 2020.
    If there were more money and we could come up with a design 
faster, that all could possibly be moved to the left. But then 
ideally, whenever we do start to build that ship we should 
build--there should be not build a ship, stop, build a ship, 
stop. It should be build a ship, start the next one so that 
workforce gets smarter. That we know will drive the cost down.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you lady 
and gentlemen for your service to the Nation. There can be no 
greater honor for me as a Congressman than to serve on the 
House Armed Services Committee that is charged with the 
responsibility of authorizing expenditures for the national 
security of this country. Which is guaranteed by our men and 
women who serve us in the military and you all lead that 
effort. And I thank you for that.
    I will say that since 2011 you have been operating under 
sequestration and each one of you have talked about how this 
has eroded your ability to ensure the continued superiority of 
the United States military, and we have heard a lot about the 
impact on ships and planes. We know that the Air Force, and the 
Navy, and the Marines, are very important elements of our 
superiority. But we should not forget about the foundational 
element of boots on the ground Army.
    And so I want to ask about how sequestration, which is not 
a program of President Obama. It is actually a statutory law 
passed here in Congress. I think members of the Armed Services 
Committee were not smitten with it at all because we knew what 
impact it would have, across-the-board 10 percent cuts without 
regard to need or jeopardy that we would place the Nation in. 
But I want to talk about that in terms of the Army and how the 
end strength of the Army has shrunk due to sequestration.
    Mr. Murphy, and General Milley, would you address that, 
please?
    Secretary Murphy. Congressman, off the bat, budgets are 
moral documents. It shows what our country's priorities are. 
You know, I left the Congress 5 years ago and the budget for 
the Army at that time was $243 billion. You heard my opening 
testimony. We are asking for $125.1 billion. So we have 
downsized our Army.
    I would like to recognize, though, I was thankful also for 
the BBA of 2015, which helped relieve that sequestration. We 
are very thankful for that predictable and adequate funding. 
But if you are asking me as far as what this budget request is, 
it is minimal. It is minimally adequate. We are taking high 
risk, as an Army and as a Nation, when you fund our Army at 
this level, especially when you consider the OPTEMPO [operating 
tempo] and the world right now, when you talk about ISIS, a 
resurgent Russia, aggression with North Korea.
    So we ask you to support our budget request at that level. 
But I would like to, you know, when you look at brigade combat 
teams, you know, again, we are a total Army but as far as 5 
years ago, when I left the Congress, we had 45 brigade combat 
teams on Active Duty, now we have 31.
    Mr. Johnson. In addition to the diminution on end strength, 
we also have issues of readiness and modernization. General 
Milley, could you comment on that?
    General Milley. Yeah, thanks, Congressman. As I mentioned 
earlier, the readiness issues are our number one priority as we 
go forward. Because we are uncertain, and I can't tell you or 
anyone else that our Nation won't be in other conflicts next 
week, next month, next year, or the year after that. None of us 
at this table can do that. So we have always got to maintain 
readiness, and readiness is a number one priority.
    Right now the readiness of the United States Army, all 
components of the United States Army, is not at a level that is 
appropriate for what the American people would expect to defend 
them. And I will be happy to give a classified briefing on the 
exact specifics of that. But it is not at the levels it can 
execute satisfactorily in terms of cost, in terms of time, cost 
in terms of casualties, or cost in terms of military 
objectives.
    As far as the impact, specifically, on the Army of the 
diminution of funding, et cetera, the Army is the largest 
force, largest military force among all of the joint forces. 
Right now, as I mentioned earlier, we do 46 percent of the 
annual demand of the combatant commanders, and 64 percent of 
everything they ask for on an emergent basis comes out of the 
Army. And we have suffered something like 60 or 70 percent of 
all the casualties over the last 15 years.
    And we have been cut significantly, so you can imagine 
there is a significant amount of stress on the force as a 
result. And that also impacts readiness, so you have got the 
largest force, the largest demand, the largest stress, and the 
least budget. All of that is cumulative on the United States 
Army. We will drive on. The caissons will go rolling along. We 
will execute the tasks given to us on a day-to-day basis, but 
it does come with risk, and people have got to be clear-eyed 
and open-minded about what that risk is. And again, I will be 
happy to talk in a classified session in more detail on the 
risk if you desire.
    Mr. Johnson. Thank you, I yield back.
    The Chairman. Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman, as always, the 
generals and admirals, and all the service people there. We 
express a great gratitude to you all for everything that you 
do.
    General Milley, I have been especially impressed with the 
cogency and clarity of your comments in recent days and I 
appreciate you speaking so clearly to us. Because I believe 
your perspective is critically important.
    With that, I am going to direct my questions to the 
civilian command structure here. Secretary James and Secretary 
Mabus, during its 7-year tenure, the Obama administration, I 
understand, has reviewed and reassessed the need for the 
nuclear triad. Has the administration conducted detailed 
analysis of eliminating one or more legs of the triad or 
significantly altering the U.S. nuclear posture. And if so, 
what were the results of those efforts?
    And I will start with you Secretary Mabus.
    Secretary Mabus. Congressman, I am not aware of any 
detailed look at that. We have been, obviously, focused on our 
leg of the triad, the Ohio-class replacement, and have, 
obviously, done very detailed analysis on how that program 
comes into being in its own track for 2021.
    Mr. Franks. Let me kind of re-orient the question. Why does 
the administration continue to propose such strong support for 
and recapitalization of the nuclear triad from your 
perspective?
    Secretary Mabus. Well, to quote the CNO, it is a matter of 
our national existence. And from a Navy standpoint, it is our 
top modernization program. It is the top program that we have. 
It is on track to begin construction of the Ohio-class 
replacement in 2021. That is when we have to begin.
    But as this CNO, and the three that I have been privileged 
to serve with have said, and I have said, you are going to have 
to look at this program with a national lens because if you 
drop this into the middle of a Navy shipbuilding budget, it 
will just gut Navy shipbuilding for decades to come. And so the 
reason that we are focused on it is because it is an 
existential program, and the reason that we are focused on how 
to do it is to do it without damaging our conventional 
superiority as well.
    Mr. Franks. Well, thank you, sir. Secretary James, I might 
ask if you share the same endorsement and support to the 
nuclear triad?
    Secretary James. Yes, I absolutely support it and I believe 
that the administration supports it precisely because it has 
worked for us for decades. It has provided that deterrent and 
each leg of the triad adds a little bit different aspect to 
that.
    So the ICBMs are considered responsive. The sea launched 
are considered survivable, and the bombers, of course, are 
flexible and they also are survivable because of the 
dispersion.
    If I could just add one point. Obviously, it is a certain 
amount of money, and to the extent we fund one thing if we are 
under budget constraints, we can't fund another. So I would 
just like to say I am not fully familiar with the strategic 
deterrence fund that you all have referenced here. But if that 
is a strategic deterrence fund which would help or benefit one 
leg of the triad, I would ask for consideration that all of the 
legs of the triad be included in such an approach.
    Mr. Franks. Well, Secretary Carter and Deputy Secretary 
Work have made clear that the nuclear deterrence is the 
Department of Defense's highest priority mission. Certainly, I 
agree with that. But for the Navy and the Air Force, how are 
you prioritizing your portions of the nuclear deterrence 
mission within each service, and what nuclear deterrence 
programs are you pursuing, and where do they rank in your 
services' priority list? You kind of have to take an overview, 
each of you, if you would, of those points.
    Secretary Mabus. It is our top priority. We have said that 
for several years now. The first boat is funded. We have funded 
all of the research and development, all of the design work, 
all of the engineering work going into this. As was said in 
answer to an earlier question, we have been working with our 
colleagues, the British, on a common launch, common missile 
launch tube so that we do save some money there.
    We have been driving down the cost of these boats and we 
are on track to begin construction of the first one in 2021, 
which will allow it to take its place in the fleet, and in the 
rotation at the correct time when the Ohio-class begins to 
retire.
    Secretary James. And Mr. Franks, I would say there is three 
parts. There is the people who perform the nuclear mission, 
there is the readiness of those people, and then there is the 
modernization aspects. And over the last several years we have 
shifted billions of dollars in additional people to try to 
address all of these areas.
    So when it comes to modernization, of course, we have the 
B-21, we talked about that somewhat earlier. We have the 
ground-based strategic deterrent, which will be the future of 
the ICBM force, and then we, of course, have to also fund 
appropriately the weapons that would go with these.
    Mr. Franks. Thank you, Mr. Chairman. I thank all of you.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman and I would like to 
thank each of you for your testimony today and your service to 
the country.
    And I would like to ask Secretary Murphy and General Milley 
a series of questions on readiness based on some of what we 
have heard so far today.
    Secretary Murphy, you defined readiness as the components 
being a fully manned and fully trained force that we send into 
harm's way, and General Milley has been very eloquent about the 
consequences of a failure to do so. It really will end up 
costing this country the lives of the service members who are 
there fulfilling our missions.
    If the publicly stated goal for the Army is to be at 90 
percent readiness, and if we are in this setting somewhere 
short of that, what does it cost to get us to our stated goal 
if it is not in this President's budget?
    Secretary Murphy. Well, Congressman, a couple of things. As 
far as when you look at the budget, as I mentioned, it is 
minimally adequate and we are taking on high risk. If you are 
talking about end strength that is also, we are at the minimal 
levels. We are in a glide path, as you know, to get down to 
980,000 in the total force Army.
    If you do give the Army money and extra money, it doesn't 
mean that we are going to be at 90 percent the next day. 
Readiness takes time to build and that is why we are expanding 
CTCs, the combat training centers. And that is at total force. 
So next year we have planned that we are going to double the 
National Guard units, brigade combat teams going through the 
CTCs. So it is multilevel.
    So it is not just--the money is critically important. If 
you give us the money, we will be more ready. We will give the 
training. And as you know, we train like we fight.
    Mr. O'Rourke. You really got my attention earlier when you 
said you put us at high risk when you fund the Army at this 
level, which leads me to this conclusion. I don't want to be a 
passive witness to high risk. And so if more money is needed to 
improve readiness and reduce risk, especially for the service 
members whom we want to return safely, then I want to fund 
that. I want to be an advocate for that funding, and I want to 
be able to convince my colleagues that that funding is 
necessary because it comes at a cost in tax dollars, other 
opportunities, and other priorities.
    So I want to know what that number is. I don't simply want 
to assume that we must move forward with a high-risk posture 
for the U.S. Army, so looking for a specific number that I can 
advocate for.
    Secretary Murphy. Real quick. We have, obviously, our base 
budget request at $125.1 billion. We have an unfunded request 
which is not part of that. Please fund the base. Then we have 
unfunded. It is called UFRs [unfunded requirements], as you 
know, at $7.5 billion, which helps mitigate that risk. But 
again, that doesn't mean that we are at 90 percent the next 
day. I mean, this is a process and, you know, I believe the 
chief wants to comment as well.
    General Milley. Congressman, the whole issue of readiness, 
the very first question any of us needs to ask is readiness for 
what? And as I mentioned earlier, the United States Army, you 
can take it to the bank right now, is ready to fight ISIS, Al 
Qaeda, al-Nusrah, and any other terrorist group, 
counterinsurgency type thing. That is not what we are talking 
about when we are saying risk.
    We are talking about great power war with one of, or two 
of, four countries. You are talking about China, Russia, Iran, 
and North Korea. That is the guidance we were given. That is 
how we are force sizing the budget, or that is how we are 
sizing the force and that is how we planned the budget, in 
accordance with the National Military Strategy, the Defense 
Planning Guidance, and a wide variety of other documents. To do 
those operations against those countries, if that day would 
ever come, that is what we are talking about in terms of the 
level of risk.
    Now, we collectively can roll the dice and say those days 
will never come. And that is a course of action. That is not a 
course of action I would advise, and I think that the guidance 
is correct. We need to size the force and train the force, all 
the forces, Army, Navy, Air Force, Marines--not just the Army--
to be able to handle those contingencies. And I think there is 
a high level of risk associated with those contingencies right 
now.
    Mr. O'Rourke. So let me ask this. If others before us have 
said we are at the low ragged edge of what is safe or 
manageable risk, if you say we are at high risk, does $148 
million total base in OCO [Overseas Contingency Operations] for 
the U.S. Army get you where you need to be, or do you need 
something more to mitigate that risk?
    I am accountable for this, so I want to make sure I am 
advocating for, and we are legislating for, the appropriate 
number to get you to where you need to be based on risk as you 
see it.
    I am out of time, so I hope that someone will follow up on 
this question because I want to know what that number is.
    Secretary Murphy. Congressman, it is a minimal level.
    Mr. O'Rourke. I yield back.
    The Chairman. Great questions. Mr. Turner.
    Mr. Turner. Thank you. I want to thank each and every one 
of you for the fact that you have, with clarity, assisted us in 
the debate on the issue of sequestration. Following on with a 
previous questioner, we appreciate an understanding that the 
base budget number that you need is $574, and we are certainly 
working and struggling to get it to that level. It is 
unfortunate that the administration did not follow the budget 
deal that had been agreed to with the House and the Senate, and 
did not send over a budget that was consistent with the 2-year 
predictable funding that Secretary Murphy had indicated was 
helpful.
    The base budget sent by the administration is lower, and I 
know you are all forced to present us budgets that were for 
that lower number. We are hoping to restore some of those to 
get back to what would give you some consistency in the funding 
that you expected from last year.
    General Milley, you had said that the issue of risk, and it 
being unacceptable with respect to readiness, equated to 
increased time and casualties.
    Secretary James, the general gave a great description for 
the Army. Are we currently at an unacceptable risk for the Air 
Force with respect to readiness, and does that risk also equate 
to increased time and casualties?
    General Milley. Congressman, could I just make a quick 
clarification? I did not use the word ``unacceptable.'' It is 
not my choice to say whether the risk is acceptable or not 
acceptable. My military professional advice tells the decision 
makers, Congress, the President, the Secretary of Defense, the 
Secretary of the Army, what I think the risk is. It is the 
decision maker's choice to determine whether it is acceptable 
or unacceptable.
    Mr. Turner. I appreciate that you said that. So let's go to 
you then, General. Help me with how to characterize that risk 
because, obviously, as we attempt to advocate to put the base 
budget at $574, I believe and I think many believe it is 
unacceptable. How would you characterize the risk then 
currently?
    General Milley. The risk in terms of time, troops, and 
tasks, and that is how we categorize it, is a military risk, 
can you do the military tasks expected of you in the various 
contingency operations? Yes or no. And if you can't do all of 
them, what ones can you do? And that translates into a level of 
risk.
    Second is the effect on time. Can you do those tasks and 
can you get them done on time in accordance with what is 
determined by the decision makers of being an acceptable amount 
of time for the American people to accept in the course of a 
conflict. And troops----
    Mr. Turner. General, I understand that balance very good, 
but where are we in that balance?
    General Milley [continuing]. Is casualties. I have said 
that level of risk is high risk for the contingencies, that are 
the higher-end contingencies. Not for the day-to-day.
    Mr. Turner. I understand.
    General Milley. But for the higher-end contingencies, we 
are, in my view, my professional view, at a high risk to 
execute the tasks that would be required. That is correct.
    Mr. Turner. Excellent, perfect. So you are using the 
general terms for those high contingencies. Is the Air Force in 
the same place the Army is?
    Secretary James. So half of our combat Air Forces are not 
sufficiently ready for that kind of a high-end fight that 
General Milley just described against one of those great 
powers. Ready to do what? That is an excellent question. We too 
are ready and we have been doing it for 25 years. To fly and 
operate in the kinds of environments that you are currently 
seeing in the Middle East, it takes a toll, but we are ready. 
We are doing it.
    I also want to agree with the point about time is a factor 
here. So money is helpful for readiness, but freeing up the 
time of our people to go and do this training is equally 
important. And right now, we are stretched so thin, and we are 
so small as an Air Force and we are so deployed we are having 
difficulty getting the time freed up.
    So yes, I am very worried about it. And yes, if you go into 
a high-end conflict against a great power and you are not 
sufficiently ready, history teaches me you lose more lives and 
it is a prolonged conflict. And it is very worrisome.
    Mr. Turner. General, to get back to you. You had talked 
about rolling the dice, and maybe the day will never come, and 
in looking at that calculus, don't our adversaries know it too? 
So if we decide just to underfund assuming the day will never 
come, don't we lessen our effects of deterrence and thereby 
perhaps even increase our risk?
    General Milley. I believe that is true historically, and I 
believe it is true in the present, and likely would be true in 
the future, that if you are strong that that aids or increases 
your probability of deterring an aggressor.
    Mr. Turner. General, going back to Russia then. You know, 
considering that it very well could be our number one threat, 
are we ready currently for direct military conflict if Russia 
continues its adventuresomeness in Ukraine and the extreme 
exercises that they have had in both scale and scope with 
respect to the Baltics, are we ready?
    General Milley. I think you have to look at that at three 
levels, Congressman, tactically, operationally, and 
strategically. At the strategic level, there is no doubt in my 
mind that the United States would prevail. And it would be 
catastrophic for an awful lot of people, but the United States 
would prevail. Tactically, however, you are talking about a 
different ball game here.
    Mr. Turner. And strategic being nuclear?
    General Milley. Well, I am talking subnuclear. No, I'm not 
talking about a nuclear exchange. That would be, to me, that is 
beyond the beyond. But my point is, I don't think we ever want 
to get that question asked or answered. What we want to do, I 
believe, is to deter further Russian aggression in Europe. And 
they have been aggressive since at least 2008 or so. So I think 
the key is to deter Russian aggression and assure allies. And 
you do that with strong capabilities, some of which are 
military, some of which are diplomatic, or informational, or 
economic. There is a whole suite of a toolbox that we can use.
    Mr. Turner. Thank you for your clarification on strategic, 
because many people would translate that----
    General Milley. No, that is not what I was talking about. 
No, not at all.
    Mr. Turner. I appreciate that you walked that back.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. And I want to thank 
my colleagues here, and certainly the witnesses for focusing on 
what we just discussed. What is strategic, and Mike laid that 
out. And General Milley, your answer of strategic is something 
that we need to be very, very aware of.
    Normally when we talk strategic, we talk nuclear. But you 
said something different. And I think that we need to 
understand that. Specifically, question, Secretary James, what 
is the cost of a single F-35?
    Secretary James. I think the current unit is $105.
    Mr. Garamendi. I am sorry how much?
    Secretary James. It is $105 million is the current unit 
cost.
    Mr. Garamendi. And you are delaying how many F-35s which 
you earlier said were essential for your mission?
    Secretary James. In fiscal year 2017, five.
    Mr. Garamendi. How many?
    Secretary James. Five. In fiscal year 2017.
    Mr. Garamendi. Five.
    Secretary James. With the greatest of reluctance. That is 
the budget.
    Mr. Garamendi. So $600, $700 million, something like that?
    Secretary James. That sounds about right.
    Mr. Garamendi. And General Milley, to address your question 
of risk, how much money?
    General Milley. We have submitted a UFR through the 
Department of Defense that would mitigate the risk. Again, it 
goes back to what is the task, the task that were given to us--
--
    Mr. Garamendi. No. We are talking about the strategic, your 
discussion of strategic.
    General Milley. That is what I am talking about. So the 
tasks that were given to us, is be prepared to deter, fight, 
and win. I would have to really talk to you in a classified 
basis to tell you the exact tasks that were given to the Army 
or any of us, because it is a classified document. It is 
Defense Planning Guidance.
    Mr. Garamendi. Is the dollar also classified?
    General Milley. No. The dollar is not.
    Mr. Garamendi. And that number is?
    General Milley. Well, that number would vary. Again, it 
goes back to what tasks are you willing to accept risk on?
    Mr. Garamendi. Let's just say Europe.
    General Milley. I think that the European task that we are 
covering with the ERI [European Reassurance Initiative] in this 
budget of three-point-something billion dollars, I think, will 
go a long way towards deterring Russia and assuring allies and 
we would ask for your support of that ERI. Should more be done? 
Yes, I think more should be done.
    Mr. Garamendi. And is the cost of that much more?
    General Milley. Well, again, Congressman, that would depend 
on the task. I am not trying to be cagy.
    Mr. Garamendi. No, I understand.
    General Milley. It depends on the specifies tasks. And 
there is a menu of options. If we threw more money at it, we 
could put--you know, ERI, we could put more equipment----
    Mr. Garamendi. I am going to move on. Thank you. I get a 
sense of additional money reducing the risk.
    General Milley. Sure. That is right.
    Mr. Garamendi. General Neller, you talked about your needs. 
You have got needs that are not being addressed. Where I am 
going here is to this nuclear issue. We are going to spend $3.3 
billion on every single one of the nuclear weapons. That is the 
bomb and related services to it. And we are going to be 
spending somewhere around, I don't know, $113 million preparing 
for the Minuteman IV, the next missile. And there has been 
discussion back and forth around this table about priorities.
    And the question that we need to ask ourselves is, are we 
prepared to set all of you on a mission to spending close to a 
trillion dollars over the next 25 years or so on revamping, 
rebuilding our entire nuclear arsenal and delivery systems? You 
know, we need to make that choice now and somebody said it is 
the next President's choice. No, it is our choice today because 
we set you on a path to do that.
    And the question is, what are the real important things 
that we need to do? Do we really need to replace the Minuteman 
IIIs with Minuteman IVs in the next 20, 25 years? Do we need to 
do that? Do we really need to have a new long-range cruise 
missile, or can we delay that and instead, spend the money on 
ramping up the Army?
    General Milley. May I take a shot at that from an Army 
perspective just briefly? I just want to be clear. I don't have 
a part of the triad in a sense, but I can tell you that in my 
view, my professional military view, and I am a member of the 
JCS [Joint Chiefs of Staff], that the nuclear triad has kept 
the peace since nuclear weapons were introduced and has 
sustained the test of time. That is not unimportant. And that 
system has deteriorated, Congressman. And it needs to be 
revamped. It is not even an Army system. It needs to be 
overhauled and brought back up to its level of readiness.
    Mr. Garamendi. We are not debating that it needs to be 
revamped. The question is how much and when?
    General Milley. Okay.
    Mr. Garamendi. And as we make that choice, right now the 
choice is to do it now and get on with it and to spend an 
extraordinary amount of money, which will come out of every 
other program, not just the military, but every other program. 
So there are some hard choices that need to be made.
    General Milley. Uh-huh.
    Mr. Garamendi. And right now our choice is to do it all. I 
yield back.
    The Chairman. The time of the gentleman has expired. Mr. 
Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, gentlemen and lady. 
Thank you for being here today.
    Mr. Murphy, it is good to see you. Mr. Rooney says hi, by 
the way. Great to see you. Last time I saw you we debated Don't 
Ask, Don't Tell on the floor, I think. It was a long time ago.
    Secretary Murphy. That is true.
    Mr. Hunter. It is great to see you. And let me just tell 
you, it fills my heart with joy that no matter what 
administration we have, whether it goes back and forth, to see 
the uniformed leaders in front of me right now that we have 
today, it just makes me happy. It is a very reassuring feeling 
to see all of you here. The cream has risen to the top, and we 
are glad you are in charge.
    General Milley, I would like to just say, I want to go 
through a few things that I have worked on over the last couple 
of years with the Army. You had Will Swenson who ended up 
getting the Medal of Honor [MOH]. His nomination got lost. My 
office found it. It wasn't lost. It was mishandled. CID 
[Criminal Investigation Command] agents even went through his 
trash at his house, but he got the MOH and the Army did the 
right thing in the end.
    Major Matt Golsteyn. He killed a bomb maker who killed 
several Marines. The Army wanted to put him in jail for about 
20 years. Went to a Board of Inquiry. The violation could not 
be substantiated. His case was handled okay. Secretary McHugh 
revoked his Distinguished Service Cross over something that he 
did that was unrelated. The Army kind of did the right thing 
there.
    Lieutenant Colonel Jason Amerine. The Army investigated him 
for talking to me about hostage recovery. But because of Jason, 
we were able to change the hostage policy for the country. This 
committee and this Congress, and the President then followed 
suit. We changed the hostage policy and this committee 
benefited from his contribution to the Bergdahl report.
    Earl Plumley. He was a soldier nominated for the Medal of 
Honor in Afghanistan, supported by you and General Dunford. 
Both of you signed down on it. The Army downgraded him to a 
Silver Star, not even a Distinguished Service Cross. That case 
is now with the IG [Inspector General].
    Charles Martland roughed up a child rapist and the Army 
tried to expel him. He has now been extended three times and 
let me just tell you, he was rated number 2 out of 400 SF 
[Special Forces] instructors. He is before a board now. We are 
hoping the Army will do the right thing.
    These are not just personnel cases to me. What they 
represent are systemic issues that have huge policy 
ramifications stemming out of each one of these issues. Each 
one exposed a certain unique problem. We tried to fix the 
problems by first fixing the personnel cases themselves, and 
then trying to make a systemic change, and do our oversight 
role here in Congress.
    For the most part, the Army does the right thing, but it 
does it kicking and screaming sometimes. You are restoring my 
faith in what the Army should be. Your predecessor, the 
previous Secretary never came to my office, never called, 
wouldn't answer my phone calls, nothing. So everything that we 
did, it wasn't a nice conversation with the Army or actually 
trying to fix the problem. We had to bludgeon the Army with 
media, and going in and doing as much as we can to make them 
react to stuff that they should have reacted to simply with a 
phone call to me, and we could have worked these things out.
    You personally are restoring my faith and confidence in the 
Army. My dad was in the Army, the 173rd. My little brother was 
in the 4th Stryker Brigade. I forgive them for joining the 
wrong service. I think you are the right leader for today's 
Army. And I want to just keep engaging with you because I know 
you are going to put the warfighter first. And in the end, your 
dad is a United States Marine. So you can't be that bad. And I 
just want to say thank you. Thanks for doing what you are 
doing.
    General Milley. Thanks Congressman, I appreciate that. And 
I am very proud to be part of a joint team. My mother was in 
the Navy as well, and brothers and cousins in the Air Force. So 
like one of the other Congressmen, it is a joint family. So it 
is a great team. And all of the services, every one of them, 
are really doing a great job so I appreciate your confidence. 
Thank you.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman. Just briefly, I am 
from Omaha, and obviously, Offutt Air Force Base is in our 
district. And I go way back. My father actually flew a B-26 
bomber that was--we talked about this--it was manufactured at 
the Martin Bomber Plant. The Martin Bomber Plant is still 
there, and hopefully it will remain for a couple more years 
anyway.
    I was very impressed by so much that is going on there, the 
sexual assault project at Offutt is an immense success. And 
your comment on that is absolutely correct. I mean, they have a 
mentoring project, a mediation project. The young airmen who 
are involved in that project are making a significant 
difference. Specifically, on the 55th and all other ISR wings, 
the mission has changed dramatically in the last--as has been 
mentioned by everyone here.
    How do you see on the budget side, I know there are, I 
think, 11 or 12 planes that are deployed at any given time, at 
least on the 55th, and many of them are at Offutt being 
maintained. Do we have adequate platforms and how do you see 
the ISR function being maintained and sustained under this 
budget and going forward? Madam Secretary.
    Secretary James. So I will begin, if I may, and I am sure 
the chief will jump in. There is a lot going on in the world of 
ISR to state the obvious. It is the number one desire of the 
combatant commanders. If you would go to any of them and say 
what more of the Air Force do you want, it is ISR, ISR, ISR. So 
we are adding some additional platforms, as I mentioned, some 
additional MQ-9s, but even more importantly, let me come back 
to the people.
    So there is a lot going on to try to alleviate some of the 
stresses to build up that force. Everything from, we are 
looking at standing up some new units so that there are 
additional places to rotate to. Other quality-of-life oriented 
areas, additional compensation, if you will, to recognize the 
special types of duties. So there is a lot going on and we do 
need to build up that force some more.
    Mr. Ashford. General.
    General Welsh. Sir, I would just add that the focus for us 
over the last 7 to 8 years has been a different part of the ISR 
enterprise than the part that lives at Offutt Air Force Base. 
The big wing ISR platforms have not been where we have invested 
most of our time, energy, and money over the last 8 to 9 years. 
That has been in the medium altitude unmanned fleet primarily, 
because of the demand to support combat and contingency 
activity over that time period.
    We have got to get back at looking at what does a theater's 
worth of ISR look like to a joint force commander in a bigger, 
broader theater that is not involved in just a low-intensity 
conflict or a counterterrorism fight. And when we do that, I 
think we will find that we are going to have to also follow up 
on recapitalization, modernization over time for the 
capabilities of the 55th Wing because they are invaluable and 
they contribute at the national level, to decision making.
    Mr. Ashford. Right. And I realize the challenges on the 
infrastructure side, and I appreciate the attention being paid 
to that as well.
    General Milley, could I just ask one question? I was very 
impressed by your testimony, and your candor, and your 
discussion about what happens after ISIS is destroyed. How do 
you see that from a financial budgetary perspective as we move 
forward after the destruction of ISIS and related affiliates?
    General Milley. Well, I mean, it is obviously too early to 
tell. The strategic task or the operational task given to us by 
the President is to destroy ISIS. I am 110 percent confident 
that we will do that over time. And we have made adjustments to 
the current campaign plan, and I think over time, that will be 
effective.
    What comes next, though, what happens after ISIS is 
destroyed? I think that is yet to be decided. I think there is 
going to have to be a strategic choice that if we are 
successful and ISIS is destroyed, something will have to go 
into that space in order to stabilize that terrain for a period 
of time, the terrain and the population. Ideally, that would be 
international capability of some sort led by Sunni Arabs. But 
we are a ways away from that and I think that the planning and 
the thought and the analysis will have to go into that. How 
much will that cost? I don't know. I haven't seen any cost 
estimates, but I would imagine that wouldn't be cheap.
    Mr. Ashford. Thank you, General. I yield back, Mr. 
Chairman.
    The Chairman. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. General Welsh, I am 
encouraged by the Air Force's plans to move forward on 
recapitalization of the weapons storage facilities and was 
disappointed that despite the Schlesinger report, that the 
previous facilities were decertified, but I am glad we are back 
on track. So would you comment on the weapons storage facility 
recapitalization programs in terms of timeline and what we can 
expect for the near future.
    General Welsh. Yes, sir. We have, over this next year, 
roughly $40 million in our budget in 2017 to move forward with 
that effort. It is almost $700 million over the FYDP. As you 
know, F.E. Warren is being done right now. The weapons storage 
facility is being renovated. The next step is Barksdale, and 
that would begin in 2018. Beyond Barksdale, then I think the 
order after that would be Malmstrom and then Whiteman. And so 
we are on track. It is funded. The plans are in place. And we 
think the design work that we have done so far in F.E. Warren 
has been very well done, and it will provide us a standard 
footprint that we can then modify as appropriate for each wing, 
and that contract should be let this year.
    Dr. Fleming. Okay. Great. Great news. Okay.
    General Milley, I certainly want to endorse your comments 
you made a few weeks ago about the Army not planning to cut one 
more infantry brigade. We feel like we are already below where 
we should be on this. I am very interested to learn about the 
Army's repatching initiative. I understand that this will not 
impact Active Duty forces' structure within the 310 Brigade at 
Fort Polk and would like to know more about this concept of 
repatching. I have not heard of that before, so if you could 
comment and expand on that.
    General Milley. Yes. Repatching is probably a misnomer, if 
that is what people have mentioned to you. So what we are 
looking at is really associated units--we took a page out of 
the Air Force--so associated units between the National Guard 
and the Active Component of the Regular Army.
    Years ago there was a concept called ``roundout.'' It is 
very similar to that. It is not exactly the same. And I wanted 
to go both ways in the sense of National Guard units are 
affiliated or associated with Regular Army divisions or 
brigades, and they are essentially rounding out that force 
structure. And then it can go the other way as well. 
Specifically with 310, we are looking at putting 310--I think 
we said for them Texas--I might be wrong on the division, but--
--
    Dr. Fleming. I believe it is Texas.
    General Milley [continuing]. To make them part of the 36th 
Division.
    Dr. Fleming. Yes.
    General Milley. And that was an option. It has not yet been 
decided, by the way--these are options----
    Dr. Fleming. Okay.
    General Milley [continuing]. That are coming forward after, 
and we are going to do rigorous analysis and study that is 
ongoing with the Army staff, and ultimately the Secretary of 
the Army will be the guy making the decision.
    But the idea is to associate National Guard with Active 
Duty Component units, and we think that will overall increase 
the readiness of both components. So that is the idea behind 
it.
    Dr. Fleming. Right. You don't anticipate any change in 
manpower at Fort Polk? My understanding is----
    General Milley. No.
    Dr. Fleming [continuing]. While these Active Duty members 
would be----
    General Milley. No.
    Dr. Fleming [continuing]. In essence, assigned to the 
National Guard in Texas, they would remain stationed at Fort 
Polk.
    General Milley. They would be Regular Army Active Duty 
soldiers. They would remain at their base station. There would 
be no budgetary implications in terms of 304 funds or 
mobilization funds or any of that kind of stuff. This is an 
association of Active and National Guard units where they would 
train together, Office of Professional Development classes, 
NCOPD [Noncommissioned Officer Development Program]. They would 
do FTXs [field training exercises] together. They would go on 
deployments together and so on and so forth. What we are trying 
to do is integrate the force to put teeth behind the idea of 
total force, to make that real, to walk the walk, not just talk 
the talk sort of thing.
    Dr. Fleming. Right. Okay. That is great. And I will just 
say in closing, I just want to thank all of the chiefs and 
secretaries for being here today and the great service you 
provide to our Nation. Thank you, and I yield back, Mr. 
Chairman.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Good morning. Thanks 
to all of you for your service and your leadership.
    General Milley and Secretary Murphy, I just want to say, as 
a soldier in the National Guard, I appreciate very much your 
leadership and the role that you have taken in highlighting the 
importance of this total integrated force that you have just 
talked about and actually backing it up with plans and actions 
and training that you have just laid out.
    I think capitalizing on the resources and assets that we 
have within our National Guard and Reserve Components is 
critical. They have often been underutilized. And largely many 
of the challenges have come from really a problem with the 
culture in providing that wide gap between the Active Component 
versus the Reserve Components. So I just want you to know that 
the leadership you have taken on this has already trickled down 
to the unit level that I have seen and heard when I go to my 
drill training on the weekend and provided a very serious 
morale boost where people feel like they are actually being 
utilized for what they have been trained to do.
    I want to touch a little bit on the end strength, this 980 
number, and I think a lot of us have come at this from 
different directions. I think it highlights the concern that 
many of us have on what that number means and where we need to 
be. I think the Commission on the Future of the Army talked 
about, quote--this number being a, quote, minimally sufficient 
force.
    Secretary Murphy, you used the words, I think, ``minimally 
acceptable force that has created a situation of high-risk.'' 
Considering the both unconventional and conventional threats 
that we have, whether you are ranging from groups like ISIS to 
North Korea, what is that end strength number that would be 
sufficient to be able to confront these threats on at least two 
fronts?
    Mr. Murphy. Well, Congresswoman, first, thanks for being 
part of the Army team and your service as well. You know, we 
are obviously planning at that 980 level where we are still 
drawing down and still we have a little bit to go there. But, 
you know, we have been very clear; it is not just the end 
strength numbers. I mean, Congress could pass a bill that gives 
us higher end strength, but if it doesn't come with funding, 
that will very much hurt our Army because then you have to cut 
from--we have already cut from modernization.
    As I said in my opening testimony, we are mortgaging future 
readiness. We are mortgaging modernization to focus on current 
readiness with the OPTEMPO that we are under right now. So, you 
know, I can't give you an exact number. That is for 
policymakers and the President to put forth. But unless that 
end strength number comes with dollars behind it, it will 
hollow out our Army. It would not be a wise decision.
    Ms. Gabbard. Thank you.
    General Milley. And I would echo that, Congresswoman. This 
budget, this President's fiscal year 2017 budget, takes us to 
460 in the Active Component in the Regular Army by the end of 
the year, and it takes the Guard to 335 and the Reserve to 195. 
You know, is that sufficient? Again, it is readiness or 
capability to do what? Yes, we can do the National Military 
Strategy on a day-to-day basis, but can you do the tasks that 
are embedded within the other documents that are classified, 
and the answer to that is yes, but at high risk.
    Okay. So then your question is, how do you lower that risk? 
End strength is one of the variables. Readiness is another one. 
Technology is another. Time, and there is a whole assortment of 
that, but end strength is just one. So I caution everyone about 
getting fixed on a fixed number, an end strength, a million, 
500 thousand, 2 million, or whatever the number is. That can 
lead you to a bad solution. And I would be concerned as the 
Chief of Staff of the Army if someone put into law that the 
Army will be at number X, but no money came with it for 
readiness or modernization. That would actually hurt, not help.
    If someone wanted to increase the end strength of the Army, 
I am all for it. I think it is a good thing. I think it is 
necessary, but it would need to come with the additional moneys 
for readiness and modernization. Otherwise, it would end up 
actually hurting.
    Ms. Gabbard. Thank you. I think that is a critical point. 
As we go through this, oftentimes people are throwing around 
different numbers without really explaining what the rationale 
behind that number would mean and what the cost would be.
    I have got just a few seconds left. I just want to 
highlight a concern about the reduction in National Guard 
MILCON [military construction] funding. As you well know, over 
half the National Guard readiness centers were built between 
the end of World War II and Vietnam. Places like the Pohakuloa 
Training Center in Hawaii, host not only our Active and Reserve 
Components, but also foreign military officers for RIMPAC [Rim 
of the Pacific Exercise]. It was built during the Korean War 
and is really in despicable shape. And just as we work through 
this, I ask you to place that at a high level of priority with 
regards to readiness. Thank you.
    The Chairman. Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman, and I appreciate 
the panelists. Let me follow up on that question from Ms. 
Gabbard, and also earlier from Beto O'Rourke, and build on some 
of the testimony earlier today but perhaps come from a 
different perspective or different angle, because I am 
interested in the best military judgment from General Milley 
and General Neller.
    Many of us here listening very carefully, building the 
record, having testimonials about the risk, and even today, we 
are hearing today about the very high risk associated to where 
we are. And I understand there is a bit of a dance that has to 
go on politically. I get that. But I want to cut through some 
of that with this assumption that, you know, a number of us 
here, in a bipartisan way, are building a bill that stops the 
drawdown of the land forces. And when you consider the fact 
that by 2018, we are talking about taking our land forces to 
pre-World War II levels, I think it is important the American 
people hear that, hear directly about where we are heading.
    Now, with this bill, of course, and I heard the Chief of 
Staff of Army mention just moments ago, and I concurred with 
him completely, that this would have to come with the money 
necessary for readiness and modernization. And I say the same. 
And I met with General Neller about a week or two ago. But I am 
coming at it differently saying it this way: If the Congress 
was able to build the coalition to vote for and to pass 
stopping the drawdown, essentially to bring with it the moneys 
necessary so we don't hollow out the force, so that would be 
55,000 numbers different from 2018 in terms of the 980 number 
would go to 1,035, and the United States Marine Corps instead 
would basically have 2,400 different, when you look at instead 
of 182, the Active Marine Corps would 184. And the Marine Corps 
Reserve instead of being 385, would be 389.
    So my question is this: If we were able to get that done, 
please explain to my colleagues and the American people how 
this would impact readiness. Explain to us what you would do, 
Army, Marine Corps Generals, in terms of this increased end 
strength, what would that mean for the formations? How would 
that address the risk? And what would that mean to the families 
in terms of deployment and dwell? Thank you.
    General Milley. Thanks, Congressman. Well, in terms of 
readiness, it would, I think, assist us with the deployment 
dwell and buy time because you would have the capacity and the 
force to do the day-to-day OPTEMPO--because as the wars draw 
down in Iraq and Afghanistan, they didn't end but they came 
down considerably, but so didn't the size of the force. So the 
OPTEMPO, the DEPTEMPO for the Army, has remained very high. We 
are still at, you know, 1 to 1 or 1 to just a little bit less 
than 2 in some capacity.
    So time is critical to building readiness, the time to 
train, the time to rebuild the force. It would also, I think, 
probably allow for an increased number of capabilities, not 
necessarily brigade combat teams, but various other 
capabilities. Earlier, people talked about Patriot; Patriot is 
one of our significantly increased or high-stress units. And 
then on the families it would clearly reduce some of the 
OPTEMPO stress on a day-to-day basis.
    So if that were to happen, that would be wonderful. We 
would welcome it. But, again, I just caution everybody; it 
would have to come with the dollars associated with it in order 
to fund the readiness, in order to fund the modernization 
associated with those forces.
    General Neller. Congressman, I think it would do two 
things. If we increased the number of like units, it would 
improve our dep-to-dwell, which gives us more time to train 
before we deploy again, which overall improves our readiness, 
reduces stress on the force and stress on the families.
    That said, we are in a process right now, and we are 
looking at what the force design looks like and--because I 
think we have realized it is because we have been doing what we 
have been doing successfully, but we have to look to the 
future. Do we have the right force design for the future? Do we 
have the right number of marines doing the right things? Do we 
have enough people that do information warfare, do electronic 
warfare, do cyber? Do we have enough communicators, enough 
intel analysts, and I think the answer is no.
    And so we would probably take that number of people and use 
them to get those types of marines which would add those 
capabilities to make the force better and more ready and better 
prepared to go face the conflicts we think that we have the 
highest probability of operating in in the future.
    Mr. Gibson. I appreciate those comments. And for the 
record, both general officers talked about the impact on 
service members and their families. A lot of emphasis here in 
the Congress has to do with post-traumatic stress, TBI 
[traumatic brain injury], and other associated concerns for our 
veterans. And, you know, this bill, fully funded, would help 
address it.
    And also in terms of the European Reassurance Initiative, 
concerns with the Islamic State, dealing with North Korea, some 
challenges potentially with China, you know, this is a very 
important bill that we need to muster the political will to 
pass. I thank the panelists. I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to begin 
by thanking our wide array of distinguished witnesses before us 
today, and we certainly appreciate both your insight and your 
dedication and service to our Nation. So thank you for that.
    Secretary Mabus, and--actually before that, if I could just 
acknowledge Mr. Murphy, and great to see you back before the 
committee and to have you with us today. So thanks for your 
service and what you are doing.
    Secretary Mabus and Admiral Richardson, with the resurgence 
of Russia and the ascendance of China, and the role the Navy 
plays in the conflicts throughout the Middle East, there is 
obviously clear urgency to add more submarines to the fleet. In 
light of the impending submarine shortfall, can we count on 
efforts to extend the life of the Los Angeles-class boats? And 
how can we best direct our immediate and long-term investments 
to effectively mitigate any risks posed by the shortfall?
    Secretary Mabus. Number one, Congressman, the Russian 
activity that you were talking about is the highest level we 
have seen since the Cold War. And the OPTEMPO for the Navy, and 
particularly for our submarine forces, has been exceptionally 
high for at least the last decade. The number of submarines 
that we have today and the number that we are going to have 
into the 2020s, is an example of why it is so important not to 
miss a year in submarines. We have missed years building only 
one attack submarine, and we just can't make those years back 
up.
    Where we can focus now is, number one, on making sure that 
the submarines that we do have in service reach the end of 
their life span, the Los Angeles class that you have mentioned 
in particular, that to the extent we can extend those, but to 
make sure that they reach that in a safe and effective manner.
    Number two, right now we are looking at one Virginia-class 
submarine in 2021, because that is the year that the Ohio-class 
replacement begins to be built. We would very much like to and 
need to have a second Virginia class in that year. We are 
undergoing the studies, the look right now, to make that 
happen. And we simply need, as we go forward, to build more 
submarines, and particularly the attack submarines, and not let 
the Ohio-class replacement effort have an impact on so many of 
our other shipbuilding programs and in particular the attack 
submarine program.
    Mr. Langevin. I couldn't agree more, Mr. Secretary, and I 
share that concern. And the faster we can get these boats into 
the water, obviously the better.
    Secretary Mabus and Admiral Richardson, as you know, the 
last eight Virginia-class submarines have been delivered ahead 
of schedule, and the program has been touted as a model for 
acquisition reform, largely due to the multiyear contracting 
strategy and its use of economic order quantities, something 
that I along with my then colleague from Connecticut, at times 
several years ago strongly advocated for that change in how we 
bought and paid for our submarines, allowing for a multiyear 
contract, which never had been done before.
    Now, based on the initial industry estimates of the cost 
impact to module manufacturing, final assembly and testing, and 
the supplier base, the estimated long-term cost impact of an 
$85 million shortfall in AP [advance procurement] funding in 
fiscal year 2017 could be between $110 million and $210 
million. So with this in mind, what ramifications might the 
Navy see, should we fail to provide robust funding for advance 
procurement for the Virginia-class submarine program, and how 
would the health of the force be affected?
    Secretary Mabus. Everything you pointed out, you know, 
shows why it is important to do these things 10 at a time as a 
multiyear buy. We appreciate Congress allowing us to do that 
very much. Part of that multiyear buy is the advance 
procurement so that shipyards can buy in economic order 
quantity.
    And to show you the impact that something like that has, in 
2014, when we signed the last multiyear for 10 subs over 5 
years, we paid for 9 subs, so we basically got a submarine free 
because we, with the help of Congress, let suppliers buy in 
economic order quantity. They were able to keep and train the 
workforce that was going to be needed. They were able to make 
the infrastructure investments that they needed to make.
    Mr. Langevin. Thank you. I know my time is expired. I hope 
we are not going to let advance procurement slip. So thank you, 
Mr. Chairman. I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Ms. Welsh, welcome to 
the Armed Services Committee. The behavior in here is not 
always this good. We might need you back in a few weeks. But 
congratulations on your Easter Seals award dinner. I apologize 
I didn't see you when I was congratulating General Welsh on it 
and certainly look forward to having you back in Valdosta. I 
think it has been 10 months and 2 weeks since I saw you down 
there. I remember that because my baby was exactly 6 weeks old 
at that time and so I look forward to seeing you again in 
Valdosta, and General Welsh as well.
    General Milley, I read about the issue with regard to the 
pistols, and I think it is absolutely ridiculous that you don't 
have the authority to pick a pistol for the Army. I would bet 
that the four of you in uniform could probably, in 10 minutes, 
come up with an agreement on what that platform should be. I 
would think that with a quick click or two on an iPad, you 
could figure out what the retail price of the pistol was, what 
a decent price for the pistol was, and what we should be paying 
for that pistol if we were buying it in the quantities that we 
would buy it in. And I want you to know that I do believe you 
should have that authority.
    And I can't help but wonder that if it is this bad with a 
pistol, what about optics? What about rifles? I mean, all of 
the things that we are buying. How much bureaucracy is in there 
that we could remove that would allow you to equip your men and 
women better, faster, and with less money?
    General Milley. Thanks, Congressman, and you are correct. 
The pistol is only one of the systems that is symptomatic of 
the system at large. First of all, we do, Secretary of the Army 
and I, do have the authority to pick the weapon, but that is at 
the end of the day. The problem is getting to the end of the 
day and how long it is taking. So this thing has been going on 
for like 9 years. And you have heard the whole litany of woe, 
about 300 pages, and so on and so forth. The test itself is 2 
years long on known technology. We are not talking about, you 
know, nuclear subs or going to the moon here. We are talking 
about a pistol.
    So, yes, it is a long, drawn-out process. It is not as 
adaptive. It is not as agile, it is not as quick. We don't have 
as many authorities. There are a lot of legal requirements and 
oversight and so on and so forth. We, the Army, would like to 
cut to the chase a little bit more on some of these things. And 
in the case of the pistol, we happen to be the one who's the 
proponent. All the other services would use the pistol that we 
get.
    Mr. Scott. I would encourage all of you to get specific 
language that you would like to see in the National Defense 
Authorization Act that would help you cut through that red 
tape.
    General Milley. Right.
    Mr. Scott. I mean, I heard it on the sniper fields at 
Benning with regard to what a scope can be purchased for over 
the Internet versus what it costs to get the same scope on a 
rifle at a military base.
    Secretary Mabus, real quick, thank you for naming the 
series of ships after John Lewis, my colleague from Georgia. 
Nobody deserves it more.
    I want to go to Secretary James now with regard to the 
JSTARS, if I can. We have discussed the ISR shortfalls. I know 
we are making progress with the JSTARS. My concern still is the 
ISR gap between the old platform of JSTARS and fielding the new 
platform of JSTARS and how we intend to close that gap and what 
suggestions that either you or General Welsh have for closing 
that gap.
    Secretary James. So, again, let me begin and then I will 
yield to the chief. Just a couple of data points. I mentioned 
we are getting going now with the recap of JSTARS. It has taken 
too long for a variety of reasons, but in this 5-year plan, we 
do have it funded. So that is point one.
    We have three contractors already that are under contract 
that are doing pre-EMD types of technology maturations, risk-
reduction types of activities, and we believe that we will get 
a contract awarded for EMD, engineering, manufacturing and 
development, in about the first quarter of fiscal year 2018. It 
is one of those high-demand, low-density areas. And you are 
right; combatant commanders want JSTARS and they want that 
equivalent as well a lot. So we are moving forward with it, and 
regrettably it has taken as long as it has.
    General Welsh. Congressman, I think by the time we finish 
this risk-reduction work and the technology maturation work in 
fiscal year 2017, and we approach that EMD contract decision, 
we will have a better idea of how much we can accelerate, if 
any, at that point in time. We would like to accelerate from a 
fiscal year 2024 IOC [initial operating capability] and move it 
forward.
    Mr. Scott. General, thank you for your time and for your 
many years of service.
    Ms. Welsh, good to see you again.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. This question is for 
General Neller. We now have two special purpose MAGTFs [Marine 
air-ground task forces], a new UDP [unit deployment program] 
requirement to Australia, the Black Sea Rotational Force 
[BSRF], additional requirements for embassy security, and an 
uptick in exercise and security cooperation missions and, of 
course, the regular MEUs [Marine expeditionary units] that our 
marines go on. So I have three questions regarding the 
sustainability of this OPTEMPO.
    One, is the current deployment-to-dwell ratio of 1 to 2 
sustainable in terms of training and also just general 
retention of marines? Two, will we have the ability to surge 
forces in the event of a full-spectrum conflict? And, three, 
are there more opportunities--and I brought this up in private 
with you--more opportunities to better leverage the Reserves in 
any way to help in regards to the first two questions?
    General Neller. So, Congressman, based on the current force 
structure, we deploy the MEUs to maintain a 1.0 presence for 
CENTCOM [Central Command]. There is also a forward-deployed 
naval force MEU in Okinawa, but that comes off of unit 
rotational forces. The BSRF and one of the special purpose 
MAGTFs is one force, and the other one is in CENTCOM. So is it 
sustainable? At a 2-to-1 ratio, at 24 infantry battalions and 
the aviation logistics, yes, it is. We can sustain this.
    Ideally, when I came in the Marine Corps, we were a 3-to-1 
force. We had 6 months deployed, 18 months to reset. We had 
been a 2-to-1 force. That is right at the very edge. And so we 
do have some units that are inside that, and that is of 
concern.
    So can we surge? The force that can surge is the force that 
is getting ready to replace these units that are forward 
deployed or the units that have just got back from these same 
deployments. And then there is always a life cycle to a unit, 
and the readiness ebbs and flows. It is a very kind of 
complicated algorithm involving people, the equipment, the 
readiness of the gear, the training of the unit.
    Depending upon what the requirement is and how much we have 
the ability to surge with those that have just gotten back and 
where they are in their training cycle, they would be at least 
prepared to surge. The bottom line is we are going to go. The 
Marines are going to go. And we are going to go, and we are 
going to provide the best ready force that we can because that 
is what you expect of your Marine Corps.
    And part of that surge is the Reserves, the 38,500 marines 
in the Reserve Component, which are part of the total force. 
Just like with the Army, Navy, and the Air Force Guard and 
Reserve, we are a total force. There is 2,400 Reserve marines 
activated today that are forward deployed, and they are out 
there as part of the 186,000 marines, 184,000 Active. So we 
wouldn't be able to do what we do without the Reserves.
    To have the Reserves surge, obviously we have to bring them 
on Active Duty; we have got to mobilize them, and they have to 
be paid. And if we were to replace one of these capabilities 
with a Reserve battalion or a Reserve flight squadron, that is 
expensive, and that is where you get in the issue of using the 
Reserves as effectively as we probably could.
    Mr. Gallego. Thank you. I yield back my time.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
this panel for being here today. It is always enlightening to 
hear from you.
    Just a little disclosure here. I was an airman back right 
after the Wright Brothers did their thing. But all three of my 
sons are currently in the Army, two Active Duty, and one Black 
Hawk pilot in the Florida Army Guard, and so, you know, that is 
an Army family from that standpoint.
    But this is for everyone. You know, SOF [special operations 
force] is often referred to as the tip of the spear. In keeping 
with that analogy, the vast majority of the rest of the spear 
is provided by all of you, the service branches. Some in 
Congress believe that national security could be provided much 
cheaper by investing a little more in SOCOM [Special Operations 
Command] and cutting a lot more from the Army, Navy, Air Force, 
and Marines. I know that without the enormous share of the 
service support you contribute to SOCOM, SOF doesn't function.
    And while digging for hard data to support both your 
traditional and special operations support expenses, I was 
surprised to discover that none of the branches, none of the 
branches, have a comprehensive list of common service support 
that contribute to SOF or understanding of what it really costs 
for you to annually support SOF.
    So in this year's NDAA, I am pursuing language that would 
direct each service to identify the support that they give and 
how much it costs, because what I want to make sure is that you 
are resourced properly and that, you know, this I think 
sometimes misguided aspect that SOF can solve all of our 
problems--you know, if we are going to resource SOF, then how 
does it affect, you know, and we don't want it being taken from 
the general services.
    So if you could, and like I said, we have checked, would 
you support that in regards to that kind of language?
    General Milley. For the Army, absolutely, sure. In fact, it 
is a great idea to come up with a list if I were supporting 
SOF, because as General Votel testified, I think it was last 
week, and I can certainly attest to that, is that the United 
States military special operations forces depend upon the 
parent services of all of us in the conventional forces for 
their very existence, not only in their training, in their 
manning, and their equipping, but also operationally. It is 
much, much more difficult for them to operate when they are out 
there just by themselves, but when they have got an 
architecture around them, conventional forces, air, naval, and 
land, then they are much more effective.
    Admiral Richardson. Sir, the Navy would absolutely support 
that.
    General Neller. Sir, we would support it. And I, again, I 
think all of us realize we are part of a joint team. And we 
need the SOF guys and gals to do what they do, and as General 
Milley said, and General Votel I am sure would validate, that 
they can't do what they do without us being there to provide 
the capability. So we operate as a joint force. And I think, 
quite frankly, there are lot of things that conventional--and I 
don't really like that term--that conventional forces do that 
are part of what are perceived or seen as what the SOF is 
doing, particularly in Iraq and other places where we are 
involved in advising and assisting and training foreign 
militaries.
    But it is not about the credit. It is just about we work 
with each other, and I would be certainly willing to show what 
the costs are.
    Mr. Nugent. General Welsh.
    General Welsh. Yes, sir, we completely agree with that. By 
the way, the good news for all of us is the greatest spokesman 
for this necessity of a strong conventional force to support 
SOF is the commander of U.S. Special Operations Command. He has 
been for a while.
    Mr. Nugent. He has repeated that on numerous occasions, 
that SOF is great. It can do certain things and do them really 
well, but they can't reopen the Strait of Hormuz. They can't 
withstand an assault by a conventional force. You know, so 
there is limitations, and we need to have all of that as a 
joint task.
    One last thing. And I appreciate when you talk about 
readiness, in regards to deterrence. I truly believe, and this 
is just, you know, an old sheriff saying this, that, you know, 
when you have a high deterrence, it does deter nation-state 
actors from doing something that is really stupid, I think. It 
is not going to stop, you know, the knuckleheads out there that 
are nonconventional, but it really does have a direct impact.
    You know, I have a son currently over in Europe for 6 
months and supporting what is going on over there. We are not 
fooling anybody, you know, as it relates to Putin in regards to 
what force structure we have. And so I think that as the Army 
moves forward in regards to having prepositioned assets there 
but also actually having, the old terminology, boots on the 
ground to respond, is you can't do it from afar, particularly 
on a conventional force.
    So, Mr. Chairman, I appreciate the extra time, and I 
appreciate all of you being here. God bless you. Thank you.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman. I want to reiterate my 
thanks to all of you for being here today and for being so 
patient with us.
    Secretary Mabus, I want to talk to you about my favorite 
topic, the littoral combat ship [LCS]. You testified before the 
Senate committee yesterday and reiterated the Navy's need for 
52 littoral combat ships. You will recall very well that 2 
years ago, you undertook a study at the direction of the then 
Secretary of Defense of the entire LCS program and recommended 
52 ships, but the latter 20 be upgraded to frigates.
    We had Secretary Stackley before the Seapower subcommittee 
couple of weeks ago, and he said there is no new study that 
validates a downsized 40. So what I would like for you to 
respond to is, in light of all of that, what would be the 
negative impacts of a reduction of the LCS program from 52 to 
40?
    Secretary Mabus. Well, first, it is absolutely correct that 
we have a validated need. The force structure assessment says 
we need 52 small surface combatants, and your discussion of the 
study that was undertaken because of concerns with lethality 
and survivability. And literally thousands of alternatives were 
looked at. We came out the frigate program, the last 20, are 
going to be far more survivable, far more lethal, and we are 
going to be able to back-fit some of the original LCSs with 
that survivability and lethality.
    Any time you reduce the numbers in a shipbuilding program, 
number one, the price goes up for what you are going to get. If 
we down-select only one version, one shipyard would almost 
certainly close. One of the things that we have learned and 
other countries have learned, and it is a hard lesson, is that 
if you lose these unique skills, it is almost impossible to get 
them back. It takes years. It takes far more to get them back 
than it does to maintain them.
    Number three, the way that the 52 number was arrived at is 
looking at all the missions that are required from the Navy and 
what it takes to meet that, that goes from everything from 
high-end combat against a near-peer competitor to the presence 
operations that we have ongoing every single day of the year to 
do what Mr. Nugent just said, deter and reassure, to the things 
like disaster relief, humanitarian assistance. And also we are 
very lacking in ships in SOCOM on the drug interdiction front. 
So looking at all the needs that the Navy has, those would be 
the impacts, if you reduced those in absolute numbers.
    And, again, what we are talking about now, we are talking 
about the fleet of the future. We are not talking about the 
fleet of today. We are talking about the workforce of the very 
near future. But the fleet of the future, how many ships we 
have, what their capabilities are, how they can meet the 
strategy, is dependent on that force structure analysis. We did 
the one in 2012. We refreshed it in 2014. And a lot of people, 
myself included, have been willing to bet the CNO's paycheck 
that that number of the one we are doing today, right now, that 
the number 308 is not going to go down.
    And so even if you look at keeping 308 as a number, if you 
look at the 30-year shipbuilding plan, if you reduce numbers of 
any type of ship, you simply don't meet the requirement.
    Mr. Byrne. And that was a good lead-in to my question for 
you, Admiral. And that is, that if you look at the shipbuilding 
plan with the recommendation of the administration, we get to 
308, but then within a short period of time we go down 
precipitously. So if we want to avoid dipping down pretty 
quickly under the 308 after we get there, aren't we going to 
have to continue to build these littoral combat ships at the 52 
level instead of going down to 40?
    Admiral Richardson. Certainly, sir. And that is, you know, 
exactly the fact of shipbuilding, that they come out of service 
as fast as they went in when they reach the end of their 
service life. You can extend that a little bit, but eventually 
they are going to come out at that same rate. And so you have 
to be minding the decisions of the past, putting together a 
program that is very thoughtful in terms of reaching and 
maintaining the requirements of the future. Underneath that 308 
number, it is the composition of that number that is important 
as well, and the small surface combatant is an important 
contribution.
    Mr. Byrne. Well, thank you for that answer, and I do not 
want to bet your paycheck. I want you to keep your paycheck, 
but we want to keep building these ships too.
    Admiral Richardson. I should be clear that after Mrs. 
Richardson and our five kids get their cut, there is very 
little discretionary money left in that paycheck.
    Mr. Byrne. With that, I yield back, Mr. Chairman.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you gentlemen 
and ladies for your service and your patience during this long 
hearing.
    Mr. Murphy, I want to start off with you. Talking about the 
WASPs [Women Airforce Service Pilots], these amazing women who 
served in World War II as pilots, 1,074 of them, pioneers 
opened the door for people like me to be able to serve. Do you 
believe that they should be allowed to be in Arlington?
    Mr. Murphy. Yes.
    Ms. McSally. Do you believe you have the authority to let 
them into Arlington quickly?
    Mr. Murphy. Yes, through an individual exception of policy.
    Ms. McSally. How about just as a group, the WASPs, we want 
to let the WASPs into Arlington because of the amazing service 
that they did?
    Mr. Murphy. No, ma'am, and that is why I support your 
legislation. That is why I have done another course of action. 
Again, you know, ma'am, we all take an oath to support and 
defend the Constitution. In that Constitution we have the rule 
of law. I cannot violate law or U.S. regulations. U.S. 
regulations right now--and I am not trying to give you mumbo 
jumbo.
    Ms. McSally. Yeah, that's okay.
    Mr. Murphy. No, no.
    Ms. McSally. I hear you.
    Mr. Murphy. But, ma'am, that is why I support your 
legislation. That is why I support a commission to address it, 
but the quickest way to do this would be individual exception 
of policy. These women, Air Force----
    Ms. McSally. That is not what we are looking for, Mr. 
Murphy.
    Mr. Murphy. I am sorry.
    Ms. McSally. We are looking for all the WASPs to be able to 
let in. And just to be clear, so you are saying you can't make 
that happen right now for all the WASPs. Can the Secretary of 
Defense?
    Mr. Murphy. No.
    Ms. McSally. Can the Commander in Chief?
    Mr. Murphy. No.
    Ms. McSally. You believe nobody in the executive branch----
    Mr. Murphy. The Congress can.
    Ms. McSally [continuing]. Has the authority to make the 
exception?
    Mr. Murphy. The Congress can. I am trying to right the 
wrong, ma'am. I agree with you. I support you 100 percent. But 
Congress in 1977----
    Ms. McSally. I just want to make sure----
    Mr. Murphy [continuing]. After decades of service, they 
allowed WASPs to be buried in veterans' cemeteries.
    Ms. McSally. Right. Do you really believe the Commander in 
Chief doesn't have the authority right now--I mean, he makes 
executive orders all the time--that he can't say the WASPs are 
allowed or a group exception to policy?
    Mr. Murphy. Individual exception to policy, ma'am, he can, 
but not groups.
    Ms. McSally. So if I submitted an exception to policy for 
1,074 of my closest friends, would that be considered?
    Mr. Murphy. I would support that legislation, like I 
support your current legislation, as long as it is an above-
the-ground inurnment, yes.
    Ms. McSally. So you think it literally does take an act of 
Congress as the fastest way to fix the problem?
    Mr. Murphy. There was an act of Congress in 1977, ma'am, in 
1977, which said they were allowed to be buried in veterans' 
cemeteries, but they didn't allow them to be buried in 
Arlington, ma'am. But what I am saying is Congress needs to 
change what Congress did in 1977. I can't change it 
unilaterally. SECDEF [Secretary of Defense] can't change it 
unilaterally. The Commander in Chief can't. That is why we have 
co-equal branches of government.
    Ms. McSally. Okay.
    Mr. Murphy. Now, I support your effort.
    Ms. McSally. Thanks. I just wanted to clarify whether you 
thought the executive branch had any ability to change it right 
now, and the answer is no.
    Mr. Murphy. To my understanding, I taught con 
[constitutional] law at West Point. Again, from my counsel and 
everything that I have researched in support of your efforts, 
yes, ma'am.
    Ms. McSally. Okay.
    Mr. Murphy. And I know it is not the answer you want to 
hear, but that is the answer.
    Ms. McSally. That is okay. I just wanted to get the answer 
on the record.
    All right. Secretary James, it was great to see you last 
week at Davis-Monthan, and thanks for coming out to visit.
    General Welsh, I only have a couple minutes left. I do want 
to follow up on the A-10. Thank you for not trying to put the 
A-10 in the boneyard this year and continuing to keep it 
flying, although I am concerned about the future plans, and it 
seems like there is some inconsistencies within the Pentagon.
    When the Secretary of Defense announced his budget, before 
we actually saw the details, he said the A-10 won't be retired 
until 2022, and his quote was, ``they will be replaced by F-35s 
only on a squadron-by-squadron basis as they come online, 
ensuring that all units have sufficient backfill to retain 
enough aircraft needed to fight today's conflict.'' So we got 
the impression as the F-35 became FOC [full operational 
capability], squadron by squadron after 2022, that would 
happen.
    When we actually got the budget and we saw the plans of the 
Air Force, we see that starting in fiscal year 2018, actually 2 
squadrons are going in the boneyard; 2019, 49 more aircraft; 
2020, 64 more aircraft; and 2021, 96 more aircraft. Last 
August, the Test and Evaluation Office, Dr. Gilmore, agreed 
that there is going to be a fly-off between the A-10 and the F-
35 to compare capabilities side-by-side. The earliest that will 
happen is 2018. They think maybe even 2019. By the time we get 
a report to Congress, that will be 2020.
    Our perspective is that we shouldn't put one more A-10 in 
the boneyard until this test is complete and we actually have a 
report to assess any sort of risks, and then we move forward. 
It seems like there is just a number of inconsistencies in the 
timing here. Are you not willing to wait until the test is 
complete to make a decision to move forward on putting any more 
A-10s in the boneyard?
    Secretary James. This is, once again, a budgetary issue, 
and I will let the chief talk about how the SECDEF's comments 
relate to the squadrons of the F-35. So we will come back to 
that. I was impressed with the boneyard, by the way. I was 
impressed with everything that I saw at Davis-Monthan.
    It is strictly a budgetary matter. It was last year and the 
year before as well. And you are right; our 5-year plan does 
begin in fiscal year 2018, gradually to retire the A-10.
    Ms. McSally. Chief, do you have any comments? I mean, when 
Dr. Gilmore mentioned the fly-off, you said, I think--let me 
just make sure that is you--the idea that the F-35 is going to 
walk in the door next year when it reaches IOC and take over 
for the A-10 is just silly. It has never been the intent. We 
were never going to do that. That is not the plan. And really 
gearing more towards FOC, which we are talking much further 
down the road.
    General Welsh. Yes, ma'am. And the idea, the F-35 is 
considered to be the highest ranked CAS [close air support] 
platform. We are losing CAS capacity. That is what the Budget 
Control Act has done to us. The real issue in 2018, and the 
reason that we start the divestiture in 2018, and I can't 
account for why Secretary of Defense's comments were this way, 
but the plan has been the same since it was submitted with our 
budget; is that the workarounds we have put in place until now 
allow us to bed down the F-35 through IOC by getting 
maintenance manpower from other places, by contracting it out. 
In fiscal year 2018, all those things kind of run out, and we 
are now short people to stand up F-35 units.
    And so if we keep the A-10, by fiscal year 2021, the 
scheduled FOC date for the F-35, we will be about 50 percent 
short of the maintenance manpower required to field the F-35. 
So it is a manpower problem.
    Ms. McSally. Okay. I am over my time, but we will follow up 
with you. Thanks a lot.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you. I came back because I 
have a great interest in our military, to have a strong 
military, with the hopes that a strong military can make sure 
that we get the attention of foreigners who want to attack 
America and foreign countries.
    It is pretty distressing really to hear the testimony 
today, knowing that our readiness, knowing that our 
modernization accounts need money, need to really rebuild this 
military that most Americans, including myself, feel like we 
need to have a strong military because of the world situation.
    I want to touch on, and then I will get to my question very 
quickly, many of my colleagues on the Armed Services Committee 
don't agree with me on this, and that is fine. That is what 
makes America great. I just get incensed by the waste of money 
in Afghanistan. I had the former Commandant, Chuck Krulak, has 
been my adviser for 5 years. I email him, he emails me back. He 
gives me questions from time to time, or he will give me 
thoughts that I can share.
    In the last 2 weeks, this article appeared, ``Twelve ways 
your tax dollars were squandered in Afghanistan, $10 billion.'' 
Then there was an article about the fact we spent $18 billion 
in Afghanistan to train Afghanis to be policemen, and 36,000 
walked off the job. Then you had John Sopko before the Senate a 
month ago testifying that the Department of Defense spent $6 
million to buy 9 goats from Italy--they are blond in color--to 
ship to Western Afghanistan so they could start a goat farm and 
get the wool and then start a cashmere business. He further 
testified to the Senate, he doesn't know where the goats are. 
And someone asked him, do you think they ate them? You know, 
this is not a joke. I hear you telling us today that America is 
not ready to defend this country if we keep going down this 
path. So this is what I want to ask.
    General Dunford I have great respect for, as I have great 
respect for you as well. I know that from time to time he wants 
your counsel because he has got the responsibility to say to a 
President, Mr. President, this is the right policy. We must 
continue this policy. Or maybe he would say, Mr. President, I 
don't know if we should continue going down this black hole or 
not.
    So what I would like to note from you, primarily the 
generals, because you would be the ones, maybe the secretaries 
as well, that from time to time General Dunford would say we 
need to have a policy discussion. And I would understand it 
would be confidential and informal. But do you as a general 
feel that if a policy--forget my position on Afghanistan--but a 
policy that this country is pursuing is wrong for the American 
people and wrong for the military, would you feel that it is 
your duty, not publicly now, but your duty to say to General 
Dunford in this case, you need to let the President know that 
10 to 12 more years of trying to train the Afghans to take care 
of themselves is not worth one dime, and it is certainly not 
worth one pint of blood? Do you feel that this is part of your 
responsibility--forget Afghanistan--but to be an adviser to the 
President so we can give the President the support or not give 
him the support, meaning money, in a lost cause? Would anyone 
like to answer that?
    General Milley. Congressman, you can get a quick spot from 
all of us, I suppose. For me, we meet regularly with General 
Dunford, very candid conversations amongst the senior 
leadership you see here at the table. We talk policy. We talk 
all kinds of strategic issues, very candid. And I have no doubt 
in my mind, speaking for myself, that if I had a doubt in a 
certain policy, et cetera, that I would bring it up to him, and 
I have already done that on many occasions. Point one.
    Point two is, we also have an obligation to render best 
military advice to the Secretary of Defense, the President, 
National Security Council, and Congress, and I believe that I 
recognize that, and I accept that as a personal responsibility, 
and I will execute it without failure as long as I am in this 
seat.
    Mr. Jones. General Milley, thank you very much. I think my 
time is about to expire, and I tell the chairman all the time, 
I am going to try to stick to the time. So thank you for at 
least listening. I appreciate that very much.
    The Chairman. I appreciate that.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you all for 
your service.
    There has been a lot of talk in the Senate on changing 
Goldwater-Nichols. In fact, our Senate colleagues have started 
hearings on that. Now, from your perspective, and I am going to 
ask General Welsh and Secretary James this in particular, 
because one of the wild rumors that are now flying around is 
that SPACECOM [Space Command] is going to be moved or NORTHCOM 
[Northern Command] and SOUTHCOM [Southern Command] are going to 
be merged, or who knows what other rumors are out there.
    Is the proposed Senate process sufficiently transparent and 
deliberative? Those are two things I think that are critical. 
Could you both comment on that, please?
    Secretary James. I would begin, Congressman Lamborn, by 
simply saying that I am not fully familiar with the full Senate 
process. I am sure it is transparent and so on. But any law 
that has been around for 30-plus years, it probably makes sense 
to stand back and take a look at it. So I believe that was the 
spirit with which they have initiated this. And by the way, the 
Department of Defense is also reviewing some of these matters 
in their working groups and so on. So that would be my comment.
    General Welsh. Sir, like the boss, I am not familiar with 
the internal Senate process on this, so I really can't comment 
on that. We have been asked for our views and our inputs, which 
I think is wonderful. The one thing I would comment on about 
Goldwater-Nichols is sometimes we forget that it has been a 
raging success, in my view.
    Mr. Lamborn. Excuse me?
    General Welsh. It has been a raging success, since 1986. 
The joint capabilities of this force are night and day compared 
to what they were in 1985, and all of us were serving back 
then, so I hope we don't throw out the baby with the bathwater. 
I don't think that will happen. But it has been 30 years. It is 
time to take a look and see how we can make it better.
    Mr. Lamborn. All right. Thank you both for your 
perspective.
    General Neller, I would like to shift to you. I want to 
turn to Secretary Carter's recent decision to open all 
specialties and units to women without exception. And I am 
concerned about the very rapid implementation timeline that has 
been given to you. And to me, if it is a very quick timeline, I 
would be concerned that there is more politics involved than 
actually what is best for the warfighter. So I want to ask you 
about the timeline. If there is too quick of a timeline to 
implement, does that make it difficult to resolve all of the 
questions?
    General Neller. Well, Congressman, I don't think we are--we 
are on a timeline for a decision. The Secretary said by 1 April 
he would tell us, he would accept our implementation plans, 
which he has done. So we had been building in parallel an 
implementation plan because we did not ask for an exception for 
all ground combat elements, but now they are all open.
    So we are going through the process, like the other 
services, to find out what the propensity to enlist is. We have 
changed--we have developed standards for men and women in the 
pool to go in these MOSs [military occupational specialties]. 
We have got standards that, when they are in recruit training, 
that they have to meet in order to go on to the MOS school. We 
have got MOS-specific standards at the school that all marines 
have to go through to earn the MOS. And then if and when female 
marines pass, which I am sure they will, we have a plan to 
successfully put them into these units so that they can 
contribute, and then we can continue on with mission 
effectiveness.
    So there is three lenses that we look at this at the end: 
the admission effectiveness for the unit, the health and 
welfare of the force, and overall best use of talent of the 
human capital that we have. So we are going to go through this 
process. Our recruiters are out there now to see if there is 
any indications that there is a propensity to do these 
particular MOSs, and we will put people through school.
    So how long is that going to take? I have no idea, but I 
think we have got a plan. I think we are prepared to go forward 
on this, and we will continue to track it. I think it is going 
to take all of us, but I think more so the Army and the Marine 
Corps. I am not going to speak for General Milley. But I think 
we know we are going to collect the data on this, and so we 
will see how this all plays out over the next 5 to 10 years 
before we really have a good idea of how it has worked out.
    Mr. Lamborn. Well, I just hope that the needs of the 
warfighter are first and foremost, and rushing too quickly, to 
me, might compromise that. I would hate to see that 
compromised.
    General Neller. I don't personally feel under any pressure, 
and I don't think the force does because we want every marine 
to be successful. And this is about mission effectiveness and 
effectiveness of the force.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    The Chairman. We have touched on a variety of topics. I 
appreciate you all being here. We will need to stay in touch 
with you moving towards markup and the floor, everything from 
Goldwater-Nichols and acquisition reform, to dealing with our 
readiness problem. But for now, again, you have our thanks. And 
the hearing stands adjourned.
    [Whereupon, at 12:59 p.m., the committee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             March 16, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
        
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 16, 2016

=======================================================================

      

             RESPONSE TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Mabus. Because of the long lead time needed for 
shipbuilding, it is not the job of one administration. It is not the 
job of one Congress. This Administration and Congress, in previous 
budgets, have guaranteed we will reach a Fleet of 300 ships by FY19 and 
308 by FY21. With the strong support of Congress and close adherence to 
the long range shipbuilding plan over the period 2009--2016, the Navy 
is certain to reach a Battle Force of 308-ships in 2021 (the nominal 
year in which those ships procured by 2016 will have been delivered to 
the Navy). This twelve year span required to go from a Navy of 278 
ships in 2009 to 308 ships in 2021 exemplifies why shipbuilding must 
remain a top priority for the Department of the Navy (DoN) if we are to 
continue to provide the measure of maritime security and power 
projection required of our naval forces in the decades ahead. The FY 
2017 President's Budget and the corresponding FY 2017 to FY 2021 Future 
Years Defense Plan (FYDP) establish the shipbuilding trajectory that 
will shape our Battle Force and its underpinning industrial base in the 
years following FY 2021.
    In the 2020s the strict requirement to replace SSBNs of the Ohio-
class on a one-for-one basis as they retire, dictates that the Navy 
procure the lead OR SSBN ship in FY2021, the second ship of the class 
in FY2024, followed by funding one OR SSBN each year between FY2026 and 
FY2035. In developing our FY 2017 President's budget, the Office of 
Management and Budget increased the Navy's shipbuilding funds by about 
$2.3 billion in FY2021 specifically for the start of OR SSBN 
construction, allowing the Navy to better balance our resources across 
the entire Navy portfolio. Within the Navy's traditional Total 
Obligation Authority (TOA), and assuming that historic shipbuilding 
resources continue to be available, the OR SSBN and CVN funding 
requirements would consume about half of the shipbuilding funding 
available in a given year--and would do so for a period of over a 
decade. The significant drain on available shipbuilding resources would 
manifest in reduced procurement quantities in the remaining capital 
ship programs. Therefore, if additional funding is not available to 
support the shipbuilding procurement plan throughout this period, 
knowing that the OR SSBN will be built, the balance of the shipbuilding 
plan will be significantly impacted.
    Ohio Replacement (OR) remains our top priority program. The Navy 
continues to need significant increases in our top-line beyond the 
FYDP, in order to afford their replacement. Absent top-line relief, OR 
SSBN construction will seriously impair construction of virtually all 
other battle force ships. Without additional funding, the resulting 
force composition and ship numbers will not only fail to meet the 
requirements of the Navy's Force Structure Assessment (FSA), but there 
will also be significant negative impacts to the shipbuilding 
industrial base. The Navy greatly appreciates Congressional support in 
overcoming the challenges posed by funding the OR Program, 
characterized by the establishment of the National Sea-Based Deterrent 
Fund (NSBDF) as an element of a funding strategy, and will work with 
Congress to maximize the benefits provided by Economic Order Quantity 
(EOQ), Advance Construction (AC), and Incremental Funding authorities.   
[See page 15.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS
    Secretary James. The programmed cost of current and planned 
mitigation measures to reduce vulnerability associated with the 
Intercontinental Ballistic Missile (ICBM) convoy support mission is 
$8.3M. These measures include the expansion of infrastructure and 
personnel capacity, fielding of aerial gunnery capability, installation 
of terrain avoidance systems, and establishment of multiple refueling 
locations throughout the missile fields. For ICBM emergency security 
response, the Air Force is unable to meet the full response requirement 
because of the UH-1N's speed, range, and payload limitations.
    Should non-Air Force assets and personnel be employed to perform 
the emergency security response mission at the three ICBM wings, 
preliminary estimates indicate the Air Force would incur approximately 
$20M in up-front, one-time only infrastructure expenses (for hangars/
clam shelters, ramps, lodging, and operations/maintenance/alert 
facilities). Additionally, approximately $40M in annual operating 
expenses (for flight hours, per diem, and pay and allowance) would be 
incurred by the service providing the interim capability.
    The infrastructure expenses would be non-recoupable, regardless of 
the timeline on which a replacement helicopter is fielded. However, it 
is possible that the Air Force could repurpose some portion of this 
infrastructure to support the operational requirements of a replacement 
platform. The annual operating expenses incurred by the service 
providing the interim capability would presumably cease once the Air 
Force helicopter replacement program attains full operational 
capability.   [See page 20.]
    Secretary James. General Mitchell's study does say that the 
worldwide ``launch capacity exceeds demand by a 3 to 1 ratio'' and 
appears to be based on 2013 FAA Commercial Space Transportation 
Advisory Committee data. My assessment is that we have the opportunity 
to make the U.S. launch industry more competitive worldwide as 
encouraged by our National Space Transportation Policy. In fall 2014, 
the Air Force solicited feedback from industry via a Request for 
Information. Those responses and continuous engagement with industry 
provided evidence that a viable competitive launch market could exist 
if commercial companies are able to close their business case with a 
combination of commercial and government missions. This feedback 
supports government investment in industry and enables the Department 
of Defense, in accordance with National Space Transportation Policy, to 
provide assured access to space with at least two families of 
commercially viable launch vehicles that meet all National Security 
Space requirements.   [See page 21.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I believe we must ensure that you and your 
counterparts here today have the flexibility and the agility needed to 
acquire and utilize off-the-shelf capabilities that can quickly 
transition to the warfighter. Can you describe how the services are 
promoting public-private partnerships and leveraging the capabilities 
of the private sector?
    Mr. Murphy and General Milley. The Army works with the private 
sector in a variety of ways. For example, we leverage the capabilities 
of the private sector through the use of Other Transaction Authorities 
(OTA). An OTA is a legally binding agreement that is not subject to the 
traditional Federal and Defense Acquisition Regulations (FAR), which 
apply to procurement contracts. Therefore, OTAs are more flexible 
agreements. The Army recognizes the value and benefit of using OTAs to 
bring new sources of technical innovation to the Department quickly and 
economically to remain competitive in the commercial marketplace and 
improve current capability. In Fiscal Year (FY) 2015, the Army had 240 
OTAs valued at $634 million, double the amount in FY 2013 (117 totaling 
$316 million).
    Another way the Army leverages the capabilities of the private 
sector is through the expertise resident in our labs and engineering 
centers. Thanks to our highly skilled workforce of over 11,000 
scientists and engineers, the Army is able to quickly assess the 
ability for commercial solutions to meet the Warfighter needs (either 
with or without modifications) and/or identify developing capabilities 
that could address the immediate needs of the Warfighter. This is why 
it is critical to maintain a strong Science and Technology enterprise 
with a world class infrastructure and workforce.
    Mr. Langevin. I believe we must ensure that you and your 
counterparts here today have the flexibility and the agility needed to 
acquire and utilize off-the-shelf capabilities that can quickly 
transition to the warfighter. Can you describe how the services are 
promoting public-private partnerships and leveraging the capabilities 
of the private sector?
    Secretary Mabus and Admiral Richardson. The Department of Navy 
(DON) has multiple initiatives in place, particularly within the Naval 
Laboratories and Warfare Centers, where DON scientists and engineers 
routinely collaborate with their private sector peers to identify, 
evaluate and use off-the-shelf capabilities. Some examples include:
    (1) Cooperative Research and Development Agreements (CRADAs): Joint 
research and development efforts allowing the sharing of facilities, 
knowledge, experience and/or intellectual property between industry and 
the DON. Provides data and intellectual property protection from the 
Freedom of Information Act for an established period of time.
    (2) Small Business Innovative Research (SBIR) program: Promotes 
small businesses and is phased to permit technology feasibility and 
demonstration before full-scale development commercialization.
    (3) Small Business Technology Transfer (STTR): Provides R&D funding 
directly to small companies working cooperatively with researchers at 
universities and other research institutions. STTR firms and the 
research partner agree to a division of intellectual property prior to 
the start of the STTR effort. As a result, each party retains the 
intellectual property rights to technologies they develop under the 
program.
    (4) Memorandums of Understanding and/or Agreement (MOU/MOA): High 
level agreements documenting and identifying areas of potential 
collaboration and/or a strategy to do so.
    (5) Patent License Agreement: Assigns the right to make, use or 
sell government intellectual property. License fees and/or royalties 
may be involved.
    (6) Partnership Intermediary Agreements (PIAs): Allows DON 
activities to partner with semi-private institutions to develop 
potential interactions with State and local business entities.
    (7) Other Transactions (10 U.S.C. 2371): ``Research projects: 
transactions other than contracts and grants,'' allows for basic, 
advanced, and applied research to be acquired through transactions 
other than contracts, cooperative agreements, and grants. These 
agreements stimulate new sources that have not historically dealt with 
the Government.
    (8) Educational Partnership Agreements (10 U.S.C 2194): Authorizes 
the director of each defense laboratory to enter into one or more 
education partnership agreements with educational institutions for the 
purpose of encouraging and enhancing study in scientific disciplines at 
all levels of education by loaning equipment, providing personnel to 
assist in course development, and providing academic credit for 
participation in research.
    Mr. Langevin. I believe we must ensure that you and your 
counterparts here today have the flexibility and the agility needed to 
acquire and utilize off-the-shelf capabilities that can quickly 
transition to the warfighter. Can you describe how the services are 
promoting public-private partnerships and leveraging the capabilities 
of the private sector?
    General Neller. 1. Acquisition of Commercial Items. The current 
acquisition process requires lengthy procurement action lead times 
(PALT) and processes in order to award requirements that support our 
Marines. For commercial off-the-shelf capabilities the Government can 
utilize FAR Subpart 12.1, Acquisition of Commercial Items that provides 
an expedited acquisition process.
    Some of the other acquisition expediting tools that are utilized by 
the Marine Corps are as follows:
    a. External Contracting Waiver (ECW) Determination and Finding 
(D&F) Process.
    Marine Corps Systems Command and supported program executive 
offices (PEOs) utilize the ECW D&F, enabling program managers to send 
funding to other DOD components or civilian agencies to make awards 
under existing contracts competitively awarded by the servicing agency. 
This enables the Marine Corps to quickly obligate funds in order to 
receive the necessary warfighting capabilities and technology solutions 
without repeating the lengthy PALT times encountered by the servicing 
agency.
    b. Unsolicited Proposals. Private Sector firms can submit 
``Unsolicited Proposals'' for innovative concepts and technologies. The 
Government has stated interest in receiving unsolicited proposals that 
contain new ideas and innovative concepts pertaining to our military 
capability requirements.
    An ``unsolicited proposal,'' as defined in FAR 2.101, is a written 
proposal for a new or innovative idea that is submitted to an agency on 
the initiative of the offering company (i.e., private sector firm) for 
the purpose of obtaining a contract with the government, and that is 
not in response to an RFP, broad agency announcement, or any other 
government-initiated solicitation or program. For an unsolicited 
proposal to comply with FAR 15.603(c), it must be: innovative and 
unique, independently originated, and developed by the offering 
company. The unsolicited proposal:
    (1) Must be prepared without government supervision, endorsement, 
direction or direct government involvement.
    (2) Must provide sufficient detail to show that government support 
could be worthwhile, and that the proposed work could benefit the 
agency's research and development (or other mission responsibilities).
    (3) Cannot be an advanced proposal for a contract requirement that 
the offering company knows the agency will need and that could be 
acquired by competitive methods.
    c. Broad Agency Announcements (BAA). The Office of Naval Research 
(ONR) utilizes BAAs under FAR Subpart 35.016, for the acquisition of 
basic and applied research and that part of development not related to 
the development of a specific system or hardware procurement. BAA's are 
used by the Navy and Marine Corps through ONR to fulfill requirements 
for scientific study and experimentation directed toward advancing the 
state-of-the-art or increasing knowledge or understanding rather than 
focusing on a specific system or hardware solution. ONR:
    (1) Constantly seeks innovative scientific and technological 
solutions to address current and future Navy and Marine Corps 
requirements.
    (2) Actively wants to do business with educational institutions, 
nonprofit and for-profit small and other than small businesses with 
ground-breaking ideas, pioneering scientific research and novel 
technology developments.
    d. Federally Funded Research and Development Centers (FFRDC). 
Additionally, FAR Subpart 35.017, the provision for FFRDCs, enables the 
Marine Corps to meet special long-term research or development needs 
which cannot be met as effectively by existing in-house or contractor 
resources. FFRDCs:
    <bullet>  Enable government agencies to use private sector 
resources to accomplish tasks that are integral to the mission and 
operation of the sponsoring agency.
    <bullet>  Are provided access, beyond that which is common to the 
normal contractual relationship, to Government and supplier data, 
including sensitive and proprietary data, and to employees and 
installations equipment and real property.
    <bullet>  Are required to conduct business in a manner befitting 
the special relationship with the Government,
        <bullet>  To operate in the public interest with objectivity 
        and independence,
        <bullet>  To be free from organizational conflicts of interest, 
        and
        <bullet>  To have full disclosure of their affairs to the 
        sponsoring agency.
    <bullet>  Are operated, managed, and/or administered by a 
university or consortium of universities, other not-for-profit or 
nonprofit organization, or an industrial firm, as an autonomous 
organization or as an identifiable separate operating unit of a parent 
organization
    It is not the Government's intent that an FFRDC use its privileged 
information or access to installations equipment and real property to 
compete with the private sector. However, an FFRDC may perform work for 
other than the sponsoring agency under the Economy Act, or other 
applicable legislation, when the work is not otherwise available from 
the private sector.
    e. Marine Enhancement Program. The Marine Enhancement Program 
provides an opportunity for Marines, industry, and the public to 
nominate commercial off the shelf items focused on the infantry 
community for funding, testing, procurement, and fielding in a 9-24 
month timeframe. The program utilizes a web based submission process 
http://www.marines.mil/mep for nominations that anyone can submit. All 
nominated items are reviewed and feedback provided to the submitter. 
Outreach events and advertising are used to inform Marines and industry 
about the program as recently as Marine South at Camp Lejeune NC on 6-7 
April 2016. The program provides an opportunity for anyone with an 
innovative idea for a commercial item that provides added value to the 
Marines to have their idea heard and reviewed.
    f. Modern Day Marine ``Integration with Industry'' Workshop. The 
Integration with Industry workshop provides a venue for industry to 
bring their product into the Marine Corps Systems Command's rifle squad 
integration team for a collaborative integration workshop. The products 
can range from prototype items to fully completed items ready for sale. 
The integration team provides engineering and human systems integration 
expertise coupled with all the rifle squad equipment and weapons to 
enable a full system solution. The integration team provides the tools 
and resources to conduct the workshop. Active duty Marines provide 
feedback to the vendor on the usability and utility of the completed 
integration solution. This event supports small business ventures that 
may not have access to Marine Corps equipment in order to optimize the 
integration of their product. This workshop has been offered to 
industry during the annual Modern Day Marine event held in late 
September at Quantico, VA.
    2. Technology Transition

    a. The Marine Corps Warfighting Lab provides for the 
experimentation that enables adapting off-the-shelf capabilities. 
Technology experimentation seeks to put prototypes into the hands of 
end users, in relevant environments, to collect feedback on how well 
those prototypes meet the users' needs. Technology must not only work 
well in the laboratory but accomplish its mission when exposed to an 
operational environment. MCWL works closely with ONR on Future Naval 
Capabilities (FNC). FNC is an S&T program designed to develop and 
transition cutting-edge technology products to acquisition managers 
within three to five years. The program aims to deliver mature products 
for integration into platforms, weapons, sensors or specifications that 
improve Navy and Marine Corps warfighting and support capabilities. 
MCWL and ONR facilitate informed Technology Transition Agreements with 
program managers, which can tap into and rapidly adapt private sector 
off-the-shelf solutions.
    b. PEO Land Systems Marine Corps has published its Advanced 
Technology Investment Plan (ATIP) 2016, the seventh edition of this key 
document. The ATIP provides a thorough understanding of the S&T 
challenges facing PEO LS programs and how proposed solutions/
technologies can meet those challenges. The document is accessible on 
the Defense Innovation Marketplace (DIM), a web-based forum managed by 
the Assistant Secretary of Defense for Research and Engineering. The 
DIM provides industry with improved insight into the R&E investment 
priorities of the DOD. The Independent Research and Development program 
is a contractor's own investment in basic and applied R&D for which DOD 
may reimburse the company.
    c. Naval Warfare Centers and Labs can be a means for private sector 
participation when they award contracts for work not required to be 
performed by government personnel. So too can Army organizations, such 
as Tank-automotive and Armaments Command, and Aberdeen Test Center.
    d. Small Business Innovation Research (SBIR)/Small Business 
Technology Transfer (STTR). The Marine Corps utilizes the SBIR and STTR 
programs established by Congress to strengthen the role of innovative 
small business concerns (SBCs) in Federally-funded research (Federal R) 
or research and development (R&D). Specific program purposes are to:
    (1) Stimulate technological innovation;
    (2) Use small business to meet Federal R/R&D needs;
    (3) Foster and encourage participation by socially and economically 
disadvantaged SBCs in working in technological innovation; and
    (4) Increase private sector commercialization of innovations 
derived from Federal R/R&D, thereby increasing competition, 
productivity and economic growth.
    SBIR has the advantage of tapping into a broad array of otherwise 
innovative companies that may be marginally or infrequently engaged 
with the Defense Department. It also is a relatively low-risk approach 
with distinct stages of technology development and incremental levels 
of investment. This provides off ramps if a technology is not panning 
out--or allows the opportunity to elevate quickly a promising 
technology to the next level of development.
    e. Rapid Innovation Fund (RIF). The RIF provides opportunities for 
agencies to award directly to companies who have demonstrated a 
capability in response to DON requests for ``White Papers'' to meet an 
innovative technology or need. MCSC is utilizing the Rapid Innovation 
Fund program to transition innovative technologies (primarily from 
small businesses) that can be rapidly inserted into acquisition 
programs to meet specific defense needs. RIF efforts often build on 
SBIR projects to transition mature technologies to programs of record. 
In less than two years, a technology can go from mature to ready for 
transition into a program for fielding. The deliberate planning and use 
of these and many other science and technology tools enable program 
managers to develop long-term strategies to modernize their programs.
    Mr. Langevin. As we work to manage cybersecurity at an enterprise 
level and evaluate the state of much-needed programs, such as OCX, it 
is critical that the services understand the cybersecurity requirements 
laid before them. Can you tell us how much was spent defending space 
systems against cyber vulnerabilities last year, and how the Air Force 
is working to incorporate cybertechnologies into requirements sooner? 
Do you believe that other legacy systems may be vulnerable to 
cyberthreats, and if so, to what extent?
    Secretary James and General Welsh. Spending for the mitigation of 
cyber vulnerabilities on space systems is included in developmental/
operational testing and information assurance (IA) efforts required for 
Authority to Operate. These activities do not have discreet funding 
lines and differ significantly from program to program.
    The Air Force considers cybersecurity throughout cradle to grave 
lifecycle, and is working to incorporate cyber technologies into 
requirements sooner. Cyber technologies are incorporated into the 
requirements process at Pre-Milestone A when the draft Capability 
Development Document is written.
    For space systems, Communications Squadron Next pathfinders will 
examine standing up operations centers with manpower and tools to 
actively defend ``blue'' networks, including the space control ground 
networks. In addition, Headquarters Air Force, Air Force Space Command, 
and 24th Air Force are analyzing the cost to employ cybersecurity 
technologies in defending both the ground and space segments.
    For other legacy systems, the Air Force has a Cyber Campaign Plan 
(CPP) that will examine how to incorporate cyber resiliency 
technologies into requirements earlier in the process. Specifically, 
one planned line of action would integrate cyber system security 
engineering into Air Force systems engineering. This effort 
specifically would ``bake-in'' cyber resiliency to future warfighting 
systems.
    On a regular and recurring basis, the Air Force completes IA (level 
1 and level 2) cyber threat assessments on legacy systems. These 
assessments have indicated that cyber vulnerabilities do exist in our 
legacy systems at a low level of risk; however, no definitive cyber 
threat evidence has been found. Lines of action in the CPP examine the 
possibility of using intelligence collection to validate cyber threats. 
In addition, the CCP would also assess mission threads across the Air 
Force and system-by-system vulnerabilities as well as demonstrating 
mitigations.
    Mr. Langevin. I believe we must ensure that you and your 
counterparts here today have the flexibility and the agility needed to 
acquire and utilize off-the-shelf capabilities that can quickly 
transition to the warfighter. Can you describe how the services are 
promoting public-private partnerships and leveraging the capabilities 
of the private sector?
    Secretary James and General Welsh. The Air Force promotes public-
private partnerships and leverages the capabilities of the private 
sector this through multiple venues. For example, the Defense 
Innovation Marketplace contains DOD research and development (R&D) 
strategic documents, solicitations, and news/events on warfighter 
requirements that can be fulfilled by leveraging commercial off-the-
shelf capabilities.
    A second example of public-private partnership is the Air Force's 
Small Business Innovation Research and Small Business Technology 
Transfer program. The program stimulates technological innovation by 
using small businesses to meet the Air Force's R&D needs. It also 
offers frequent opportunities for small businesses to compete for 
federal funding, build partnerships with program offices and industry 
leaders, and to commercialize technological innovations. The Air Force 
also uses Industry Days, Broad Area Announcements, Requests for 
Information, and technology workshops to promote collaboration between 
the Government, Federally Funded Research and Development Centers, and 
the private sector to exchange information on off-the-shelf 
capabilities that may quickly transition to fulfill warfighter needs.
    A third example of an innovative public-private partnership is the 
Other Transaction Authority (OTA) Agreements for the Rocket Propulsion 
System Prototype Investment. These OTAs facilitate a competitive, 
flexible selection process allowing the shared investment of a 
commercially viable product with four industry partners supporting the 
Air Force strategy to transition from the RD-180 engine.
    Lastly, the Air Force also leverages the newly formed DOD-wide 
initiative Defense Innovation Unit--Experimental. This initiative is 
designed to create a hub for facilitating increased communication, 
knowledge exchange, and access to innovating, high-tech start-up 
companies and their leading edge technologies. By connecting the Air 
Force with non-traditional companies developing inventive technological 
solutions, this initiative enables the Air Force to learn how to 
identify and leverage leading-edge technologies, business practices, 
and ideas.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. As you know, Patriot Missile Battalions are some of 
the most deployed units in the Army, and crucial to our military 
efforts around the world. Given this high operations tempo, how 
comfortable are you with the level of readiness of Patriot Battalions?
    General Milley. The Army Air and Missile Defense (AMD) force 
continues to meet mission readiness requirements despite an 
unprecedented rotation rate. AMD units are a key strategic enabler of 
choice that provide a ready, reliable, credible, and non-provocative 
deterrent force demonstrating U.S. resolve. We are constantly working 
on initiatives to increase not only the readiness of our short range 
air defense and Patriot batteries, but their availability and strategic 
flexibility as well. These initiatives to reduce stress on the Patriot 
force will improve operations tempo and personnel tempo challenges, 
which may have a positive effect on readiness. We will assess the 
progress of these initiatives and adjust as necessary.
    Mr. Shuster. Do you believe that if Kim Jong-Un started marching on 
Seoul tomorrow, we would have adequate Patriot resources available on 
the Korean Peninsula?
    General Milley. The Army, as part of the Combined and Joint force, 
has enough Patriot resources to meet the requirements of the Combatant 
Commander.
    Mr. Shuster. Our industrial base is critical to supporting 
readiness across the Armed Forces and particularly in the Army. In my 
district I have seen firsthand the highly technical and extremely 
important work being done at Letterkenny Depot, and I believe we must 
continue fully support our nationwide depot network. My question is 
this: Do you believe we have enough depot capacity to support the 
Army's worldwide commitments? Do you specifically believe we have 
enough depot capacity to meet the needs of Patriot recap and 
recertification?
    General Milley. Yes, we have sufficient capacity at the five 
maintenance depots to sustain readiness and to support the Army's 
worldwide sustainment maintenance requirements. Specifically, the Army 
has sufficient capacity to modernize (recap) Patriot ground support 
equipment and meet missile recertification requirements for the Patriot 
Advanced Capability-2 missile at Letterkenny Army Depot. Additionally, 
actions are underway to establish a capability for support to the 
Patriot Missile Segment Enhancement
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Who at DOD is charged with overseeing the Farm-to-
Fleet initiative?
    Secretary Mabus and Admiral Richardson. DOD oversight for all 
operational energy initiatives is conducted at the Deputy Assistant 
Secretary of Defense (Operational Energy), which reports to the Office 
of the Assistant Secretary of Defense (Energy, Installations, and 
Environment).
    Farm-to-Fleet is a Department of Navy (DON) partnership with the US 
Department of Agriculture (USDA). DON participation in the partnership 
is overseen by the Office of the Deputy Assistant Secretary of the Navy 
(Energy), which reports to the Assistant Secretary of the Navy (Energy, 
Installations, and Environment).
    USDA, not the DoN, administers Commodity Credit Corporation funding 
and makes payments to eligible alternative fuels producers.
    Mr. Conaway. The National Defense Reauthorization Act for Fiscal 
Year 2016 restricted the Department of Defense from making bulk 
purchases of drop-in biofuels unless the price is at cost parity with 
conventional fuels. Were CCC funds used by the DOD to bring biofuels 
into cost parity with conventional fuels?
    Secretary Mabus and Admiral Richardson. Defense Logistics Agency 
(DLA) Energy's September 2015 alternative fuel contract award fully 
complied with applicable law, including the Fiscal Year (FY) 2015 
National Defense Authorization Act (NDAA). While the FY 2016 NDAA was 
not signed into law until November 25, 2015, DLA Energy's award was 
also compliant with its requirements.
    The law requires that the fully burdened cost of alternative fuel 
purchased for operational purposes be cost competitive with the fully 
burdened cost of traditional fuel. That determination of cost 
competitiveness is made by DLA, not by the Department of the Navy or 
the U.S. Department of Agriculture (USDA).
    DLA Energy's April 2015 Rocky Mountain West Coast (RMWC) bulk fuel 
solicitation stipulated that alternative fuel producers who used U.S. 
agricultural feedstocks might be eligible for up to $0.25 per gallon in 
USDA Commodity Credit Corporation (CCC) funding.
    In September 2015, DLA issued a contract award to AltAir to supply 
a total of 77.6 million gallons of F-76 containing a blend of 10 
percent alternative fuel and 90 percent traditional fuel. The amount 
paid by the Department of Defense for the AltAir fuel blend is 
approximately $2.04 ($2.00 per gallon to AltAir for the fuel blend plus 
$0.04 per gallon for transportation of the fuel). AltAir qualified for 
just under $0.16 per gallon in USDA CCC funding.
    To determine cost-competitiveness, DLA compared the alternative 
fuel blend offered by AltAir with traditional fuel offers for both the 
2015 and 2014 RMWC solicitations. AltAir's offer was not reduced or 
otherwise lowered by the amount that would be paid with CCC funds. 
Rather, DLA's cost competitiveness analysis considered the full $0.16 
per gallon in CCC funding.
    Mr. Conaway. Under what authority did DOD use USDA Commodity Credit 
Corporation (CCC) funds to buy down the cost of biofuels?
    Secretary Mabus and Admiral Richardson. Pursuant to the Commodity 
Credit Corporation (CCC) Charter Act, 15 U.S.C. Sec. 714(c) et seq., 
alternative fuels producers who use U.S. agricultural feedstocks are 
eligible for payments from CCC funding. The Department of Agriculture 
(USDA) administers USDA CCC funding and makes payments directly to 
eligible alternative fuels producers. This is consistent with the 2011 
Memorandum of Understanding between the DoN, USDA, and the Department 
of Energy.
    As explained in the response to Question 14, the law requires that 
the fully burdened cost of alternative fuel purchased for operational 
purposes be cost competitive with the fully burdened cost of 
traditional fuel. That determination of cost competitiveness is made by 
DLA. In DLA's assessment of cost competitiveness for the 2015 Rocky 
Mountain West Cost solicitation, DLA did not ``buy down'' or reduce the 
cost of the alternative fuel from AltAir by the amount that would be 
paid with CCC funds.
    Mr. Conaway. Provide an accounting of all CCC funds expended by the 
DOD under the Farm-to-Fleet initiative.
    Secretary Mabus and Admiral Richardson. The Department of 
Agriculture (USDA), not the Department of the Navy (DON) nor the 
Defense Logistics Agency (DLA), administers USDA CCC funding and makes 
payments directly to eligible alternative fuels producers.
    Mr. Conaway. What is the current difference in dollars/gallon 
between conventional fuels and biofuels that DOD is paying using CCC 
funds?
    Secretary Mabus and Admiral Richardson. The price paid by the 
Department of Defense (DOD) for the drop-in alternative fuel blend 
supplied pursuant to the 2015 Rocky Mountain West Coast bulk fuel award 
is equal to the price DOD would have paid for 100 percent traditional 
fuel. In accordance with the terms of the solicitation, the alternative 
fuels vendor qualified for $0.16 per gallon in Department of 
Agriculture (USDA) Commodity Credit Corporation (CCC) funding. USDA, 
not DOD, administers the CCC funding and makes payments to the 
alternative fuels vendor.
    Mr. Conaway. Are there other service programs that expend money on 
their behalf that was appropriated to other Federal Departments?
    Secretary Mabus and Admiral Richardson. Farm-to-Fleet is a 
Department of Navy (DON) partnership with the U.S. Department of 
Agriculture. The other military Services are not involved in Farm-to-
Fleet. DON cannot speak to programs that the other Services may have 
with other Federal Departments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. There has been a lot of talk on the need for 
Goldwater-Nichols reform and our colleagues in the Senate have 
undertaken a hearing series on the topic. a. What is the problem that 
such reform is trying to solve? Is there a problem we need to solve? b. 
How can we best prioritize the ``do no harm'' principle as we consider 
potential major reform? c. How is the communication between the defense 
committees and the OSD and Joint Staff working groups that are also 
examining the same issues?
    Mr. Murphy and General Milley. Although the Goldwater-Nichols 
Reorganization Act of 1986 successfully restructured our national 
security establishment, consideration of possible reforms is 
appropriate and timely. The current global situation has changed 
dramatically since the Cold War. There are opportunities worth 
exploring. Potential consolidations within the military departments 
could help make us a more agile institution, and better position us to 
respond to and shape the future.
    For specific answers to your questions, the Army defers to the 
Office of the Secretary of Defense on this issue. OSD is the lead for 
examining Goldwater-Nichols reform.
    Mr. Lamborn. Can you each outline your top cyber challenges in 
terms of manning, resourcing and authorities? Are you properly 
resourced to handle these challenges?
    Mr. Murphy and General Milley. Manning: Recruiting and retaining 
the Army's cyber workforce, both military and civilian, remains a 
challenge; one that arises from having to develop work role 
requirements and competing opportunities in the private sector. On 
September 1, 2014, the Army established a cyber branch and continues to 
closely monitor its progress. Current manning will not prevent our 
ability to respond to a cyber attack and support the Joint force.
    Resourcing: The Army's number one priority is readiness. Current 
funding levels require the Army to prioritize the advancement of cyber 
capabilities and capacity. In accordance with the DOD Cyber Strategy, 
the Army is building the capability and capacity to support our cyber 
mission in an ever increasing operational tempo. The Army is 
continuously trying to balance between readiness, end strength, and 
modernization; a balance that takes years of stable funding levels and 
flexibility in execution of resources to achieve. There are some major 
initiatives still under review, such as Army Cyber Resiliency, that 
will have resourcing implications; the full impact of these initiatives 
on the Army's resources is unknown at this time.
    Authorities: The Army is providing its portion of the Cyber Mission 
Force in coordination with USCYBERCOM, operating under its current 
authorities. Within the Army, we assess our current authorities as 
sufficient to meet our mission.
    Mr. Lamborn. There has been a lot of talk on the need for 
Goldwater-Nichols reform and our colleagues in the Senate have 
undertaken a hearing series on the topic. a. What is the problem that 
such reform is trying to solve? Is there a problem we need to solve? b. 
How can we best prioritize the ``do no harm'' principle as we consider 
potential major reform? c. How is the communication between the defense 
committees and the OSD and Joint Staff working groups that are also 
examining the same issues?
    Secretary Mabus and Admiral Richardson. a. The Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 was the last major 
legislative initiative which sought to improve DOD efficiency and 
effectiveness. In the 30 years since Goldwater-Nichols, evolving 
threats and the emerging strategic environment compel us to identify 
and evaluate potential reforms to ensure the Department of the Navy is 
optimally organized to support Joint Warfighting in current and future 
national security challenges.
    b. During this period of military reform, our priority must be to 
protect U.S. forces involved in military operations today and to 
maintain those policies and structure that enable agile and effective 
military responsiveness in the future.
    c. The Office of the Secretary of Defense and the Joint Staff have 
kept the Services and Military Departments informed of the working 
level dialog.
    Mr. Lamborn. Can you each outline your top cyber challenges in 
terms of manning, resourcing and authorities? Are you properly 
resourced to handle these challenges?
    Secretary Mabus and Admiral Richardson. Manning Current manning 
meets Department of the Navy (DON) requirements, but it is an area of 
concern, because we must compete with industry and the other Services 
for cyber talent. DON and Joint mission demands are increasing, and 
with the added need to support the Cyber Mission Force (CMF), cyber 
manning will continue to be a challenge. Besides the fact that we 
cannot compete directly with the salaries that our commercial 
competitors can pay, we are further hampered by such impediments as the 
slow, complicated Federal hiring process.
    Authorities The DON has the necessary authority to execute its 
cyber missions, however additional hiring flexibility will assist the 
Navy in recruiting and retaining skilled cyber professionals (i.e., 
authorities similar to Title 10 Chapter 83 for cyber workforce).
    Resourcing We are finding it increasingly difficult to address 
steadily growing cyber requirements without jeopardizing mission 
accomplishment elsewhere. For instance, beginning with its President's 
Budget for 2015 submission, the Navy re-prioritized hundreds of 
millions for Command, Control, Communications, Computers and 
Intelligence (C4I) security. When a budget is already as lean as that 
the Navy was working with, it is a nearly impossible feat to repurpose 
such significant sums without creating unacceptable risk somewhere 
else.
    For the Navy and Marine Corps to do what they need to do to secure 
their information and data, without jeopardizing operational success 
elsewhere, considerable new investment will be required.
    Training A shortcoming in the deployment of the CMF is a persistent 
training capability. Request Congress' support in funding this training 
capability that will prepare the CMF to conduct offensive and defensive 
cyber operations.
    Mr. Lamborn. There has been a lot of talk on the need for 
Goldwater-Nichols reform and our colleagues in the Senate have 
undertaken a hearing series on the topic. a. What is the problem that 
such reform is trying to solve? Is there a problem we need to solve? b. 
How can we best prioritize the ``do no harm'' principle as we consider 
potential major reform? c. How is the communication between the defense 
committees and the OSD and Joint Staff working groups that are also 
examining the same issues?
    General Neller. a. What is the problem such reform is trying to 
solve? Is there a problem we need to solve? Over the last 30 years 
since the enactment of the Goldwater-Nichols Act, the Department of 
Defense and the Marine Corps have adapted to the end of the Cold War 
and have fought major conflicts in the Middle East. In the meantime, 
the overall global situation has changed and both our and our 
adversaries' military capabilities have changed. We need to take a 
critical look inward to ensure that we are properly structured and that 
we have the correct processes in place in order to make the most 
effective and efficient use of the resources provided by the congress. 
The ``problems'' driving reform efforts are less about structures and 
processes that are broken, but that were designed for previous threats 
and an earlier global environment and have had to be adapted to the 
present and to the future. These include the combatant command 
structure that is regionally focused where our current and evolving 
threats stretch transregionally, and if you include the cyber and space 
aspect, globally. Our acquisition system has been built to accommodate 
an older pace of technology development, where the government was in 
the lead, and where numerous regulations have been added over time. 
Many of these regulations were legislated for good reasons. However, 
the result has been an unwieldy system that is not responsive and 
doesn't allow service chiefs to exercise the responsibility and 
authority which goes hand in hand with their accountability for 
equipping the force.
    b. How can we best prioritize the ``do no harm'' principle as we 
consider potential major reform? The original Goldwater-Nichols Act and 
other defense legislation mandated specific actions, but also provided 
a great deal of flexibility to the Department. Flexibility in direction 
has allowed us to evolve and adapt, to make corrections, without 
recourse for new legislation. In order to maintain this positive 
environment that supports growth and flexibility, we will take a 
conservative approach to recommending actual changes in legislation, 
and prioritize making changes within the authority already existing 
under current laws. We will take the approach of focusing on the 
outcomes we want, which allows for flexibility in the ``hows'', vice 
trying to dictate very specific processes and structures that are 
difficult to undo.
    c. How is the communication between the defense committees and the 
OSD and Joint Staff working groups that are also examining the same 
issues? The Marine Corps has been participating in the OSD and Joint 
Staff-led reform efforts and, from our perspective, have seen no issues 
with their communication with legislative defense committees. However, 
I would defer an answer to this question to the responsible OSD and 
Joint Staff leadership.
    Mr. Lamborn. Can you each outline your top cyber challenges in 
terms of manning, resourcing and authorities? Are you properly 
resourced to handle these challenges?
    General Neller. We project MARFORCYBER's manpower models to be 
sufficient to present forces to USCYBERCOM as planned in the Cyber 
Mission Force build. While we anticipate achieving the hiring goals 
required for MARFORCYBER teams to reach FOC, we will continue to face 
challenges recruiting top-tier talent for critical, niche billets such 
as tool developers. The demand for cyber-related military occupational 
specialties has out-paced our ability to fill them, particularly in the 
staff-noncommissioned officer ranks. In the near-term, we are 
strengthening our manpower posture by employing manpower tools such as 
re-enlistment bonuses and lateral movement career opportunities. Our 
long-term solution will require a large-scale force modernization 
effort of the communications/cyber occupational field. While we are 
making strong progress towards building capacity and achieving 
operational outcomes with our current resource baseline, maintaining a 
credible force will remain a resource intense challenge beyond the 
initial build due to the constantly changing cyber environment. 
Equipping cyber teams with effective cyber incident response tools and 
acquiring cyber tools to obtain real time awareness of network activity 
and defend our networks, are our top priorities. We continue to refine 
our requirements in response to the rapidly evolving threat 
environment, leveraging industry and government resources where 
appropriate. We continue to be challenged by the lack of a rapid 
acquisition authority responsive enough to meet the demands of a 
dynamic, rapidly changing operating environment. While we are working 
within the service to refine our existing procedures, we continue to 
accept risk by using acquisition procedures that favor efficiency over 
effectiveness. Similarly, we remain challenged by the need to build and 
maintain a specially trained, highly skilled workforce of contract 
civilians to provide capabilities complimentary to those of the 
uniformed force. Sourcing solutions constrained to lowest cost vendors 
are unlikely to satisfy this requirement.
    Mr. Lamborn. There has been a lot of talk on the need for 
Goldwater-Nichols reform and our colleagues in the Senate have 
undertaken a hearing series on the topic. a. What is the problem that 
such reform is trying to solve? Is there a problem we need to solve? b. 
How can we best prioritize the ``do no harm'' principle as we consider 
potential major reform? c. How is the communication between the defense 
committees and the OSD and Joint Staff working groups that are also 
examining the same issues?
    Secretary James and General Welsh. The Goldwater-Nichols Act has 
been hugely successful in achieving joint levels of operation that we 
did not have 30 years ago when the Act was passed. After 30 years of 
experience operating under the Goldwater Nichols Act, a review can help 
identify needed improvements. The trans-regional, multi-functional and 
multi-domain integration required to engage in today's security 
environment is quite different from 30 years ago. It is the right time 
to assess roles and responsibilities to effectively plan and react to 
threats; identify opportunities to ensure we continue to provide the 
best military judgement and advice across the Joint Chiefs of Staff to 
the President, Secretary of Defense and Service Secretaries; and 
continue to find areas where we should eliminate duplication in 
structure and staffs to put resources towards operational capability 
versus management overhead.
    As we consider potential major reform the ``do no harm'' principle 
is very important. We suggest first consideration to the changes 
developed and presented from the ongoing DOD Organization and 
Responsibilities Review. Where there are more ambitious proposals for 
reform being considered by defense committees from those proposed by 
the Department, we should ensure they have been adequately studied and 
there has been thoughtful discussion between defense committees and 
Department leadership (to include Service Secretaries and Joint Chiefs) 
before those proposals are legislated and acted upon.
    Regarding communications between the defense committees and the OSD 
and Joint Staff working groups the insights we have indicate they have 
been helpful, but more discussion is needed as the Department 
recommendations for reform and those proposed by defense committees 
become more mature.
    Mr. Lamborn. Can you each outline your top cyber challenges in 
terms of manning, resourcing and authorities? Are you properly 
resourced to handle these challenges?
    Secretary James and General Welsh. To date, the Air Force has 
fielded 26 Cyber Mission Force (CMF) teams at initial operating 
capability or better and the remaining 13 teams are tracking toward 
initial operating capability by the end of 2017. All 39 teams are 
projected to be at full operating capability in 2018. Within the 
current fiscal constraints, there are manning and resource challenges 
in meeting these target dates:
    The Air Force's top resourcing challenges are (1) establishing 
Squadron support staffs and (2) creating adequate training capacity. 
The resourced CMF billets (1,715 Air Force) did not include classroom 
instructors, on-net trainers, polygraphers, and unit support staff. To 
meet these requirements, the Air Force moved manpower authorizations, 
hired additional personnel and organized support staffs within an 
already strained force structure and budget. Further, the increased 
training capacity requires an increase in physical space and some 
modifications to existing structures to include: constructing a new 
schoolhouse at Joint Base San Antonio; renovating the schoolhouse at 
Hurlburt Field, Florida; and accrediting classrooms as Sensitive 
Compartmented Information Facilities (SCIFs) at the existing Keesler 
AFB schoolhouses.
    With respect to authorities, there are no challenges. USCYBERCOM 
possesses and has delegated the required authorities to subordinate 
commands to accomplish their assigned missions.
    To meet these challenges, the Air Force is partnering closely with 
USCYBERCOM and the other services in the fielding of the cyber mission 
force. Within the Air Force, we are continually monitoring and 
adjusting personnel and training policies and processes to speed the 
fielding of the cyber mission force, while building a sustainable Air 
Force cyber enterprise.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of servicemembers 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the Armed 
Services, not just to the Army. Do any of you believe that your 
services' discharge review boards should be more friendly to veterans 
appealing their discharge on account of PTSD diagnosis? And if so, do 
you have any specific proposals?
    Mr. Murphy. Yes, the Army Review Boards Agency (ARBA) is committed 
to providing Army Veterans due consideration for each application. 
Since June 2015, ARBA has taken a more aggressive approach in 
requesting medical reviews of all cases involving claims of Post-
Traumatic Stress Disorder (PTSD) or Other Behavioral Health (OBH) 
issues. As of November 2015, ARBA has a full-time civilian Clinical 
Psychologist on staff specifically to review those types of cases. In 
the near future, ARBA will add another civilian Clinical Psychologist, 
a uniformed Clinical Psychologist and a civilian Psychiatrist.
    If a previous applicant reapplies for a discharge upgrade and 
claims PTSD, given the new guidance, ARBA will consider it as a new 
case. As we review the Army process, we will identify any required 
additional authorities and work them through the Department of Defense 
accordingly
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for active duty members. Do any of you 
believe that end-of-service physicals should be permitted for National 
Guard members and Reservists if they'd like a physical to document any 
service-related injuries or disabilities? How do you ensure that Guard 
and Reserve members' service-connected injuries are documented?
    Mr. Murphy. In accordance with current policy, any Army Soldier, 
whether Active or Reserve Component, may request a Separation Health 
and Physical Exam (SHPE) even if one is not required. The Army believes 
that every Soldier with a validated service connected injury should 
receive treatment at a DOD military treatment facility, DOD TRICARE 
network, or Department of Veteran Affairs (VA) facility. The Army 
supports this by ensuring that all eligible Soldiers complete a SHPE 
prior to separation in accordance with Headquarters, Department of the 
Army (HQDA), Execute Order (EXORD) 162-15. There is a pending 
Department of Defense Instruction (DODI) that will supersede this 
guidance and apply to all Services. The Separation Physical and Health 
Exam requirement applies to members of the Reserve Components on 
contingency orders for greater than 30 days or active duty orders other 
than training for 180 days or more.
    Service-connected injuries, illnesses, or exposures for Reserve 
Component Soldiers are documented and adjudicated using the Line of 
Duty (LOD) determination process in accordance with AR 600-8-4. All 
clinical documentation relating to the injury is captured in the Health 
Readiness Record (HRR). Any Reserve Component Soldiers with an ``in 
line of duty, yes'' (service-connected) determination are eligible for 
treatment at a military treatment facility or through the Military 
Medical Support Office (MMSO). If the Soldier does not reside in in the 
general area of a military treatment facility, the Soldiers and his 
unit, coordinates through MMSO for civilian provider care, which is 
then paid through TRICARE. Soldiers may be eligible for loss-of-income 
payments via the Incapacitation Pay (INCAP) program or Reserve 
Components Managed Care (RCMC). Detection and discovery of service-
connected injuries can result from information transfer at the time of 
injury, from PHA medical surveillance events, or from Soldier 
disclosure. It is the Soldier's unit's responsibility to initiate an 
LOD investigation as appropriate upon discovery. All clinical medical 
documentation compiled over the career of the Soldier will be 
electronically transferred to the VA via the Healthcare Artifacts and 
Images Management Solution (HAIMS) interface upon request, or within 45 
days of Soldier discharge, for use in determining disability.
    Mr. Coffman. Please outline your plans for operationalizing the 
Guard and Reserve forces? Where might the Air Force's model could be 
applicable as a guide? What do you need from Congress to assist you in 
working toward an operationally-ready Guard and Reserve Force?
    General Milley. We are committed to operationalizing the Army 
National Guard (ARNG) and Army Reserve in support of Army requirements. 
This begins with increasing the number of ARNG Combat Training Center 
rotations from two to four per year and increasing the number of Army 
Reserve forces' annual training days. We also plan to increase ARNG and 
Army Reserve Component deployments to Europe, the Middle East, and 
Asia, reinforcing our commitment to the Army Total Force Policy. The 
U.S. Air Force's associated unit model has proven instructive as we 
examine additional ways to integrate Active and Reserve Component 
formations in support of operational missions. The Army just announced 
the Associated Units Program to associate ARNG units with Active 
Component formations and vice versa to deepen ties and increase the 
readiness of both components. Going forward, we request Congress fully 
support the Department's Overseas Contingency Operations and Base 
funding request for 12304(b) authorizations--roughly 3,000 man-years--
so that the Army can resource its Total Force Policy and operationalize 
ARNG and Army Reserve forces.
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of servicemembers 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the Armed 
Services, not just to the Army. Do any of you believe that your 
services' discharge review boards should be more friendly to veterans 
appealing their discharge on account of PTSD diagnosis? And if so, do 
you have any specific proposals?
    Secretary Mabus. [The information was not available at the time of 
printing.]
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for active duty members. Do any of you 
believe that end-of-service physicals should be permitted for National 
Guard members and Reservists if they'd like a physical to document any 
service-related injuries or disabilities? How do you ensure that Guard 
and Reserve members' service-connected injuries are documented?
    Secretary Mabus. All members of the Department of Navy (DON) 
preparing for release from active duty are required to take a 
comprehensive Separation History and Physical Examination (SHPE) prior 
to their scheduled date of release. This also applies to Reserve 
Component (RC) members in an active duty status for 180 days or more or 
RC members serving on active duty for a period of more than 30 days in 
support of contingency operations.
    Additionally, if at any time an RC member incurs or aggravates an 
illness or injury while on active duty for 31-179 days, their current 
health status will be documented on DD Form 2697, Report of Health 
Assessment, before completing their scheduled tour of duty.
    Service members separating from Selected Reserves not otherwise 
required to receive a SHPE may request a SHPE within 6 months before 
the scheduled date of separation.
    All medical documentation from the SHPE is filed into the Service 
member's Service Treatment Record. All Service members are required to 
provide complete and accurate information for the documentation of the 
history and symptoms of illnesses or injuries in the Service Treatment 
Record. This includes documentation of care received from civilian 
sources.
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of servicemembers 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the Armed 
Services, not just to the Army. Do any of you believe that your 
services' discharge review boards should be more friendly to veterans 
appealing their discharge on account of PTSD diagnosis? And if so, do 
you have any specific proposals?
    Secretary James. The Air Force Discharge Review Board (AFDRB) 
adjudicates cases with a focus on fairness, equity and due process for 
all who appear before the Board. While cases that entail a PTSD 
diagnosis are a small subset of the total cases reviewed by the AFDRB, 
the Board does provide close scrutiny for these cases, regardless of 
the service characterization, and carefully addresses the unique 
conditions related to a PTSD diagnosis and a corresponding 
administrative discharge.
    Prior to administrative separation from service, processes are in 
place to ensure that mental health conditions are considered. All 
Airmen subject to administrative separation are afforded a medical 
evaluation. Members identified with PTSD or other potentially 
disqualifying mental health conditions receive evidence-based treatment 
and have their progress tracked by the installation Deployment 
Availability Working Group (DAWG), which makes recommendations for the 
appropriate disposition for members with conditions that may render 
them unfit or unsuited for military service. Service members who have 
served in an imminent danger pay area and have an unsuiting mental 
health diagnosis as the basis for an administrative separation 
recommendation have a secondary review of their case by an additional 
mental health professional, the Air Force Surgeon General or their Flag 
Officer designee. Additionally, if an Airman is being discharged for 
reasons other than mental health, providers must consult with the DAWG 
if the Airman reasonably alleges PTSD or traumatic brain injury (TBI) 
affected their behavior or the conditions that led to their pending 
discharge.
    Through the AFDRB, mental health conditions of veteran's are again 
considered. When a veteran's case reaches the AFDRB, all applications 
receive review by a medical professional for any mental health 
diagnosis (including PTSD and TBI). Applications with a mental health 
diagnosis are referred to a Mental Health specialist (psychiatrist or 
clinical psychologist) for thorough review. The Mental Health 
specialist is also a voting member of the AFDRB for applications with a 
mental health diagnosis.
    These procedures ensure any behavior associated with the PTSD 
diagnosis is addressed during the AFDRB proceedings and explained to 
all AFDRB members. Additionally, the AFDRB offers the following 
Personal Appearance options: personal appearances before the Board may 
be made in the DC area (Joint Base Andrews, MD) and via regional video 
teleconference (VTC) for other AF installations. Regional VTCs are 
scheduled on a quarterly basis in Georgia, Texas, and California. The 
Board is exploring the possibility of expanding the VTC option for 
applicants to use other Federal Agencies (not limited to AF 
installations). The Board is also reviewing options to include 
Skype<SUP>TM</SUP> or Face Time related applications--including how to 
handle the pre-hearing records review with the applicant. These options 
allow all applicants an opportunity to present their case, including 
those with a PTSD diagnosis who may have travel restrictions.
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for active duty members. Do any of you 
believe that end-of-service physicals should be permitted for National 
Guard members and Reservists if they'd like a physical to document any 
service-related injuries or disabilities? How do you ensure that Guard 
and Reserve members' service-connected injuries are documented?
    Secretary James. Yes, in fact Guard and Reserve members currently 
have multiple avenues to report service-related injuries or 
disabilities in a timely manner throughout their career. These include:
    a) Members complete the mandatory AF Web Health Assessment (self-
reporting health status tool) annually IAW AFI 44-170, Preventive 
Health Assessment.
    b) AFI(s) 10-203, Duty Limiting Conditions and 48-123, Medical 
Examinations and Standards, directs members to notify commander and 
medical unit of any change in health status.
    c) AFI 36-2910, Line of Duty (LOD) Determination, Medical 
Continuation (MEDCON) and Incapacitation (INCAP) Pay directs members 
who incur or aggravate an injury, illness or disease while in a duty 
status to report within 24 hours to the member's commander and 
servicing medical facility/unit. For Air Reserve Component (ARC) 
members, when not in a duty status, report ideally within 72 hours or 
less. This instruction also provides guidance for case managing to 
ensure ARC members receive the proper treatment, evaluation, benefit 
counseling, and referral services.
    d) DOD requires a total of five Deployment Related Health 
Assessments (DRHAs) [DRHA #1-DD Form 2795, DRHA #2-DD Form 2796, DRHA 
#3-DD Form 2900, DRHA #4-DD Form 2978, and DRHA #5-DD Form 2978]. DRHAs 
assist with the early identification and management of deployment-
related health concerns and conditions that may surface in the months 
before or the months to years after deployment.
    e) AFI 48-145, Occupational and Environmental Health Program, 
ensures all occupational and environmental illnesses reported are 
investigated, initiated in Air Force Safety Automated System (AFSAS), 
and closed within 30 days IAW requirements in AFI 91-204, Safety 
Investigation and Reports.
    f) The Separation History and Physical Examination which occurs 
after being on orders for named contingencies 30 continuous days or 
greater, or on orders of 180 days or longer, DOD Instruction 6040.46.
    Mr. Coffman. There have been recent discussions about eliminating 
the use of the Atlas V launch vehicle. Please explain about how this 
might increase costs or create scheduling delays for our national 
security space program? Are there other risks or implications?
    Secretary James and General Welsh. A majority of launches performed 
by United Launch Alliance (ULA) use the Atlas V launch family. As a 
result, not as many Delta IVs are produced and ULA has not maximized 
the throughput for the Delta IV family. It will take time to increase 
this capability, resulting in launch delays until ULA's manufacturing 
capability catches up. This will lead to increased satellite storage 
costs and increased costs to fund any obsolescence costs associated 
with the Delta IV. Tory Bruno, CEO of ULA, publicly stated at the HASC 
Strategic Forces subcommittee hearing on 26 Jun 15 that it costs 35% 
more to build a Delta IV launch vehicle than an Atlas V. Since the 
Delta IV is not commercially competitive, ULA currently plans to end 
single core Delta IV production after Phase 1 launches are completed in 
FY 2019.
    ULA has committed to producing the Delta IV Heavy Launch Vehicle to 
meet National Security Space (NSS) requirements for as long as the DOD 
requires, funds, and/or until the ULA Vulcan or another New Entrant is 
certified to meet those Heavy Spacelift requirements. At this time, the 
pre-decisional Air Force estimate projects a cost increase in excess of 
$1.5B to shift from executing Phase 2 with a mix of Falcon, Atlas V, 
and Delta IV Heavy launches to a Delta IV/Falcon split buy. In 
testimony Secretary James provided a range of $1.5 billion to $5 
billion in potential extra costs for responsibly transitioning our 
space launch from reliance on the RD-180 rocket engine. The $5 billion 
estimate represents Air Force projections considering a worst case 
scenario of an immediate loss of RD-180s. Such a scenario assumed 
planned launches would be re-manifested, a lack of competition until 
2022, and infrastructure for Delta IV rockets would be maintained.
    Mr. Coffman. On the subject of space access and launch, can you 
explain the Air Force's position on the necessity to optimize the 
launch vehicle with the first stage engine?
    Secretary James. As Dr. LaPlante, former Assistant Secretary of the 
Air Force for Acquisition, testified during last year's Space Launch 
Hearing, we know from our prior experience in developing rockets 
throughout the past several decades that a rocket engine and its 
associated launch vehicle must be designed concurrently. In essence, we 
build the rocket around the engine. In cases where launch vehicle 
families had new engines installed, the launch vehicles were either 
significantly redesigned or the overall system was operated with 
limitations that provided less capability than would have been possible 
if the launch vehicle were redesigned. Technical challenges that must 
be addressed include vibrations from the engine that ripple throughout 
the vehicle during its travel, potentially damaging the satellite; 
ensuring the launch vehicle structure can withstand these ripples and 
loads without breaking; optimizing fuel storage and flow for the 
engine's performance characteristics; and one of the greatest 
challenges, combustion stability of a high-performance engine.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Secretary Murphy, Congress has demonstrated their 
desire for the Department of Defense to use Tubular LED (TLED) lights 
to replace fluorescent lights through many legislative means in the 
recent past. Congress has also encouraged the DOD to change the Unified 
Facilities Criteria (UFC) to allow greater usage of TLEDs on military 
bases. I was surprised to see that on 3 March 2016, the UFC was changed 
to prohibit the Army from using TLEDs. Can you please explain why a 
proven technology, which can save the Army over $50 million in energy 
cost each year, is being banned in the face of Congressional will and 
in contradiction to the Navy allowing TLEDs?
    Mr. Murphy. The Unified Facilities Criteria (UFC) prohibited 
Tubular LEDs (TLEDs) in Army lighting projects due to safety concerns 
over several TLED manufacturer recalls, as well as a lack of 
consistency in vendor products. The Army has been following the 
progression of the technology. TLED products have matured, and there is 
now more consistency in the products, allowing minimum requirements to 
be established. As a result, the Army has made the decision to allow 
TLEDs in retrofit projects. Waivers to the UFC are being allowed while 
the UFC 3-530-01 is being modified to allow TLEDs for the Army. The 
change will be published by June 1, 2016. The lighting Unified 
Facilities Guide Specification that identifies the minimum TLED 
requirements will be published by May 15, 2016. These modified criteria 
documents will give the Army an additional tool to reduce energy 
consumption, while providing a safe solution for meeting our energy 
goals.
    Mr. Brooks. Secretary Mabus, Congress has demonstrated their desire 
for the Department of Defense to use Tubular LED (TLED) lights to 
replace fluorescent lights through many legislative means in the recent 
past. Congress has also encouraged the DOD to change the Unified 
Facilities Criteria (UFC) to allow greater usage of TLEDs on military 
bases. Mr. Secretary, with your continued efforts to both introduce 
innovation and to increase energy efficient technologies, I was 
surprised to see that on 3 March 2016, the UFC was changed to restrict 
the use of direct wire TLED on Navy facilities. I was pleased when the 
Navy brought the new, safe direct wire TLED technology to the Fleet 
with great energy and manpower savings. Can you please explain why a 
proven technology, which can save the Navy more than $50 million 
annually in energy cost for the fleet, is being banned in the face of 
your efforts to provide a Navy that is on the cutting edge of 
innovation?
    Secretary Mabus. [The information was not available at the time of 
printing.]
    Mr. Brooks. Secretary James, Congress has demonstrated their desire 
for the Department of Defense to use Tubular LED (TLED) lights to 
replace fluorescent lights through many legislative means in the recent 
past. Congress has also encouraged the DOD to change the Unified 
Facilities Criteria to allow greater usage of TLEDs on military bases. 
I was surprised to see that on 3 March 2016, the UFC was changed to 
prohibit the Air Force from using TLEDs. Can you please explain why a 
proven technology, which can save the Air Force over $40 million in 
energy cost year, is being banned in the face of Congressional will and 
in contradiction to the Navy allowing TLEDs?
    Secretary James. Over the last few months, the Air Force has been 
meeting with experts from private industry, the other Services, and the 
Department of Energy to ensure it understands the performance and 
safety issues surrounding TLEDs. As the requirements for each Service 
differ, the Air Force wanted to ensure the switch to permitting TLEDs 
would not jeopardize the health and safety of its Airmen. Based on the 
analysis conducted, the Air Force drafted a policy to remove the 
prohibition of TLED lamps found in UFC 3-530-01, Interior and Exterior 
Lighting Systems and Controls. This policy, which is currently in 
coordination, had not been finalized in time to be incorporated into 
the last UFC revision.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. The recent rise in nuclear threats from countries 
like North Korea and Iran and non-state actors such as ISIS, who are 
making serious and dangerous attempts to obtain nuclear material to 
create a ``dirty bomb,'' puts our troops at increased risk for exposure 
to dangerous levels of radiation. Given this nuclear threat, what is 
the Army's acquisition plan to field a modern dosimeter system capable 
of detecting radiation on the battlefield that is not susceptible to 
being incapacitated by electromagnetic pulse?
    Additionally, the United States Government has paid billions of 
dollars to individuals who were exposed to radiation through their 
participation in the nation's defense efforts. Modern dosimetry 
technology allows the Government an equitable means to justly 
compensate claims in a timely manner. What steps is the Army now taking 
to ensure any fielded dosimeter system is capable of providing a legal 
dose of record which can be maintained in a soldier's medical record 
for the duration of their military career?
    Mr. Murphy and General Milley. The Army's acquisition plan is to 
field a modern dosimeter system capable of detecting radiation on the 
battlefield that is not susceptible to being incapacitated by 
electromagnetic pulses (EMP). This plan includes continuing to field 
and use the current DT-236 series dosimeters and future fielding of the 
Joint Personnel Dosimeter--Individual (JPD-I). The JPD-I will also not 
be incapacitated by EMPs.
    Dosimeters are designed to record and indicate the absorbed dose of 
radiation received by Soldiers. The Army is ensuring that the dosimeter 
system being used by warfighters correctly records the legal dose of 
radiation in Soldier's medical records for the duration of their 
service. The current system being fielded in the DT series, the DT-236A 
and the JPD-I, are both able to provide this legal dose of record.
    The Army plans to begin fielding the JPD-I to the Active and 
Reserve Component in Fiscal Year 2020.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. STEFANIK
    Ms. Stefanik. Through the posture hearings of the past few months 
we have heard about evolving strategic threats from a resurgent Russia, 
destabilizing threats from both state and non-state actors in the 
Middle East, and increasingly provocative activity coming out of the 
Pacific region. I want to focus on readiness, but in the context of 
emerging threats, and maintaining the edge on a 21st century 
battlefield:
    1) ISIL was able to establish a presence online that allowed them 
to rapidly recruit and radicalize through social media at unprecedented 
levels even in ungoverned space. What is the DOD capacity moving 
forward to counter this capability through both digital technology and 
messaging strategy?
    2) We've seen cyber play a more significant role in our emerging 
strategic challenges--how confident are you moving forward that our 
cyber capabilities are robust enough to take on the threats of the 
future? What level of risk are we assuming with our cyber community, 
and what do you consider an acceptable level of risk when it comes to 
our cyber capabilities?
    General Milley. 1) With regard to countering ISIL capability 
through digital technology, the Joint Force Headquarters Cyber has 
prepared and continues to prepare forces to respond, in support of 
Combatant Commanders, across the continuum of threats. DOD directed the 
creation of 133 Cyber Mission Force Teams of which the Army is 
responsible for creating 41 teams (37 Initial Operating Capability and 
11 Full Operating Capability). A portion of these teams are actively 
supporting U.S. Central Command operations. With regard to messaging 
strategy, Army Service Component Commands support the appropriate 
Combatant Command with synchronized messages and actions.
    2) The Army is building our cyber capabilities to neutralize and 
defeat the threats of the future. The Army's cyber initiatives are 
synchronized with the Department of Defense. The Army is on track to 
build our portion of the Joint Cyber Mission Force. We have developed 
the Army Cyberspace Strategy that address our challenges and way 
forward from building the cyber force to industrial outreach. When 
assessing our risk to meet Combatant Commander and Departmental 
requirements, to date, the Army has met the demands for cyber forces 
and is meeting the Department's cyber goals. However, the Army is 
concerned about the development of near-peer cyber threats and the 
Army's capability to be resilient to those attacks and negate the 
threats. In response to this concern, the Army developed a Cyber Strong 
Resiliency plan and continues to monitor its impact.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING





    Dr. Fleming. General Milley stated before the committee: ``Less 
than one-third of Army forces are at acceptable readiness levels to 
conduct sustained ground combat in a full spectrum environment against 
a highly lethal hybrid threat or near-peer adversary.'' He also 
testified before the committee stating that increased end strength 
would buy Army the time needed to mitigate its readiness shortfalls and 
alleviate the strain on the force due to the high OPSTEMPO.
    Is Army's readiness adequate and its OPSTEMPO sustainable for 
meeting current and emerging requirements and how specifically would an 
increase in Army's end strength mitigate the strain on the force and 
build the readiness over time needed to challenge a near-peer adversary 
like Russia?
    Mr. Murphy and General Milley. The Army provides ready forces to 
meet Combatant Command requirements however, this comes at the expense 
of building core readiness required for future emergent and contingency 
demands. Current operations tempo, growing global instability, and lack 
of consistent and predictable funding over time will challenge the 
Army's ability to regain and sustain the combined arms proficiency 
needed for future contingencies.
    An Army at 980,000 is at high military risk of being unable to meet 
Defense Planning Guidance requirements to defeat an adversary in one 
major combat operation while simultaneously denying the objectives of 
an adversary in a second theater.
    Dr. Fleming. General Milley stated before the committee: ``Less 
than one-third of Army forces are at acceptable readiness levels to 
conduct sustained ground combat in a full spectrum environment against 
a highly lethal hybrid threat or near-peer adversary.'' He also 
testified before the committee stating that increased end strength 
would buy Army the time needed to mitigate its readiness shortfalls and 
alleviate the strain on the force due to the high OPSTEMPO.
    Dr. Fleming. General Dunford recently testified that: ``the Joint 
Force will be stressed to execute a major contingency operation,'' and 
that a ``response to aggression by another adversary at the same time 
would be further limited.'' Please explain your assessment for how the 
Army in particular will be ``stressed'' and ``limited'' in these 
scenarios. In light of the ongoing changes in the strategic environment 
as it relates to ISIS, Russia, China, and North Korea, would Army 
recommend that the Department revisit its current force sizing 
construct for the Army?
    Mr. Murphy and General Milley. If asked to respond to a single, 
major contingency operation involving high-intensity ground combat 
against a modernized adversary, the Army will be stressed. Given 
current global operational tempo, such a contingency may require use of 
unready forces, delayed timelines, excessive casualties, and the 
inability to achieve objectives. These risks are compounded for a 
second adversary, and the Army may be limited in how it is able to 
respond.

                                  [all]



</pre></body></html>
